<html>
<title> - MANAGEMENT OF RED SNAPPER IN THE GULF OF MEXICO UNDER THE MAGNUSON- STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
  MANAGEMENT OF RED SNAPPER IN THE GULF OF MEXICO UNDER THE MAGNUSON-

            STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT
=======================================================================


                           OVERSIGHT HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, June 27, 2013

                               __________

                           Serial No. 113-27

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov





                  U.S. GOVERNMENT PRINTING OFFICE
81-806                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F. H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Tom McClintock, CA                   Jim Costa, CA
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Cynthia M. Lummis, WY                    CNMI
Dan Benishek, MI                     Niki Tsongas, MA
Jeff Duncan, SC                      Pedro R. Pierluisi, PR
Scott R. Tipton, CO                  Colleen W. Hanabusa, HI
Paul A. Gosar, AZ                    Tony Cardenas, CA
Raul R. Labrador, ID                 Steven A. Horsford, NV
Steve Southerland, II, FL            Jared Huffman, CA
Bill Flores, TX                      Raul Ruiz, CA
Jon Runyan, NJ                       Carol Shea-Porter, NH
Mark E. Amodei, NV                   Alan S. Lowenthal, CA
Markwayne Mullin, OK                 Joe Garcia, FL
Chris Stewart, UT                    Matt Cartwright, PA
Steve Daines, MT
Kevin Cramer, ND
Doug LaMalfa, CA
Jason T. Smith, MO

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel

                                 ------                                


                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, June 27, 2013..........................     1

Statement of Members:
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     1
        Prepared statement of....................................     3
    Sablan, Hon. Gregorio Kilili Camacho, a Delegate in Congress 
      from the Commonwealth of the Northern Mariana Islands......     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Anderson, Pamela W., Operations Manager, Capt. Anderson's 
      Marina, and Vice President, Panama City Boatman's 
      Association................................................    63
        Prepared statement of....................................    65
    Anson, Kevin, Vice-Chairman, Gulf of Mexico Fishery 
      Management Council.........................................    15
        Prepared statement of....................................    17
    Blankenship, Christopher, Director of Marine Resources, 
      Alabama Department of Conservation and Natural Resources...    20
        Prepared statement of....................................    21
    Boggs, Susan, Co-Owner, Reel Surprise Charter Fishing, Orange 
      Beach, Alabama; Board of Directors, Charter Fishermen's 
      Association................................................    71
        Prepared statement of....................................    73
    Diaz, Dale, Director, Office of Marine Fisheries, Mississippi 
      Department of Marine Resources.............................    33
        Prepared statement of....................................    35
    Malone, Herbert J., Jr., President/ CEO, Alabama Gulf Coast 
      Convention & Visitors Bureau...............................    56
        Prepared statement of....................................    57
    McCawley, Jessica, Director, Division of Marine Fisheries 
      Management, Florida Fish and Wildlife Conservation 
      Commission (FWC)...........................................    24
        Prepared statement of....................................    26
    Pausina, Randy, Assistant Secretary, Office of Fisheries, 
      Louisiana Department of Wildlife and Fisheries.............    30
        Prepared statement of....................................    32
    Pearce, Harlon, Owner, Harlon's LA Fish LLC, Kenner, 
      Louisiana; Representing the Gulf Seafood Marketing 
      Coalition..................................................    58
        Prepared statement of....................................    60
    Riechers, Robin, Director, Coastal Fisheries Division, Texas 
      Parks and Wildlife Department..............................    39
        Prepared statement of....................................    41
    Schwaab, Eric, Acting Assistant Secretary for Conservation 
      and Management, National Oceanic and Atmospheric 
      Administration, U.S. Department of Commerce................     7
        Prepared statement of....................................     9
    Werner, Wayne, Co-Founder, Gulf Coast Professional Fishermen.    68
        Prepared statement of....................................    69

Additional materials supplied:
    Baker, Pamela, Director, Gulf of Mexico and Southeast Oceans, 
      Environmental Defense Fund, Statement submitted for the 
      record.....................................................    83
    Bonner, Hon. Jo, a Representative in Congress from the State 
      of Alabama, Statement submitted for the record.............    84
    Duncan, Hon. Jeff, a Representative in Congress from the 
      State of South Carolina, Chart submitted for the record....    52
    Gulf Fishermen's Association, Clearwater, Florida, Statement 
      submitted for the record...................................    85
    National Ocean Industries Association (NOIA), Press release 
      submitted for the record...................................     6
                                     



  OVERSIGHT HEARING ON ``THE MANAGEMENT OF RED SNAPPER IN THE GULF OF 

 MEXICO UNDER THE MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT 
                                 ACT.''

                              ----------                              


                        Thursday, June 27, 2013

                     U.S. House of Representatives

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to notice, at 10:04 a.m., in 
Room 1324, Longworth House Office Building, Hon. Doc Hastings 
[Chairman of the Committee] presiding.
    Present: Representatives Hastings, Wittman, Fleming, 
Duncan, Southerland; Sablan and Huffman.
    Also Present: Representative Scott.
    The Chairman. The Committee will come to order, and the 
Chairman notes the presence of a quorum, which, under Rule 
3(e), is two Members, and we have doubled that. Thank you all 
for being here.
    The Committee on Natural Resources is meeting today to hear 
testimony on an oversight hearing on the management of red 
snapper in the Gulf of Mexico under the Magnuson-Stevens 
Fishery Conservation and Management Act. Under Rule 4(f), 
opening statements are limited to the Chairman and the Ranking 
Member of the Committee. However, I ask unanimous consent that 
any member of the Committee that would like to have an opening 
statement have it to the Committee prior to the close of 
business today.
    [No response.]
    The Chairman. Without objection, so ordered. I also ask 
unanimous consent that the gentleman from Georgia, Mr. Scott, 
Austin Scott from Georgia, be allowed to sit on the dais and 
participate, if he wishes, in the Committee hearing.
    [No response.]
    The Chairman. And, without objection, so ordered. I will 
now recognize myself for my opening statement.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    The Chairman. I want to welcome all of our witnesses here 
today. I know most, if not all, of you spent last week in the 
Gulf of Mexico Fishery Management Council meeting discussing 
the same topic we are going to discuss today: the management of 
the Gulf red snapper fishery under the Magnuson-Stevens Fishery 
Conservation and Management Act. I appreciate your being here 
to help us understand what the Council is doing and what we can 
do to help.
    You have all heard me say this before. At its most basic 
level, the Magnuson-Stevens Act works. It provides direct 
public involvement through a process that is open and 
transparent, and it allows for establishment of both 
recreational and commercial harvest levels based on science.
    Through our previous hearings, we have heard a lot of 
testimony about how the Act has worked to create economic 
benefits for coastal communities through the sustained use of 
our Nation's fishery resources. Unfortunately, with the 
questionable data being used to set the fishing seasons, with 
States suing NOAA, and with States setting seasons in State 
waters that do not match the Federal fishery management plan, 
the management of red snapper cannot be considered one of those 
success stories.
    The Magnuson-Stevens Act requires sound, scientific 
information to be effective, and it requires that stakeholders 
buy into that information. In the case of the red snapper, that 
does not seem to be the case. The scientific data has lagged 
behind the management measures, and fishermen do not believe 
that the restrictions required by that lag data are really 
necessary. Add to that a management system for the recreational 
sector that ignores the economic concerns of coastal 
communities, and it is not a surprise that the red snapper 
fishery is the subject of this hearing today.
    Red snapper is one of the most valuable fisheries in the 
Gulf of Mexico. Yet the management of the recreational sector 
of the fishery has not provided the flexibility for States and 
communities to maximize the economic value of the charter 
sector, the weekend angler, or the coastal communities. Because 
of this, five bills have been introduced in the last few months 
that would take management of the recreational fishery away 
from the Federal Government.
    Many people have tried to draw an analogy between the red 
snapper fishery and previous management of the striped bass on 
the East Coast. While there are some legitimate comparisons 
that can be drawn, there is one stark example that should not 
be duplicated. In the case of the striped bass, all Federal 
waters were closed with the promise that once the population of 
striped bass recovered, those waters would be open and users 
would benefit. Almost 30 years later, everyone agrees that the 
striped bass recovery has been successful. Yet the Federal 
waters remain closed.
    We have seen this happen before, and we are now seeing it 
in New England. Once an area is closed to fishing, some groups 
will argue that the area should never be reopened to fishing, 
even if the closure is no longer warranted, and the opening is 
based on good, sound science.
    That is a key reason I am so concerned with the ocean and 
coastal zoning plan that this Administration is pursuing under 
the guise of the National Ocean Policy. That policy creates a 
new process for Federal bureaucrats behind closed doors to zone 
our oceans, coastlines, and inland areas using vague criteria 
from an executive order. There is no statutory authority for 
this zoning process. And I am afraid groups would use this 
process to close more and more areas to fishing, both 
recreational and commercial.
    But I digress. The National Ocean Policy is not the subject 
of today's hearing. Today we are here to listen to those who 
are closest to the red snapper fishery management, and to see 
if changes in the Magnuson-Stevens Act are necessary to create 
a better management system for the red snapper in the Gulf.
    I understand the Gulf Council at its last meeting took the 
first steps toward a regional plan that will allow States to 
meet their specific economic needs through different seasons, 
bag limits, and size limits. I look forward to hearing more 
about this from our witnesses, and whether Congress needs to 
act to help in this effort.
    I hope we will also hear other suggestions for how the 
Magnuson-Stevens Act could be modified to provide for better 
management of our fisheries, and the red snapper fishing in 
particular.
    [The prepared statement of Mr. Hastings follows:]

          Statement of The Honorable Doc Hastings, Chairman, 
                     Committee on Natural Resources

    I want to welcome all of our witnesses here today. I know most, if 
not all of you, spent last week at the Gulf of Mexico Fishery 
Management Council meeting discussing the same topic we are going to 
discuss today--the management of the Gulf red snapper fishery under the 
Magnuson-Stevens Fishery Conservation and Management Act. I appreciate 
your being here to help us understand what the Council is doing and how 
we can help.
    You have all heard me say this before--at its most basic level, the 
Magnuson-Stevens Act works. It provides direct public involvement 
through a process that is open and transparent, and allows for the 
establishment of both recreational and commercial harvest levels based 
on science. Through our previous hearings, we have heard a lot of 
testimony about how the Act has worked to create economic benefits for 
coastal communities through the sustainable use of our Nation's fishery 
resources.
    Unfortunately, with the questionable data being used to set the 
fishing seasons, with States suing NOAA, and with States setting 
seasons in State waters that do not match the Federal fishery 
management plan, the management of red snapper cannot be considered one 
of those success stories. The Magnuson-Stevens Act requires sound 
scientific information to be effective and it requires that 
stakeholders buy into that information. In the case of red snapper, 
that does not seem to be the case. The scientific data has lagged 
behind the management measures and fishermen do not believe that the 
restrictions required by that lagged data are really necessary. Add to 
that a management system for the recreational sector that ignores the 
economic concerns of the coastal communities, and it is not a surprise 
that the red snapper fishery is the subject of its own hearing by this 
Committee.
    Red snapper is one of the most valuable fisheries in the Gulf of 
Mexico, yet the management of the recreational sector of the fishery 
has not provided the flexibility for States and communities to maximize 
the economic value for the charter sector, the weekend angler, or the 
coastal communities. Because of this, five bills have been introduced 
in the last few months that would take management of the recreational 
fishery away from the Federal government.
    Many people have tried to draw an analogy between the red snapper 
fishery and previous management of striped bass on the East Coast. 
While there are some legitimate comparisons that can be drawn, there is 
one stark example that should not be duplicated. In the case of striped 
bass, all Federal waters were closed with the promise that once the 
population of striped bass recovered, those waters would be reopened 
and all of the users would benefit. Almost 30 years later, everyone 
agrees that the striped bass recovery has been successful. And yet 
Federal waters remain closed.
    We have seen this happen before, and we are now seeing it in New 
England. Once an area is closed to fishing, some groups will argue that 
the area should never be reopened to fishing even if the closure is no 
longer warranted and the opening is based on sound science. That is a 
key reason I am so concerned with the ocean and coastal zoning plan 
that this Administration is pursuing under the guise of a National 
Ocean Policy. That Policy creates a new process for Federal 
bureaucrats, behind closed doors, to zone our oceans, coastlines, and 
inland areas using vague criteria from an Executive Order. There is no 
statutory authority for this zoning process and I am afraid groups will 
use this process to close more and more areas to fishing--both 
recreational and commercial.
    But the National Ocean Policy is not the subject of today's 
hearing. Today we are here to listen to those who are closest to the 
red snapper fishery management and to see if changes to the Magnuson-
Stevens Act are necessary to create a better management system for red 
snapper in the Gulf.
    I understand the Gulf Council at its meeting last week took the 
first steps toward a regional management plan that will allow states to 
meet their specific economic needs through different seasons, bag 
limits, and size limits. I look forward to hearing more about this from 
our witnesses and whether Congress needs to act to help this effort. I 
hope we will also hear other suggestions for how the Magnuson-Stevens 
Act could be modified to provide for better management of our fisheries 
and the red snapper fishing in particular.
                                 ______
                                 
    The Chairman. With that, I yield back the time and 
recognize the gentleman from the Northern Marianas.

    STATEMENT OF THE HON. GREGORIO KILILI CAMACHO SABLAN, A 
DELEGATE IN CONGRESS FROM THE TERRITORY OF THE NORTHERN MARIANA 
                            ISLANDS

    Mr. Sablan. Thank you very much, Mr. Chairman, and good 
morning, everyone. Today we will hear testimony on the topic of 
red snapper management in the Gulf of Mexico. While I 
understand the economic importance of this fishery to many 
people in the Gulf region, I hope that the Committee will hold 
a hearing soon on the fisheries management challenges facing my 
constituents and others in the Western Pacific.
    But focusing on the issue at hand, I believe a couple of 
facts can help put things in perspective. First, even though 
the abundance of red snapper has increased over the past 
several years, the stock remains over-fished. And over-fishing 
ended just last year.
    Second, the time line for rebuilding the Gulf red snapper 
stock extends until 2032. Therefore, while red snapper 
restoration is moving in the right direction, we are not out of 
the woods yet. Conservative, science-based management of this 
fishery remains critical to achieving sustainable harvest 
levels, and helping the red snapper reclaim its role in the 
Gulf ecosystem from the Florida Keys to Flower Garden Banks.
    Much has been said and written lately about the 
difficulties facing red snapper fishermen in the Gulf. And I 
understand and share the concerns of those who would like to 
see more timely incorporation of data to inform management. I 
also understand the frustration of anglers who have seen their 
fishing season shorten, even as the stock has improved, because 
of open access, increased fishing pressure, and skyrocketing 
harvest rates.
    It is clear that something needs to change in the way that 
the recreational red snapper fishery is managed. However, I 
would argue that any approach that would soften annual catch 
limits, weaken accountability measures, or make enforcement of 
fishery laws and regulations more difficult is not in the long-
term interests of those who depend on Gulf red snapper for 
their livelihood. These tools have been critical in 
kickstarting and sustaining the red snapper recovery, and 
cannot be abandoned.
    Indeed, those with an interest in improving stability in 
recreational management measures would do well to use 
commercial red snapper fishermen as a model. The commercial 
sector has moved from a dangerous derby system to an individual 
fishing quota, an IFQ, that has ensured sustainable, 
accountable, and profitable fisheries. This market-based system 
has allowed them to fish when the conditions are most 
favorable.
    Some innovative ideas for recreation reform have been 
proposed, but I understand they have not been seriously 
considered by the Gulf Council. Development of an IFQ or a 
flexible ``days at sea'' program for head boat and charter for-
hire operations show great promise. But we are only now getting 
to the pilot project stage with the development of an exempted 
fishing permit.
    The use of fix tax to prevent over-harvesting by private 
anglers and improved data collection and integration has its 
roots in the successful American model of wildlife 
conservation, and has proven effective in recreational fishing 
contexts, such as the Florida tarpon and the Louisiana 
recreational offshore landings permit reporting program for 
tuna.
    Finally, the concept of intersector trading of red snapper 
quota between commercial and recreational fishermen has the 
potential to create opportunities, but only if it is a fair 
market. I hope that this hearing will bring further attention 
to those ideas as alternatives to the status quo. I look 
forward to hearing from our witnesses.
    And, Mr. Chairman, at this time I ask for unanimous consent 
to enter into the record a press release from the National 
Ocean Industries Association, praising the Department of the 
Interior's revised rigs to reefs policy developed pursuant to 
National Ocean Policy, because this is an example, an excellent 
example, of how the National Ocean Policy is working to find 
common-sense solutions, and will benefit red snapper fishermen 
in the Gulf of Mexico. Thank you.
    The Chairman. Without objection, it will be part of the 
record.
    Mr. Sablan. Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Sablan follows:]

 Statement of The Honorable Gregorio Kilili Camacho Sablan, a Delegate 
   in Congress from the Commonwealth of the Northern Mariana Islands

    Thank you Mr. Chairman.
    Today we will hear testimony on the topic of red snapper management 
in the Gulf of Mexico. While I understand the economic importance of 
this fishery to many people in the Gulf region, I hope that the 
Committee will hold a hearing soon on the fisheries management 
challenges facing my constituents and others in the Western Pacific.
    Focusing on the issue at hand, I believe a couple of facts can help 
put things in perspective. First, even though abundance of red snapper 
has increased over the past several years, the stock remains 
overfished, and overfishing ended just last year. Second, the timeline 
for rebuilding the Gulf red snapper stock extends until 2032. 
Therefore, while red snapper restoration is moving in the right 
direction, we are not out of the woods yet. Conservative, science-based 
management of this fishery remains critical to achieving sustainable 
harvest levels and helping the red snapper reclaim its role in the Gulf 
ecosystem from the Florida Keys to Flower Garden Banks.
    Much has been said and written lately about the difficulties facing 
red snapper fishermen in the Gulf, and I understand and share the 
concerns of those who would like to see more timely incorporation of 
data to inform management. I also understand the frustration of anglers 
who have seen their fishing seasons shortened even as the stock has 
improved because of open access, increased fishing pressure, and 
skyrocketing harvest rates. It is clear that something needs to change 
in the way that the recreational red snapper fishery is managed.
    However, I would argue that any approach that would soften Annual 
Catch Limits, weaken Accountability Measures, or make enforcement of 
fishery laws and regulations more difficult is not in the long term 
interest of those who depend on Gulf red snapper for their livelihoods. 
These tools have been critical in kickstarting and sustaining the red 
snapper recovery, and cannot be abandoned.
    Indeed, those with an interest in improving stability in 
recreational management measures would do well to use commercial red 
snapper fishermen as a model. The commercial sector has moved from a 
dangerous derby system to an Individual Fishing Quota (IFQ) that has 
ensured a sustainable, accountable, and profitable fishery. This 
market-based system has allowed them to enjoy year-round seasons, and 
to fish when the conditions are most favorable.
    Some innovative ideas for recreational reform have been proposed, 
but I understand that they have not been seriously considered by the 
Gulf Council. Development of an IFQ or a flexible days at sea program 
for head boat and charter for hire operations show great promise, but 
we are only now getting to the pilot project stage with the development 
of an Exempted Fishing Permit. The use of fish tags to prevent 
overharvesting by private anglers and improve data collection and 
integration has its roots in the successful American model of wildlife 
conservation, and has proven effective in recreational fishing 
contexts, such as Florida tarpon and the Louisiana Recreational 
Offshore Landings Permit Reporting Program for tuna. Finally, the 
concept of inter-sector trading of red snapper quota between commercial 
and recreational fishermen has the potential to create opportunities, 
but only of it is a fair market. I hope that this hearing will bring 
further attention to those ideas as alternatives to the status quo. I 
look forward to hearing from our witnesses.
                                 ______
                                 
    [The press release submitted for the record by Mr. Sablan 
follows:]
NOIA PRESS RELEASE
For Immediate Release: Wednesday, June 26, 2013

Contact: Nicolette Nye, (202) 465-8463, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="640a0a1d01240a0b0d054a0b1603">[email&#160;protected]</a>

Revised Policies on Rigs to Reefs are a Step in the Right Direction

    Washington, D.C.--NOIA President Randall Luthi today issued the 
following statement regarding BSEE's Rigs to Reefs Interim Policy 
Document:
    ``The Interim Policy Document provides welcome additional 
flexibility to both industry and government agencies as they jointly 
identify and evaluate suitable structures to serve as continuing havens 
to thriving marine ecosystems following the end of oil and gas 
production. This is a great example of the progress that can be made 
when industry and regulating agencies communicate with each other. It 
is gratifying to see government and industry come together to 
cooperatively and responsibly address this complex and important 
environmental issue. The policy revisions are a step in the right 
direction for the responsible and environmentally conscious use and 
subsequent reuse of the oil and gas infrastructure located in the Gulf 
of Mexico. We appreciate the opportunity to work with BSEE, BOEM and 
other stakeholders in shaping this document, and look forward to 
further refining the process, particularly concerning better use of 
toppled structures on a case-by-case basis, and what additional 
materials can be left on structures as we work through 
decommissionings, rigs to reefs, and special artificial reef sites.''

                                 # # #

ABOUT NOIA
     NOIA is the only national trade association representing all 
segments of the offshore industry with an interest in the exploration 
and production of both traditional and renewable energy resources on 
the nation's outer continental shelf. NOIA's mission is to secure 
reliable access and a fair regulatory and economic environment for the 
companies that develop the nation's valuable offshore energy resources 
in an environmentally responsible manner. The NOIA membership comprises 
about 300 companies engaged in business activities ranging from 
producing to drilling, engineering to marine and air transport, 
offshore construction to equipment manufacture and supply, 
telecommunications to finance and insurance, and renewable energy.
                                 ______
                                 
    The Chairman. Now I want to welcome the first panel here, 
and thank you very much for being here. We have Mr. Eric 
Schwaab, who is Assistant Administrator of the National Marine 
Fisheries Service of NOAA; Mr. Kevin Anson, Vice Chairman of 
the Gulf of Mexico Fishery Management Council; Mr. Chris 
Blankenship, Director of the Marine Resources Division of the 
Alabama Department of Conservation and Natural Resources; Ms. 
Jessica McCawley, Director, Division of Marine Fisheries 
Management for the Florida Fish and Wildlife Conservation 
Commission; Mr. Randy Pausina, Assistant Secretary, Office of 
Fisheries of the Louisiana Department of Wildlife and 
Fisheries; Mr. Dale Diaz, Director of the Office of Marine 
Fisheries, Mississippi Department of Marine Resources; and Mr. 
Robin Riechers, Director of the Coastal Fisheries Division of 
the Texas Parks and Wildlife Department.
    For those of you that have not had an opportunity to 
testify, let me explain the lights here in front of you. First 
of all, your full statement will appear in the record, and you 
are required to submit a full statement. However, you will have 
5 minutes to make an oral statement to talk about your full 
statement, whatever you want to do within 5 minutes.
    But the important part is the lights. When the green light 
is on, that means you are doing very, very well, within the 5 
minutes. But when the yellow light comes on, that means you are 
now down to 1 minute before the 5 minutes is over. And when the 
red light comes on, well, we just don't want to go there, that 
is all.
    [Laughter.]
    The Chairman. I would ask you then to wrap up your oral 
statement when that red light comes on.
    So, with that, we will first recognize Mr. Eric Schwaab, 
whom I said is the Assistant Administrator for NMFS within 
NOAA. And you are recognized for 5 minutes.

 STATEMENT OF ERIC SCHWAAB, ASSISTANT ADMINISTRATOR, NATIONAL 
  MARINE FISHERIES SERVICE, NATIONAL OCEANIC AND ATMOSPHERIC 
                         ADMINISTRATION

    Mr. Schwaab. Thank you. Good morning, Mr. Chairman, Ranking 
Member Sablan, and members of the Committee. Thank you for the 
opportunity to testify today.
    I would like to begin by saying that it has been a great 
honor for me to work with all of you, your staff, our State 
Council, commercial, recreational, and NGO partners, on behalf 
of NOAA over the past few years. Tomorrow I will be leaving 
NOAA, but I do so knowing that collectively we have made great 
progress ending over-fishing and rebuilding fish stocks around 
the country. There is, of course, still much work to be done. 
But we should not lose sight of the progress made, or what is 
required to sustain that progress.
    Today I will discuss the current status of the red snapper 
rebuilding efforts, the challenges in translating rebuilding 
benefits into increased recreational fishing opportunities, and 
some of the options the Council is considering to address 
ongoing management challenges.
    Fishermen have harvested red snapper from the Gulf of 
Mexico since the mid-1800s. In the 1980s and 1990s assessments 
repeatedly showed that the population was over-fished, and 
undergoing over-fishing, and that the conservation measures in 
place at the time were not working. In 1997, a congressionally 
mandated independent peer review of the scientific and 
management basis for red snapper management was undertaken, and 
echoed those findings.
    As required by the 2006 Magnuson-Stevens Act 
reauthorization, the rebuilding plan for red snapper was 
designed to phase out over-fishing between 2009 and 2010, and 
rebuild the population by 2032. Doing so required steep 
reductions in the catch limits.
    At the same time, the commercial fishery moved to an 
individual fishing quota program, which allocates a percentage 
of the commercial annual catch limit based on the fisherman's 
individual landings history. There is clear evidence that these 
management measures and the sacrifices of fishermen they have 
required are paying off. The recently completed benchmark stock 
assessment indicates that we have successfully ended over-
fishing, and that there are more red snapper in the Gulf of 
Mexico today than there have been in decades. The spawning 
potential of the population has more than doubled in the past 5 
years. Recreational fishermen are landing red snapper at three 
times the rate they did in 2006. Fishermen on the West Coast of 
Florida can now target red snapper as the stock expands back to 
its historic range.
    The commercial fishery is fishing year-round. And the 
average ex-vessel price of red snapper in 2012 was 27 percent 
greater than the average inflation-adjusted ex-vessel price in 
2007.
    However, the improved recreational catch rates have had 
unforeseen impacts. Recreational red snapper catch quotas 
increased by 62 percent from 2008 to 2012, but landings 
increased 148 percent during the same time period. The rate of 
landings is outpacing the rate of population growth. As a 
result, the recreational seasons have been progressively 
shorter to prevent catch overages. Recreational fishermen are 
understandably frustrated by this apparent paradox.
    The good news is that the new assessment indicates that 
catch limits can be set higher. The Council is currently 
considering catch limits for 2013, ranging from 10 to 12 
million pounds, which would result in more quota for commercial 
fishermen and more fishing days for recreational anglers.
    But increasing season lengths alone will not fully address 
the long-term needs of recreational anglers. The Gulf Council 
is focused on several other improvements, including evaluating 
regional management. Regional management would give States the 
latitude to adjust seasons and bag limits within an allocated 
quota, according to the express preferences of that State's 
fishermen. Such a system will require the States to work 
closely together and with the Council to ensure fair treatment 
among the States, and adherence to Magnuson-Stevens Act 
standards. This increased flexibility would require strong 
commitments, investment of new resources, and new commitment to 
accountability on the part of the States.
    Regarding science and data, we continue to work, working to 
improve the precision and accuracy of the data used in red 
snapper population assessments, and investments are being made 
in new sampling technologies to improve the efficiency and 
effectiveness of our scientific surveys.
    We are also focused on implementation of the new MRIP, and 
ways to apply promising new technologies like iSnapper and 
iAngler. And just last week, the Council approved an amendment 
providing for electronic reporting to be used by head boats. It 
is noteworthy that this year is the first that the allowable 
red snapper catch limit will exceed the combined commercial and 
recreational catch limit in place before the rebuilding plan 
was implemented.
    This is a critical time in the history of red snapper 
management, and we must respond with thoughtful and disciplined 
planning and decision-making to ensure the fishery is able to 
enjoy the benefits of this rebuilding effort, and meet the 
needs of both current and future generations.
    I am available to answer your questions at the appropriate 
time. Thank you.
    [The prepared statement of Mr. Schwaab follows:]

Statement of Eric Schwaab, Acting Assistant Secretary for Conservation 
 and Management, National Oceanic and Atmospheric Administration, U.S. 
                         Department of Commerce

Introduction
    Good morning, Mr. Chairman and Members of the Committee. I 
appreciate the opportunity to speak with you today about red snapper 
management in the Gulf of Mexico. My name is Eric Schwaab and I am the 
Acting Assistant Secretary for Conservation and Management at the 
National Oceanic and Atmospheric Administration's (NOAA) within the 
U.S. Department of Commerce (DOC). From daily weather forecasts, severe 
storm warnings, and climate monitoring to fisheries management, coastal 
restoration, and supporting marine commerce, NOAA's products and 
services support economic vitality and affect more than one-third of 
America's gross domestic product. NOAA's dedicated scientists use 
cutting-edge research and high-tech instrumentation to provide 
citizens, planners, emergency managers, and other decision makers with 
reliable information they need when they need it.
    Today, I will discuss the current status of the red snapper 
rebuilding efforts, and how the plan to rebuild red snapper has 
benefited and will benefit the population, commercial and recreational 
fishermen, and fishing communities. Also, I will describe the 
challenges we face in translating rebuilding benefits into increased 
recreational fishing opportunities throughout the Gulf of Mexico. 
Finally, I will discuss several options the Gulf of Mexico Fishery 
Management Council (Gulf Council) is considering to address 
recreational management challenges.
Historical Population Trends
    Fishermen have harvested red snapper from the Gulf of Mexico since 
the mid-1800s, more than a century before the first federal fishery 
management measures were established in 1984. Currently, this species 
is one of the most popular and studied in the Gulf of Mexico, and 
National Marine Fisheries Service (NMFS) has conducted ten population 
assessments since the late 1980s. The first assessment, conducted in 
1988, concluded the population was overfished and undergoing 
overfishing, meaning there were too few fish in the water to maximize 
catches over the long term and fish continued to be removed from the 
population at too high a rate. Six assessments conducted in the 1990s 
confirmed that conclusion, suggesting conservation measures such as 
minimum size limits, commercial trip limits, and daily recreational bag 
limits implemented to end overfishing and rebuild the population, as 
required by the Magnuson-Stevens Fishery Conservation and Management 
Act (Magnuson-Stevens Act; P.L. 94-265) were not sufficient. A 
Congressionally-mandated independent peer review of the scientific and 
management basis for red snapper management, completed in 1997, also 
echoed these findings.
Successful Rebuilding Efforts
    The Gulf Council implemented the first red snapper rebuilding plan 
in 1990, but has modified the rebuilding schedule and goals several 
times in response to new scientific information. A rebuilding plan is a 
strategy used to manage catch levels over a specified time period so 
that an overfished population can increase in size to a target level.
    The current red snapper rebuilding plan was designed to phase out 
overfishing between 2009 and 2010 and rebuild the population by 2032. 
The timeframe to rebuild overfished populations varies depending on the 
status and biology of the overfished species. The red snapper 
rebuilding schedule is lengthy because red snapper is a very long-lived 
species, reaching more than 50 years of age, and was severely 
overfished for many decades.
    Substantial changes to the plan, as implemented in 2007, were 
informed by a 2005 population assessment and followed a court ruling on 
a lawsuit filed by the Coastal Conservation Association, Ocean 
Conservancy, and Gulf Restoration Network, who found previous 
rebuilding measures to be insufficient to rebuild the population on 
schedule. These changes reduced the combined (commercial and 
recreational) red snapper catch limit by 45 percent from 9.12 million 
pounds to 5.0 million pounds; reduced the recreational bag limit from 
four to two fish to slow the rate of catch; reduced the commercial 
minimum size limit from 15 inches total length to 13 inches total 
length to reduce regulatory discards in that fishery; and specified a 
maximum level for shrimp fishing effort which, if exceeded, would 
trigger area closures to minimize the incidental take of red snapper in 
shrimp trawls.
    Also in 2007 the commercial red snapper fishery moved to an 
individual fishing quota program (IFQ), which allocates participating 
fishermen a percentage of the commercial annual catch limit based on 
their landings history. The IFQ program is intended and has been 
demonstrated to better align the capacity of the fleet with the 
commercial catch limit, to mitigate short fishing seasons, improve 
safety at sea and increase the profitability of the commercial red 
snapper fishery. Participation in the commercial red snapper fishery, 
measured by the number of accounts holding red snapper IFQ shares, has 
declined by about 25 percent since the program was implemented. IFQ 
participants are targeting red snapper year round. The fishery is 
reportedly safer than it used to be when fishermen were required to 
compete for the catch during very limited season openings. The average 
ex-vessel price of red snapper in 2012 was 27 percent greater than the 
average inflation adjusted ex-vessel price in 2007.
    There is clear evidence that the new measures implemented in 2007 
are paying off. A 2009 red snapper assessment update, and a new 
assessment completed just last month, indicated those measures 
successfully ended overfishing and there are more red snapper in the 
Gulf of Mexico today than in decades. According to the new assessment, 
the spawning potential of the population has more than doubled in the 
last five years. Spawning potential is estimated to have reached 13.4 
percent in 2013--more than half of the 26 percent rebuilding target 
(Figure 1). Spawning potential refers to the number of eggs a fish 
produces over its lifetime in a fished population compared to the 
number of eggs produced by a fish in an unfished population.
    Many Gulf of Mexico fishermen echo the assessment findings, saying 
they are seeing more and larger red snapper than they have seen in 
their lifetime. Recreational fishermen are landing red snapper at three 
times the rate they did in 2006--an estimated 18,000 fish per day 
compared to 6,000 fish per day (Figure 2). In addition, each fish 
weighs more than twice as much as before (Figure 3), and fishermen on 
the west coast of Florida now have new opportunities to target red 
snapper as the stock expands back to its historic range. After decades 
of overfishing, the red snapper populations of the Gulf of Mexico were 
concentrated in offshore waters of the northern Gulf of Mexico. Now, 
catch data indicate red snapper landings are increasing both closer to 
shore and along the west coast of Florida, with some fishermen 
reporting landings as far south as the Florida Keys (Figure 4).
Ongoing Rebuilding Challenges
    The rebuilding process is not yet complete. While the red snapper 
population has increased significantly in size, it has not yet reached 
the rebuilding target. Additionally, as a long lived species, red 
snapper depend upon a fully developed age structure. Currently, the 
population contains a disproportionate number of younger fish. A 
healthy population requires an appropriate mix of fish of different 
ages, including older, larger fish which produce more and healthier 
offspring. The need to complete this rebuilding process places 
continuing, but necessary constraints on the fishery.
    Despite improved fishing experiences and opportunities, improved 
catch rates have unintended impacts on recreational fishing 
opportunities because the rate of landings is outpacing the rate of 
population growth. Recreational red snapper catch quotas increased by 
62 percent from 2008-2012 compared to a 148 percent increase in 
recreational landings per day during that same time period. As a 
result, in compliance with Magnuson-Stevens Act requirements, the 
recreational seasons have been progressively shorter to prevent catch 
overages.
    Recreational fishermen are understandably frustrated with this 
unexpected trend of progressively shorter fishing seasons. We recognize 
the adverse impacts of this trend on recreational fishermen and fishing 
communities and we are actively working with the Gulf Council to 
minimize those impacts throughout the red snapper rebuilding period 
while meeting the legal requirements of the Magnuson-Stevens Act.
    When possible, we make adjustments in support of Gulf fisheries. We 
provided a supplemental recreational red snapper season in the fall of 
2010 after the large-scale fishing closure was implemented in response 
to the Deepwater Horizon event that prevented the recreational fishery 
from reaching its catch limit. We also extended the length of the 
recreational red snapper fishing season in 2012 after determining a 
series of bad weather events likely caused fishing efforts to be lower 
than expected. We continue to look for these types of opportunities to 
adapt and improve our management approach to real time needs and 
conditions. Supplemental seasons have also been provided in the past in 
response to new scientific information, and we will work as quickly as 
possible to implement the Gulf Council's new catch limit recommendation 
this year.
Opportunities for Growth and Improvement
Management
    Our immediate challenge is to continue to translate rebuilding 
success into enhanced recreational opportunity. But doing so will also 
require recreational fishermen to articulate a broad shared vision of 
expectations and needs. The current lack of agreement on management 
goals, how best to approach limiting catches, and the appropriate 
commercial/recreational allocation has significantly stifled Gulf 
Council action to address management challenges. Also, inequities 
created by state jurisdictional and regulatory inconsistencies have 
affected the distribution of recreational fishing opportunities and 
rebuilding benefits, deeply polarizing the Gulf Council on critical 
decisions needed to effectively address long-standing issues. A lasting 
red snapper management strategy will require broad agreement, equitable 
application and management support at both state and federal levels.
    NMFS' primary goal for the recreational red snapper fishery is to 
stabilize the length of the fishing season to provide for-hire 
businesses and private anglers more certainty and security in planning 
their operations and vacations. After several years of very rapid 
growth and change, this goal is now more achievable as increases in 
population abundance and fish size begin to slow and level off. The new 
red snapper assessment that the Gulf Council reviewed the week of June 
17 indicates that a new combined red snapper catch limit can be set at 
a level that is considerably higher than combined commercial and 
recreational catches before we initiated rebuilding, resulting in more 
individual fishing quota for commercial fishermen and more days of 
fishing for recreational anglers.
    Before we reduced catch limits in 2007 to allow for rebuilding, the 
recreational red snapper season lasted for more than six months. 
Although the six-month season afforded recreational anglers more 
fishing opportunities, overfishing persisted and the quality of fishing 
suffered as a result. Now that the stock is rebuilding, the 
recreational catch limit is increasing and a lengthier, more stable 
fishing season may be achieved. But it is unlikely the current 
management approach will support a return to a six-month fishing season 
in the future. Fishery stakeholders and managers will need to work 
collaboratively and agree on common goals and solutions in order to 
maximize fishing opportunities and sufficiently account for scientific 
and management uncertainty that are inherent in managing this dynamic 
population.
    Some of the region's commercial fishermen have looked to catch 
shares and other new tools to stabilize their fisheries and enhance 
economic opportunities. Commercial fishermen who participate in the red 
snapper IFQ program directly benefit from red snapper catch limit 
increases because they each receive additional pounds of red snapper 
quota that can be fished and sold. A five-year review of the commercial 
red snapper IFQ program recently completed by the Gulf Council and NMFS 
concluded the program has increased fishery profitability and achieved 
other stated goals, although there are still opportunities for 
continued improvement. We are proud of our achievements in the 
commercial red snapper fishery and will support Gulf Council action to 
maintain and build upon those successes as we continue to explore 
options for improving management of the recreational fishery.
    Some recreational interests are also beginning to explore new and 
innovative tools and approaches, including regional management by 
states; recreational participation in the commercial IFQ program 
through intersector trading; a charter vessel days-at-sea program; 
separate management of the for-hire and private sectors (sector 
separation); and a tag program. But many of these new approaches are 
highly controversial, as they represent significant changes to the 
status quo. Also, their potential benefits are limited by several 
outdated and unique statutory requirements specific to Gulf of Mexico 
red snapper. For example, section 407(c) of the Magnuson-Stevens Act 
provides specific criteria for identifying participants in, and 
weighing votes cast, in referenda conducted in the fishery based on 
participation in the fishery between 1993 and 1996, restricting our 
ability to conduct fair and meaningful referenda on current management 
proposals. And section 407(d) of the statute requires the Gulf Council 
and NMFS to establish a separate catch limit for the recreational 
fishery to apply to both for-hire and private participants, and to 
close that fishery in-season when we determine the catch limit has been 
reached.
    Finally, at the recently completed Managing Our Nation's Fisheries 
III conference, considerable attention was devoted to new approaches to 
limiting volatility in catch limits. For example, with appropriate 
analysis and adjustment of fishery control rules, it could be possible 
to safely phase-in results of new scientific assessments, rather than 
immediately adjusting the catch limit to the point estimate from the 
assessment.
Science and Data
    While red snapper is one of the most studied species in the Gulf of 
Mexico, we still have much more to learn. Great variability in the 
number of fish surviving to enter the fishery each year and key 
questions about the effects of numerous environmental variables, like 
climate change and oil spills, on long-term productivity have made it 
challenging to effectively manage the population.
    We monitor commercial red snapper catches on a near real-time 
basis, but the current system does not enable us to evaluate 
recreational red snapper data as quickly. We monitor recreational red 
snapper catches by conducting both telephone surveys of angler fishing 
effort and shoreside surveys of angler catch per unit effort. The 
Agency's Marine Recreational Information Program (MRIP) has recently 
implemented survey design improvements that have significantly reduced 
the potential for bias in survey estimators of catch. The MRIP has been 
developing improved sampling and estimation methods in accordance with 
recommendations provided in the National Research Council's 2006 report 
``Review of Recreational Fisheries Survey Methods''. While the 
improvements are yielding improved accuracy, recreational data are 
primarily delivered in two-month increments and generally available to 
fishery managers after an additional 45 days. This means that data 
collected when the recreational fishery opens in June may not be 
available until well after the season is closed. Timeliness of data 
delivery has been particularly problematic for red snapper because the 
population has been actively rebuilding, making it difficult to 
accurately project when the fishery will reach its catch limit. This 
has contributed to a number of recreational overages in recent years 
and we continue to work toward improving the data collection and 
delivery system.
    We are also continuously working to improve the precision and 
accuracy of the data used in red snapper population assessments and 
recently implemented a number of improvements consistent with 
recommendations of the National Research Council's 1998 report 
``Improving Fish Stock Assessments'', including maintaining at least 
one reliable abundance index for each stock. Maintaining long-term 
surveys of fish abundance is invaluable to assessments because those 
data provide an indicator of population status over time. The 
importance of such time series has been driven home by recent 
environmental events, including Hurricane Katrina, the oil spill in 
2010, historic floods in the Mississippi River basin in 2011, and the 
severe drought of 2012; all of which have influenced commercially and 
recreationally important species and their habitats in the Gulf of 
Mexico.
    Investments are being made in new sampling technologies to improve 
the efficiency and effectiveness of our scientific surveys. For 
example, studies are underway to examine the use of towed camera arrays 
for sampling untrawlable reef habitats that are critical for red 
snapper and other commercially and recreationally important fish 
stocks.
    Electronic reporting regulations for commercial dealers and for 
recreational headboat captains will also soon be finalized for the Gulf 
of Mexico and South Atlantic areas. Support for the regulations is 
strong within the fishery management councils and the industry because 
it puts the data into scientists' and managers' hands more quickly.
Current Management Options
    Gulf of Mexico red snapper management has always required balancing 
competing demands and fishery stakeholders and managers are divided 
regarding the appropriate path forward. The Gulf Council is currently 
exploring the following management options:
        <bullet>  A regional management strategy, which would enable 
        recreational red snapper management to vary among states, or 
        defined regions, to meet local needs while meeting Gulf-wide 
        conservation goals.
        <bullet>  Increasing the amount of red snapper allocated to the 
        recreational fishery when distributing future catch limit 
        increases;
        <bullet>  An inter-sector trading program, which would allow 
        for-hire permit holders and potentially private anglers to 
        trade quota with commercial red snapper fishermen to increase 
        the amount of fish available to the recreational fishery.
        <bullet>  A days-at-sea program for the for-hire sector, which 
        would provide those participating in the program a certain 
        number of days to fish per year, then allow participants to 
        choose when to use those days.
        <bullet>  A fish tag program, like those used for hunting, 
        which could limit the number of recreational fishermen that 
        could target red snapper, but provide those fishermen greater 
        flexibility in when they could fish.
    At this time, the Gulf Council is primarily focused on evaluating 
regional management and allocation options. During its June meeting, 
the Council approved regional management options to share with the 
public for comment this summer and requested additional analyses of 
alternative allocation scenarios to review at its August meeting.
    A regional management strategy could effectively resolve the 
current challenges created by inconsistent state jurisdictions and 
regulations. Some of these interstate management challenges are not 
unique to the Gulf of Mexico. In fact, they are present in every region 
where major fisheries span multiple state jurisdictions and have been 
addressed in different regions in different ways, such as through 
legislation authorizing the Atlantic States Marine Fisheries Commission 
as a coordinating body on the U.S. east coast. While there are any 
numbers of models that may work, each requires the collective 
involvement and support of the states, and full accountability to 
comply with agreed upon management strategies.
    Since 1990, the Gulf Council has allocated 51 percent of the red 
snapper annual catch limit to the commercial fishery and 49 percent of 
the annual catch limit to the recreational fishery based on historical 
landings data for each fishery during 1979-1987. However, they are now 
considering reallocating some portion of future catch limit increases 
to the recreational fishery to achieve a more stable fishing season and 
provide recreational fishermen a greater opportunity to benefit from 
rebuilding progress.
    Furthermore, the Gulf Council is exploring ways to improve the 
timeliness of data delivery, including how best to apply promising new 
technological innovations like iSnapper, iAngler, and electronic 
logbooks.
Conclusion
    We have made great progress in rebuilding the Gulf of Mexico red 
snapper population. There is no denying the population is in better 
shape today than has been observed in many people's lifetime. But this 
achievement has not come easily, nor will it be sustained without 
continued attention.
    This year is the first that the allowable red snapper catch limit 
will exceed the combined commercial and recreational catch limit in 
place before the rebuilding plan was implemented. This is a critical 
time in the history of red snapper management, and we must respond with 
thoughtful and disciplined planning and decision making to ensure the 
fishery is able to meet the needs of both current and future 
generations. We must continue the achievements we have gained in the 
commercial fishery while providing greater stability and predictability 
to the recreational fishery. Doing this will require fishermen, fishing 
communities, and other interested parties to define a common, clear 
vision for the fishery. This means grappling with difficult issues like 
allocation, fully exploring all reasonable management options, and 
allowing local debates about controversial approaches, such as catch 
shares and sector separation.
    We must not lose sight of the fact that the current management 
challenges are a function of success. The red snapper population is 
rebuilding and that is a good thing. Now we need to make some tough 
decisions about how to best distribute the hard-earned benefits 
provided by this growing population.
    Currently, all Gulf Coast states have expressed some form of 
support for a regional management strategy and the Gulf Council is 
working to implement such a regime in the recreational fishery for the 
2014 fishing year. NMFS will continue to fully support discussion and 
exploration of this and any other option that has broad stakeholder 
support and provide the fishery greater stability.
    Gulf of Mexico fishermen and fishing communities sacrificed a great 
deal to get us here. It is critical that all involved remain engaged 
and work together to find a way forward in the cooperative spirit that 
the regional fishery management council process promotes.
    Thank you again for the opportunity to discuss Gulf of Mexico red 
snapper management. I am available to answer any questions you may 
have.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] 81806.001
                                 

                                 [GRAPHIC] [TIFF OMITTED] 81806.002
                                 
                                 [GRAPHIC] [TIFF OMITTED] 81806.003
                                 
                                 [GRAPHIC] [TIFF OMITTED] 81806.004
                                 
                                 
                                 
    The Chairman. Thank you very much, Mr. Schwaab. And we are 
honored by your presence here the day before you are leaving 
the agency. So thank you for being here.
    Mr. Schwaab. Thank you.
    The Chairman. And thank you for your time.
    Next, I will recognize Mr. Kevin Anson, Vice Chairman of 
the Gulf of Mexico Fishery Management Council. And you are 
recognized for five minutes.

           STATEMENT OF KEVIN ANSON, VICE CHAIRMAN, 
           GULF OF MEXICO FISHERY MANAGEMENT COUNCIL

    Mr. Anson. Thank you. Good morning, Chairman Hastings and 
other members of the Committee. And thank you for providing me 
the opportunity to speak today. I represent the Gulf of Mexico 
Fishery Management Council and serve as its Vice Chair. The 
Council is responsible for managing 31 species within its reef 
fish management plan. Red snapper has, for many years, received 
the most attention from the Council of all the species within 
this plan.
    In fact, by the end of next month, two special Council 
meetings will have been held just this year with red snapper as 
its only topic. These special meetings were added to the 
Council's meeting schedule to speed up the decision-making 
process to maximize access for Gulf fishers to this 
economically and culturally important resource.
    The commercial fishery is managed by an individual fishing 
quota system, also known as IFQ, which has provided significant 
stability to this sector. However, the recreational sector is 
an open-access system. And, as such, it is much harder to 
maintain harvest limits within management goals.
    The reauthorization of the Magnuson-Stevens Fishery 
Conservation and Management Act in 2006 set the stage for 
stricter management measures to rebuild over-fished stocks, 
including Gulf of Mexico red snapper. However, in order to 
abide by the provisions of the Act, the recreational red 
snapper fishing season has been restricted over 60 percent from 
2009 to current limits for 2013. This reduction has negatively 
impacted coastal communities throughout the Gulf, and has led 
to increasing frustration among its anglers.
    In addition to restrictive management, current measures for 
the entire Gulf may not provide equal benefits to coastal 
communities. For instance, a single, Gulf-wide fishing season 
may benefit one area of the Gulf, which may not suit the needs 
of another area, due to different weather patters and tourist 
seasons. In order to address these issues, an amendment to the 
reef fish management plan is under consideration by the 
Council, which would provide certain management authorities to 
the Gulf States for the management of recreational red snapper 
harvest.
    This amendment, known as regional management, if passed by 
the Council in its current form, and approved by the Secretary 
of Commerce, will delegate to States the authority to set bag 
limits, size limits, fishing season lengths, and subdivide a 
State's quota allocation between private and for-hire sectors. 
This action will represent the first time in the Gulf 
delegation authority will have been given to the States to 
manage a fishery.
    It appears the Council's regional management amendment will 
provide maximum flexibility to the States, short of conducting 
their own stock assessments and setting the amount of allowable 
harvest off their respective coasts, which will remain the 
responsibility of NOAA fisheries. In addition, NOAA fisheries 
will still retain the authority to close Federal waters if and 
when the total Gulf allowable quota has been met, or is 
projected to be met.
    I was asked by the Committee to offer suggested changes to 
the Act which would provide better management of red snapper in 
the Gulf, and my only suggestion is to address Section 407 in 
the Act. This section refers to referendum related to limited 
access privilege programs. It is unclear at what point a 
referendum of permit holders is required when changes are made 
to an existing LAPP amendment. A Gulf Council review of the 
existing red snapper IFQ program is underway, and the Council 
is unclear as to what point changes to the program will trigger 
a referendum vote.
    That concludes my comments. Thank you again for the 
opportunity to address the Committee.
    [The prepared statement of Mr. Anson follows:]

               Statement of Kevin Anson, Vice-Chairman, 
               Gulf of Mexico Fishery Management Council

    Mr. Chairman and members of the Committee, thank you for inviting 
me to appear before you. My name is Kevin Anson and I represent the 
State of Alabama on the Gulf of Mexico Fishery Management Council (Gulf 
Council). My testimony today is an attempt to address your questions 
regarding the management status of red snapper in the Gulf of Mexico. 
Specifically, I will focus on our proposed regional management 
amendment which is intended to provide the Gulf States a stronger voice 
in managing the recreational red snapper component of the fishery and 
address needs for flexibility in managing our fisheries. As you are 
aware, red snapper management in the Gulf has been an ongoing 
challenge. Our attempts to meet the Magnuson-Stevens Fishery 
Conservation and Management Act (Act) objectives for rebuilding fish 
stocks and implementing annual catch limits in the red snapper fishery 
have negatively impacted our commercial and recreational fishermen and 
their respective communities. Management of red snapper is trapped 
between two competing goals: on one hand, meeting the biological 
concerns for rebuilding the stock and the speed of stock recovery, 
while on the other hand, maximizing the social and economic needs of 
our citizens and communities. We feel that the Act and associated 
National Standards appear to place greater weight on biological 
concerns, in terms of the speed of recovering overfished stocks, at the 
expense of the social and economic well-being of the fishery 
participants. The greatest need in Gulf red snapper management is to 
provide the Council with the flexibility to determine the balance 
between these goals.
1.  Council actions at the June 2013 meeting affecting red snapper and 
        their impact on the 2013 season and future seasons.
    Red snapper is one of 31 species managed under the Reef Fish 
Fishery Management Plan of the Gulf of Mexico, yet at our recent June 
meeting, the Gulf Council devoted most of its time to addressing red 
snapper management issues. This speaks both to the importance of red 
snapper, culturally and economically, in our region and our 
constituents' frustrations with status quo management. We have several 
plan amendments under development as we explore management options that 
strive to meet the diverse needs of our fishing communities while 
remaining within the parameters of the Act.
    NOAA Fisheries' Status of Stocks Report to Congress currently lists 
the red snapper stock as overfished, but no longer experiencing 
overfishing as of November 2, 2012. The red snapper stock, like many 
fisheries is managed in weight (millions of pounds). Data collected 
from the recreational sector indicate the average weight of red snapper 
landed throughout the Gulf has increased significantly in the past few 
years. This fact should be reason for optimism among the Gulf's 
anglers, however, the availability of larger red snapper means the 
quota is being met earlier, resulting in ever shortening fishing 
seasons. For example, in 2009 there was a 75-day recreational fishing 
season, but for this year (2013) only a 28-day fishing season was 
determined. Because the rebuilding process has been successful and 
fishermen are observing more and larger red snapper, they have 
expressed increasing frustration and dissatisfaction with how the 
recreational sector is being managed. Regional management is an attempt 
to provide individual regions (states) an opportunity to set the 
fishing season, bag and size limits and/or create sub-sectors (e.g. 
for-hire and private recreational) within the recreational sector.
    Today, I will focus on two items discussed at our June 2013 meeting 
and address their impacts on the current and future fishing seasons: 1) 
the recently completed red snapper stock assessment and 2) a plan 
amendment for regional management of recreational red snapper, to be 
taken up in the next section.
    The recently completed stock assessment for red snapper suggests 
that the rebuilding plan is ahead of schedule and a larger red snapper 
quota is warranted. Following presentation of the stock assessment 
results, the Gulf Council voted to increase the overall 2013 red 
snapper quota to 11.5 million pounds (mp), with 5.635 mp allocated to 
the recreational sector and 5.865 mp allocated to the commercial 
sector. This follows the allocation of 49% to the recreational sector 
and 51% to the commercial sector that was established in 1990. This 
allocation is currently being reviewed in a separate plan amendment and 
could be revised, but is not part of the current action relative to the 
2013 season. Final action on increasing the 2013 red snapper quotas 
will be taken at a special Council meeting to be held July 2013. 
Although 11.5 mp is currently the preferred alternative, a range of 
quotas between 10 mp and 12.1 mp are being analyzed for consideration 
at the July Council meeting.
    There are two concerns with setting the 2013 quota based on the 
landings history of the recreational sector. First, in the event of a 
quota overrun, the Council does not want the total catch to exceed the 
2013 overfishing limit of 13.7 million pounds. Given the requirements 
of the Act, to do so would cause NMFS to reclassify the stock as 
undergoing overfishing and force the Council to take immediate action 
to end overfishing. Second, although there have been several years with 
strong spawning success, the stock assessment indicated below average 
spawning success in the most recent two years. As a result, the 
Scientific and Statistical Committee set reductions in the acceptable 
biological catch beginning in 2014 and 2015, when the fish spawned in 
these poor year-classes become large enough to enter the fishery. The 
Council wants to establish management stability and consistency, 
especially for the recreational sector. To provide stability to the red 
snapper fishery and avoid the disruptive effects of declining quotas, 
the Council has requested the Science Center evaluate a strategy to 
hold harvest levels at the 10 mp through 12.1 mp catch level range for 
2013; and then project what the yields would be for 2014 and 2015. By 
setting the 2013 quotas lower than the acceptable level, the Council 
intends to avoid the need to reduce the quota in subsequent years. This 
management decision is intended to provide socio-economic stability to 
the red snapper fishery.
    Due to the requirements involved in publishing a proposed and final 
rule, the recreational quota increase will be implemented as a 
supplemental season and is anticipated to open no earlier than mid-
September. Stakeholders who operate vessels in the for-hire industry 
have requested the additional fishing days be made available sooner 
than September to help their businesses while private recreational 
anglers will likely enjoy the fall fishing season which may provide a 
boost to local economies. The commercial quota increase will be 
implemented as additional individual fishing quota (IFQ) allocations 
issued to the IFQ shareholders.
    The Council will also decide in July whether the supplemental 
recreational red snapper season should be open for a continuous period 
or for weekends only (Friday through Sunday). The estimate of how many 
days the recreational season can remain open still needs to be 
completed under each harvest scenario, but a weekends-only scenario 
will result in fewer fishing days than a continuous season because of 
higher fishing effort on weekends.
2.  Council progress on regional management to afford more flexibility 
        in the existing management structure.
    At the June 2013 meeting, the Gulf Council reviewed a plan 
amendment for regional management of recreational red snapper. The 
movement toward regional management originated from the public's 
frustrations with ever shortening recreational red snapper seasons, as 
described. Although a supplemental season is expected, this year's 28-
day season exemplifies the instability of recreational red snapper 
management and has deepened the fishing public's frustrations with 
federal fisheries management.
    Regional management is intended to provide greater flexibility at 
the local level in managing the recreational red snapper quota. 
Regional management will allow varying regulations within identified 
regions of the Gulf, in contrast to uniform regulations applied to all 
federal waters. Such regionally specific regulations may be more 
appropriate to the fishing preferences of local fishermen. For example, 
regional regulations could accommodate various tourist seasons or rough 
weather conditions, thereby optimizing fishing opportunities around the 
Gulf. Whatever management options are used by the regions they still 
must comply with National Standards and meet the objectives of the Act.
    Given our current preferred alternatives, regional management will 
employ the delegation provision of the Act, which grants a State the 
authority to regulate fishing vessels outside their state waters (16 
U.S.C. Sec. 1856(a)(3)). Under delegation, each Gulf State will be 
assigned a portion of the total Gulf-wide recreational quota and be 
authorized to establish management measures for its state, including 
bag limits, minimum size limits, and season dates. It is assumed that 
the States will be better able to address the needs of a majority of 
their constituents, compared to Gulf-wide management. For example, if a 
longer recreational fishing season is desired, a State could establish 
their season given local periods of high and low fishing effort.
    At the June 2013 meeting, the Gulf Council requested that public 
hearings be held in each Gulf State. The Council will review public 
hearing comments and make any changes to our preferred alternatives at 
the August 2013 meeting. We intend to take final action on the 
amendment as soon as the August meeting, with the expectation that 
regional management will be implemented prior to the beginning of the 
2014 recreational fishing season, which opens June 1 each year.
3.  Adequacy of Council authority under the Magnuson-Stevens Act to 
        implement a regional management plan and suggested changes to 
        increase flexibility.
    Regional management is essentially a form of co-management, where 
the responsibilities for management will be shared between the State 
and Federal levels. As a form of co-management, the success or failure 
of regional management will depend on cooperation between the States 
and Federal agencies. Under delegation, management at the state level 
is required to remain consistent with the Act, other applicable laws, 
and the red snapper rebuilding plan. Although the States will be 
granted authority to set their own seasons, bag limits, and other 
management measures, the consistency requirements of the delegation 
provision will be interpreted by NMFS, which retains broad authority to 
revoke delegated authority.
    The Act (Section 407(d)) requires NMFS to prohibit the retention of 
fish once the quota is met for the remainder of the year. Under the 
delegated authority of regional management, each State will be granted 
authority to establish management measures to constrain the 
recreational harvest of red snapper to within their apportioned quota, 
and have agreed to prohibit further harvest of red snapper once their 
portion of the quota is met or projected to have been met.
    To date, NMFS has had limited success at constraining recreational 
landings at or below the quota; in five of the last six years, the 
recreational sector's quota has been exceeded. If regional management 
is implemented, it will be the first time the Council has used the 
delegation provision for such a program, and the first time the Gulf 
States will collectively manage a fishery by quotas.
    Part of the difficulty in constraining recreational red snapper 
landings to the quota is due to the lack of timeliness and structure 
within the current data collection system, especially in combination 
with the short recreational season length. Under regional management, 
the Marine Recreational Information Program (MRIP) will continue to 
serve as the final determination of recreational landings, for all 
states except Texas. MRIP landings are calculated in two month 
intervals known as waves, and are not available until 60 days following 
the end of the previous wave. Although the delegation provision appears 
to provide the Council with the flexibility to accomplish regional 
management, cooperation with and by NMFS will be critical to its 
success as the States adjust to the new management regime.
4.  Suggestions for modifications to Magnuson-Stevens Act to create 
        better management of red snapper in the Gulf of Mexico.
    Maximum flexibility remains the Council's greatest need in 
management. This includes the authority to negotiate biological and 
socio-economic objectives for our fisheries. Stringent biological 
requirements for short rebuilding plan timeframes should not overshadow 
the impacts on coastal communities. There is also need for added 
flexibility to increase the minimum set asides for research, broadly.
    Finally, Section 407 of the Act pertains to Gulf of Mexico red 
snapper management. The elimination or extensive revision to Section 
407 would contribute to improving the management of red snapper in the 
Gulf of Mexico. Specifically, it should streamline referendum 
requirements for the red snapper individual fishing quota (IFQ) program 
and provide a consistent set of requirements for referenda across the 
various IFQ programs implemented in the Gulf of Mexico. In addition, 
the elimination or revision of Section 407 should afford more 
flexibility in the definition of recreational red snapper quotas and 
better account for regional specificities which could improve the 
management of the resource. Finally, portions of Section 407 are 
outdated, e.g., Section 407(b) discusses restrictions relative to the 
preparation of IFQ programs for the commercial red snapper fishery and 
prohibits the preparation of such programs prior to October, 1, 2002. 
Should Section 407(c) be revised, Section 303A(6)(D) would need to be 
amended to address those changes.
                                 ______
                                 
    The Chairman. Mr. Anson, thank you very much for your 
testimony.
    And next I will call on Mr. Chris Blankenship, who is the 
Director of the Marine Resources Division for the Alabama 
Department of Conservation and Natural Resources. And, Mr. 
Blankenship, you are recognized for 5 minutes.

  STATEMENT OF CHRIS BLANKENSHIP, DIRECTOR, MARINE RESOURCES 
   DIVISION, ALABAMA DEPARTMENT OF CONSERVATION AND NATURAL 
                           RESOURCES

    Mr. Blankenship. Thank you, sir. Chairman Hastings, Mr. 
Sablan, Committee members, thank you for the opportunity to 
speak with you today. My name is Chris Blankenship, and I am 
the Director of the Marine Resources Division of the Alabama 
Department of Conservation and Natural Resources. On behalf of 
Governor Robert Bentley and Conservation Commissioner Gunter 
Guy, I am honored to speak with you today.
    Red snapper management is of the utmost importance to 
Alabama. Even though we have the smallest coast line, with less 
than 5 percent of the total Gulf coast, we land, on average, 30 
percent of the recreationally caught red snapper in the entire 
Gulf. There will be others here today to testify that know much 
more about the economic impacts of the fishery for Alabama, so 
I will leave the specifics of that to them. But suffice it to 
say that the red snapper fishery is the most important 
recreational fishery to our coastal economy, and it is also the 
area of the most consternation.
    We have such a great red snapper fishery off of our coast, 
because we have the largest artificial reef program in the 
country. There have been over 17,000 reefs placed in the 1,200 
square-mile reef zone managed by my division. Through 
partnerships with the Orange Beach Fishing Association, the 
Coastal Conservation Association, and other private businesses, 
we have placed over 100 military tanks, over 1,000 pyramids, 
derelict bridges and bridge spans, pipes, concrete culverts, 
barges, tubs, dry docks, World War II liberty ships, 
decommissioned oil rigs, and many other structures. These reefs 
have built a concentration in reef fish in higher proportion 
than in some other areas of the Gulf.
    The City of Orange Beach is known as the Red Snapper 
Capital of the World, and has the largest charter fleet in the 
Gulf. But this year they and thousands of private recreational 
fishermen only have access to this great fishery for 28 days. 
Through 1997, the fishery was open year-round. As recently as 
2007, the season was 194 days long. The season is consistently 
shortened, with this year being the shortest ever, even though 
the fishery has dramatically rebounded. This has severely 
affected the coastal economy of coastal Alabama.
    Gulf-wide single stock red snapper management is not 
working for all the States. There is a need for management on 
the regional or State level. Regional management can be done. 
We do it now with other species like speckled trout and red 
drum, as well as other State-managed species. The States each 
have different management measures, commensurate with the stock 
size of those species within their respective States. As an 
example, Louisiana has a 25-fish limit on speckled trout, while 
in Alabama we have a 10-fish limit, because we have different 
stock sizes. But the system works. With management measures 
tailored to the circumstances of their particular fishery, all 
of the Gulf States have viable fisheries for these species. I 
don't think red snapper would be any different.
    Currently, the season begins June 1st of each year in all 
Federal waters, and runs consecutively until the quota is 
projected to be met. Under the regional management, each State 
could set seasons that give the best access to the fish in that 
region. Some States might like to have a spring season. Some 
States, when winds or weather are more favorable, in the fall. 
Some States may want a weekend-only season, or some a split 
season. By allowing each State to manage their allotment of the 
quota, management plans can be crafted that will allow for the 
best combination of management measures for the fishermen and 
the economies of the States, while at the same time continuing 
to rebuild the stock.
    For true regional management, the States and regions will 
need the authority to fully manage the fishery. This includes 
all aspects of management, the most important of which will be 
conducting our own stock assessments by region, and using that 
information to set seasons and management measures.
    Due to the large number of reefs off the coast of Alabama, 
we have a high concentration of red snapper. We do not feel the 
increased habitat that has been created, and the corresponding 
increase in fish is being currently captured correctly in the 
Gulf-wide stock assessment. We are doing a good job of 
monitoring the stock of other State-managed fish, and we feel 
we could do the same with red snapper. This is an area that I 
feel would need to be addressed in the MSA reauthorization. 
From my understanding, the MSA does not currently allow for 
regional stock assessments such as this.
    I have a couple of other things I would like to touch on in 
my remaining few seconds. All of the Gulf States need 
consistent water boundaries for fisheries management. 
Currently, the States of Texas and Florida have 9 miles, while 
the States of Alabama, Mississippi, and Louisiana have 3 miles. 
This is confusing to the public, and does not give a level 
playing field with the management of fisheries.
    Removal of oil rigs with explosives have killed thousands 
of red snapper that we are working so desperately to rebuild 
and manage. I realize that the change was made yesterday, a 
policy change by the Bureau of Safety and Environmental 
Enforcement, and we appreciate that. But mechanical removal of 
the rigs instead of using explosives, and placing more of these 
structures as artificial reefs, will continue to assist in 
rebuilding this important stock.
    Thank you so much for your time today, and I would be happy 
to answer any questions.
    [The prepared statement of Mr. Blankenship follows:]

  Statement of Christopher Blankenship, Director of Marine Resources, 
        Alabama Department of Conservation and Natural Resources

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to appear before you today to testify on the extremely 
important subject of red snapper management. I am Chris Blankenship and 
I am the Director of the Marine Resources Division of the Alabama 
Department of Conservation and Natural Resources. Under Alabama Law, 
the Alabama Department of Conservation and Natural Resources (ADCNR) 
has full jurisdiction and control of all seafoods existing or living in 
the waters of Alabama and it shall ordain, promulgate and enforce all 
rules, regulations and orders deemed by it to be necessary for the 
protection, propagation or conservation of the same. The Marine 
Resources Division (MRD) is responsible for managing the fisheries in 
the Coastal waters of Alabama and advising the Commissioner of 
Conservation relative to saltwater fisheries and seafoods.
    I am so honored to appear before you today because for the State of 
Alabama, the red snapper fishery is the most important recreational 
fishery in the Gulf of Mexico. It has also become the most contentious 
fishery. Prior to 1997, the red snapper fishery was open 365 days a 
year with very liberal creel and size limits or no limits at all. The 
red snapper fishery was being overfished and additional management 
measures were put in place to protect the stock. In 1997, the season 
was shortened to 330 days with progressively shorter seasons in 1998 
and 1999 when the season length was 240 days. During the years of 2000 
through 2007, the season was stable at 194 days. In 2008, the 
recreational season really began to be curtailed when the season was 
shortened to 65 days. In 2012, the season was 45 days long and for the 
current year, the season was initially set at an astounding 28 days. I 
am happy to report that the red snapper fishery is no longer considered 
to be undergoing overfishing, although it is officially still 
overfished. The continued reduction and fluctuation of fishing seasons 
has placed a real hardship on the recreational and charter fishermen of 
the State of Alabama and other Gulf States.
    Alabama has a relatively small coastline compared to the other Gulf 
States. Even though the coastline of Alabama only makes up less than 5% 
of the total Gulf coastline, we land on average 30% of the 
recreationally caught red snapper in the Gulf of Mexico. The City of 
Orange Beach is known as, ``The Red Snapper Capitol of the World.'' The 
charter and for-hire fleet in Orange Beach contains over 200 vessels. 
This is the largest homeport for charter and for-hire vessels in the 
entire Gulf of Mexico. The people of the coastal areas of Alabama and 
particularly the people of the cities of Orange Beach, Gulf Shores and 
Dauphin Island are proud of the outstanding red snapper fishery we have 
in the federal waters adjacent to Alabama. You might wonder how a state 
with such a small coastline could land that many red snapper. The State 
of Alabama has built this premier red snapper fishery through the 
creation of manmade artificial reefs.
Artificial Reefs
    Alabama has the largest artificial reef program in the United 
States. Red snapper, as well as other reef fish, need structure to 
thrive. The water bottoms off the coast of Alabama are relatively flat 
with very little relief. Until the last 50 years, the only places that 
red snapper were caught off our coast were on the very few natural 
reefs and outcroppings in the Gulf. Beginning in the 1950's, the 
Alabama Marine Resources Division began placing material in the waters 
offshore to create habitat for reef fish. The initial placements were 
so successful that in the 1970's Alabama worked with the Corps of 
Engineers to create the Alabama Artificial Reef Zone. This 1,200 square 
mile area in federal waters adjacent to Alabama is managed by the 
Marine Resources Division. Over the past 40 plus years, there have been 
over 17,000 reefs placed in the reef zone. These reefs include over 100 
decommissioned military tanks, concrete bridge rubble and metal bridge 
spans, over 1,000 ten-foot tall concrete pyramids, many barges, ships, 
tugs, airplanes, dry docks, oil and gas rigs, concrete culverts, and 
pipes. There have also been several thousand reefs placed by private 
companies and individuals that met reef construction protocols and were 
permitted by the Marine Resources Division. This habitat creation has 
caused the population of red snapper to increase substantially off the 
coast of Alabama.
    I would like for my Division to take full credit for the success of 
the Alabama Artificial Reef Program, but I cannot. Although the program 
is managed by MRD and the State of Alabama has invested millions of 
dollars in reef construction, the level of success we have seen would 
not have been possible without the partnerships we have participated in 
with the charter industry, recreational fishing organizations and 
private industry. The Orange Beach Fishing Association has been 
instrumental in partnering with us to fund reef construction. Through 
the Red Snapper World Championship Fishing Tournament, hundreds of 
thousands of dollars were raised to build reefs. The Alabama Road 
Builders Association and the oil and gas industry saw the great fishery 
we were building in Alabama and provided material and funds to 
construct reefs. The Coastal Conservation Association has been a 
valuable addition to recent participation in reef building activities 
both in State waters and in adjacent federal waters. The most recent 
partnership has been the creation of the Alabama Gulf Coast Reef and 
Restoration Foundation. This group was formed to bring together state, 
county and local governments as well as coastal chambers of commerce, 
coastal businesses and fishing interests to continue to fund reef 
building.
    The millions of dollars that have been invested in artificial reefs 
and the foresight of so many people has created this great red snapper 
fishery, but these same people are only able to have access to this 
fishery for a few days out of the year due to current stringent fishing 
seasons.
Regional Management of Red Snapper
    The Gulf of Mexico Fisheries Management Council and the National 
Marine Fisheries Service are currently tasked with the management of 
red snapper. Currently, the red snapper stock is managed as a single 
stock in the Gulf of Mexico with an overall Gulf-wide quota. The 
overall quota is divided between the recreational sector, with 49% of 
the quota and the commercial sector, with 51% of the total quota. Once 
the recreational quota is met, or is projected to be met, the 
recreational red snapper fishery in the Exclusive Economic Zone of the 
Gulf of Mexico must close. The commercial sector is managed under an 
Individual Fishing Quota program (IFQ). The IFQ program has been very 
successful at constraining the commercial catch under their allotted 
quota each year. However, the recreational sector has exceeded its 
portion of the quota in 9 of the past 17 years.
    As previously stated, currently the red snapper stock in the Gulf 
of Mexico is managed as a single unit. This single unit management 
includes both fish caught in state waters as well as fish caught in 
federal waters. All of the Gulf States do not have the same area of 
state waters. Texas and Florida have nine miles of state waters while 
the states of Alabama, Mississippi and Louisiana only have three miles. 
Some of the states have red snapper seasons in state waters that differ 
from the federal red snapper season, which is within their sovereign 
rights. The issue for a state like Alabama is that the fish caught 
during these state seasons is deducted from the overall Gulf-wide quota 
which shortens the seasons in federal waters off the coast of Alabama. 
The State of Alabama does not have many reefs within three miles of the 
shore and therefore there is not a sufficient red snapper population in 
state waters to have a season outside of the federal season. Until this 
year, all of the reefs we have constructed in the Gulf of Mexico are 
outside the state three mile territorial waters.
    The large decrease in the recreational season length coupled with 
the inequality of state water area and inconsistent red snapper seasons 
by some states has many people looking for solutions. One of those 
possible solutions is regional management of red snapper and other reef 
fish. There are still many aspects of regional management that are 
under discussion but one thing is clear, the current Gulf-wide, single 
stock management system has not satisfactorily served the fishermen of 
the Gulf of Mexico or the resource.
    As currently proposed by many states, regional management would 
divide the Gulf into five regions corresponding to the five Gulf State 
boundaries. Each state would be allocated a portion of the recreational 
red snapper quota. This allocation would be determined using prior 
landing history and other factors to establish a fair distribution of 
allocation. Once a state receives its allocation of the total quota, 
the state could enact management measures that would best fit the needs 
of the region. This flexibility would assist in lengthening the season 
for most states but the biggest benefit would be in tailoring seasons 
and management measures that would optimize the socio-economic needs of 
each region. Currently, the red snapper season begins on June 1 of each 
year and runs consecutively until the quota is projected to be met. 
There are some states that, due to tourism, weather patterns, or other 
factors, would prefer a season at a different time other than June each 
year. For example, some states might want a season in April or May, 
some would like a weekend only season, some would like a fall season 
while some would like to have a split season. Regional management would 
allow each region to set seasons that would provide the greatest 
benefit to the fishermen and coastal economies within their state while 
still protecting the red snapper stock.
    Regional management and quota allocation would also solve the 
problem of different state water areas and incompatible regulations. 
Each region would be allotted a certain amount of pounds to manage. It 
would not matter if the fish were caught in state waters or federal 
waters; it would still be counted toward that one regions allocation 
without adversely affecting another region. Regions could also use 
other measures to better manage the fishery in their region including 
setting different bag limits or size limits or assigning different 
sectors a portion of the regional quota.
    There has been a consensus in Alabama from the charter fishermen 
and many recreational fishermen that for the opportunity to pursue 
regional management they would be willing to take a more active role in 
reporting of their catch. That would greatly increase the accuracy of 
data collection and will assist in better management of the fishery. 
The charter fleet in Alabama has proposed 100% electronic trip 
reporting to ensure compliance and to assist in quota monitoring. As 
the Director of the Marine Resources Division, I am concerned about the 
cost of additional data collection. The funds received from NMFS in the 
last several years for data collection for federal fisheries have been 
drastically reduced. For regional management, or continued federal 
management, adequate funding for data collection is imperative.
Regional Management and the Magnuson-Stevens Fishery Conservation Act
    The proposed concept of regional management is a step in the right 
direction. The flexibility to set seasons and other management measures 
by region will go a long way to providing tailored management that best 
suits the socio-economic and fishery management needs of the region. 
However, not all regions have the same habitat and therefore not all 
regions have the same stock characteristics. As previously stated, 
Alabama has the largest artificial reef program in the United States. 
We have over 17,000 reefs that have been placed in our reef zones. This 
large amount of habitat has produced a large amount of fish. Not all 
states or regions have this large concentration and population of red 
snapper and other reef fish. Currently, the red snapper stock is 
assessed and managed as a single unit. For true regional management, 
each region needs the ability to conduct a stock assessment for the 
fishery with in its region and then manage that stock independent of 
the other regions. The current Magnuson-Stevens Fishery Conservation 
and Management Act (MSA) does not allow this type of true regional 
management.
Magnuson-Stevens Reauthorization
    The initial passage of the MSA and the subsequent reauthorization 
were very important steps in the history of our nation's fisheries. The 
MSA has brought several fisheries back from the brink of elimination. 
There are, however, some portions of the MSA that limit the ability of 
the Councils to manage the fishery and the participants.
    The MSA restricts the Council's ability to deviate from the 
biological recommendations of the Science and Statistical Committee, 
even if these recommendations contain substantial uncertainty. This 
lack of flexibility leads to the inability to balance the needs for the 
stock with the needs of those in the fishery. Stocks can be rebuilt in 
several ways. The current MSA puts greater importance on the biology of 
the stock (National Standard 1) at the expense of the community and 
fishermen's concerns (National Standard 8). Flexibility is needed to 
allow the Councils to balance these two very important factors in 
setting rebuilding or management measures.
    Thank you again for the opportunity to participate in this most 
worthy discussion. The red snapper fishery is of utmost importance to 
the people and the coastal economy of the State of Alabama. If I can 
ever assist in any way, please feel free to contact me.
                                 ______
                                 
    The Chairman. Thank you, Mr. Blankenship, for your 
testimony.
    Next I will recognize Ms. Jessica McCawley, Director, 
Division of Marine Fisheries Management, Florida Fish and 
Wildlife Conservation Commission. And you are recognized for 
five minutes.

  STATEMENT OF JESSICA McCAWLEY, DIRECTOR, DIVISION OF MARINE 
 FISHERIES MANAGEMENT, FLORIDA FISH AND WILDLIFE CONSERVATION 
                           COMMISSION

    Ms. McCawley. Thank you, Chairman Hastings and members of 
the House Natural Resources Committee. My name is Jessica 
McCawley, and I am the Director of the Division of Marine 
Fisheries Management at the Florida Fish and Wildlife 
Conservation Commission. The Florida Fish and Wildlife 
Conservation Commission, which I will refer to as the FWC, is 
responsible for managing fish and wildlife resources for the 
State of Florida. Thank you for the invitation to provide 
testimony at this important oversight hearing examining the 
management of red snapper in the Gulf of Mexico under the 
Magnuson-Stevens Act.
    As a State that is rich in natural resources, and is 
dedicated to balancing fish and wildlife conservation, 
recreational and commercial fulfillment, and economic growth, 
and understands the relationship of each, the State of Florida 
is pleased to have two members of its delegation, U.S. 
Representative Steve Southerland and Joe Garcia, serving on 
this important Committee.
    Red snapper supports the most important recreational and 
commercial fin fish fishery in the Northern Gulf. Despite the 
progress that has been made in rebuilding red snapper, the 
recreational fishery has faced increasing uncertainty in recent 
years. Since 2007, the recreational quota has been raised by 
nearly 1 million pounds, yet the season has diminished to just 
28 days.
    As the fishery rebuilds, red snapper are getting larger, 
more abundant, and easier to catch, causing the quota to be 
caught faster, and the season to get shorter. Without a 
benchmark stock assessment based on the most recent data, the 
management system could not adequately respond to the stock 
improvement seen by fishermen. These ever-shortening seasons 
have created uncertain challenging times for captains, 
fishermen, coastal communities like Destin and Panama City, 
which depend on charter trips and vacationing families staying 
in hotels and eating in local restaurants. If lost, the fishing 
heritage of these types of coastal communities is not something 
that can be easily rebuilt.
    Private anglers, for-hire captains, and fishery managers 
have struggled to find solutions that will provide longer and 
predictable fishing seasons, while continuing to rebuild the 
fishery. Fortunately, the most recent stock assessment 
completed in May of this year provided a better outlook for the 
future. Although the stock has been found to be below 
sustainable levels, it seems to be rebuilding at a surprisingly 
high rate, and able to support substantial increases in catch 
levels for the next few years. This should help provide 
stability over the short term, and bring much-needed reduction 
in management uncertainty.
    The Council's plan for regional management of the 
recreational red snapper fishery is another step in the right 
direction. The regional management system would delegate some 
authority over the recreational fishery to the Gulf States to 
better account for biological, social, and economic differences 
among the Gulf States' red snapper fisheries. The FWC is 
willing to accept delegation of regional management, and is 
eager to set recreational regulations for red snapper harvested 
and landed in Florida.
    The FWC recognizes that there are still significant 
unknowns and challenges involved in regional management, and is 
concerned about how the Gulf-wide recreational quota will be 
apportioned among the States, and how often these State quota 
allocations will be revisited. Despite these challenges, the 
FWC feels that the potential social and economic benefits and 
regulatory flexibility of regional management outweigh the 
potential downfalls.
    The Council can implement a regional management system 
under the current Magnuson-Stevens Act provisions, but there 
are likely some adjustments that could make the process easier. 
While the system of annual catch limits and fishing levels 
required by the Magnuson-Stevens Act work well for commercial 
fisheries, they can complicate management of recreational 
fisheries, because harvest estimates under the MRIP program are 
less precise and quota monitoring does not occur in real time.
    Essential to improving management of red snapper in the 
Gulf is the recognition that commercial and recreational 
fisheries are fundamentally different activities, with 
dissimilar harvest data collection systems that require 
different management approaches. Management of the commercial 
sector seems to be headed in the right direction, with a system 
that provides better accountability and allows for timely in-
season quota monitoring. The recreational fishery, on the other 
hand, represents a prime example of where fisheries management 
has failed. Even though methodologies to estimate recreational 
harvests have improved since the last Magnuson-Stevens 
reauthorization, recreational anglers continue to be penalized 
as the red snapper stock biomass increases.
    Needless to say, this failure is having a devastating and 
unnecessary impact on recreational anglers and coastal 
economies. It is time for State and Federal agencies, as well 
as the Gulf Council, to fully recognize the inherent 
differences between the fishery sectors, and start focusing on 
developing innovative data collection and management approaches 
for the red snapper recreational fishery.
    In conclusion, the State of Florida looks forward to 
changes in the Magnuson-Stevens Act that recognize the 
difference between recreational and commercial fisheries and 
how they should be managed.
    Chairman Hastings and members of the Committee on Natural 
Resources, this concludes my testimony. Thank you again for 
this opportunity to provide Florida's perspective. I will be 
happy to answer any questions.
    [The prepared statement of Ms. McCawley follows:]

 Statement of Jessica McCawley, Director, Division of Marine Fisheries 
  Management, Florida Fish and Wildlife Conservation Commission (FWC)

    Chairman Hastings, Ranking Member Markey, and members of the 
Committee on Natural Resources of the United States House of 
Representatives, my name is Jessica McCawley, and I am the Director of 
the Division of Marine Fisheries Management at the Florida Fish and 
Wildlife Conservation Commission. Thank you for the invitation to 
provide testimony at this important oversight hearing examining ``The 
Management of Red Snapper in the Gulf of Mexico under the Magnuson-
Stevens Fishery Conservation and Management Act.'' As a state that is 
rich in natural resources and is dedicated to balancing fish and 
wildlife conservation, recreational and commercial fulfillment, and 
economic growth, and understands the relationship of each, the State of 
Florida is pleased to have two members of its delegation--U.S. 
Representatives Steve Southerland and Joe Garcia--serving on this 
important committee.
    The Florida Fish and Wildlife Conservation Commission (Commission) 
is responsible for managing fish and wildlife resources for the State 
of Florida. The Florida Constitution authorizes the Commission to enact 
regulations regarding the State's fish and wildlife resources. This is 
done by seven Commissioners who are appointed by the Governor and 
confirmed by the Florida Senate. The agency's mission is managing fish 
and wildlife resources for their long-term well-being and the benefit 
of people.
Background
    Red snapper supports the most important recreational and commercial 
finfish fishery in the northern Gulf of Mexico. After a long history of 
overfishing, the most recent stock assessment indicates the fishery is 
rebuilding ahead of schedule within a rebuilding plan that was 
originally scheduled to end in 2032. Starting in the 1990s, fishing 
industries associated with the red snapper fishery experienced unstable 
conditions. Prior to 2006, the commercial fishery was restricted to 
week-long seasons occurring only a few months of the year. The Gulf of 
Mexico red snapper Individual Fishing Quota (IFQ) program was 
implemented to address this situation. Under this program commercial 
fishers have the flexibility to fish year-round for red snapper and are 
more accountable for their landings due to close monitoring of the 
fishery and its quota. Although there are still some management issues 
and controversy surrounding this type of management tool, it has helped 
establish a good measure of stability in the commercial red snapper 
fishery.
    In contrast, the recreational fishery has faced increasing 
uncertainty in recent years. In 2007, the recreational harvest season 
was 194 days in the Gulf of Mexico. Since that time, the recreational 
quota has been raised by nearly 1 million pounds, yet the recreational 
season has diminished to just 28 days. As the fishery rebuilds, red 
snapper are getting larger, more abundant and easier to catch, causing 
the recreational quota to be caught faster, and the season to get 
shorter. As seasons get shorter and shorter, ``derby'' conditions have 
developed as anglers harvest red snapper over a shortened window of 
opportunity. At 28 days, the recreational season is now the shortest it 
has ever been, despite substantial improvements in the red snapper 
stock. These ever shortening seasons have created uncertain, 
challenging times for captains in the for-hire industry and for private 
recreational fishermen. These challenges are not felt by captains and 
fishermen alone. The coastal communities along the Gulf coast are also 
deeply affected by the short seasons. In Florida, communities like 
Destin and Panama City, which depend on charter trips and vacationing 
families staying in hotels and eating in local restaurants, have 
suffered. If lost, the fishing heritage of these types of coastal 
communities is not something that can be easily rebuilt.
Change is on the Horizon
    During the past few years, one of the issues that has greatly 
contributed to the uncertainty and lack of public trust in the 
management system was the counterintuitive outcome of the 2009 red 
snapper stock assessment. Because that assessment was not a benchmark 
stock assessment and conducted with data only through 2008, it was 
perceived as outdated and not representative of the true stock 
condition fishers were seeing out on the water. Fishers were seeing 
more fish and bigger fish on the water, but without an updated 
benchmark stock assessment based on the most recent data, the 
management system could not adequately respond to these improvements in 
stock condition.
    As a result, private anglers, for-hire captains, and fishery 
managers have struggled to find solutions that will provide longer and 
predictable fishing seasons for the recreational sector, while 
continuing to rebuild the fishery. At the Gulf of Mexico Fisheries 
Management Council (Gulf Council), red snapper reallocation from the 
commercial sector to the recreational sector has been proposed as a way 
to prevent further decreases in the recreational season length. Some 
suggest that inter-sector trading, in which recreational harvesters 
purchase or lease IFQ shares from the commercial fishery, is a way to 
increase opportunities for recreational harvesters without taking away 
from the commercial sector. Some for-hire captains have suggested 
sector separation, in which the recreational quota is divided among 
private recreational anglers and for-hire vessels, and ``Days at Sea'' 
pilot programs that would provide for-hire captains with a set number 
of fishing days or pounds of fish that could be harvested anytime 
during the fishing year. Meanwhile, some of the Gulf states have set 
recreational red snapper seasons in their state waters that are 
inconsistent with the 28-day federal season in an effort to provide 
more fishing opportunities for their anglers. The Commission set a 44-
day season (just two days shorter than the 2012 federal season) in 
Florida state waters after learning that the 2013 federal stock 
assessment would likely show red snapper populations are doing better 
than previously thought and hearing reports from anglers that the 
fishery is improving. Some states also have sought to extend their 
geographical management authority further into federal waters. While 
many of these alternative management strategies and actions are 
controversial, they all have the same ultimate goal of increasing 
stability in an uncertain fishery. The Commission does not support all 
of these strategies, but does support helping fishermen find solutions.
    Fortunately, the most recent stock assessment, completed in May 
2013 through the Southeast Data, Assessment, and Review (SEDAR) process 
provided a better outlook for the future. Although the stock was still 
found to be below sustainable levels (i.e., overfished), it seems to be 
rebuilding at a surprisingly high rate. Thanks to a few strong year-
classes, the fishery will be capable of supporting substantial 
increases in catch levels for the next few years. Accordingly, the Gulf 
Council is now in the process of adjusting catch level recommendations 
towards a more stable, constant catch management strategy for 2013 
through 2015. This will certainly support larger quotas for the 
commercial sector as well as an expansion of the red snapper 
recreational fishing season. In addition to these positive stock 
assessment results, the State of Florida believes shifting to a 
constant catch approach will provide stability over the short term for 
both recreational and commercial fishermen, and bring much-needed 
reduction in management uncertainty over the next few years. Finally, 
another recent development that is a step in the right direction for 
decreasing uncertainty is regional management of the recreational red 
snapper fishery.
Regional Management of Red Snapper
Gulf Council's Proposal--Reef Fish Amendment 39
    The Gulf Council is developing a regional management system for red 
snapper that would delegate some management authority over the 
recreational fishery to the Gulf states to better account for 
biological, social, and economic differences among the Gulf states' red 
snapper fisheries. Regional management would give states flexibility in 
setting management measures such as harvest seasons, bag limits, and 
size limits for red snapper landed in federal waters off of their 
state. Each state would consider stakeholder input and choose what is 
best for their anglers and for-hire fleet by selecting seasons that 
occur when fishermen want them. The Commission is willing to accept 
delegation of regional management and is eager to set the recreational 
harvest season for red snapper harvested off of and landed in Florida. 
Having the flexibility to set fishing seasons that account for the 
desires of the fishing community develops trust in the management 
process and shows fishermen that their voices are being heard.
    The Commission recognizes that there are still significant unknowns 
and challenges involved in regional management. Many important details 
need to be developed including how the Gulf recreational red snapper 
quota will be apportioned among the states, timelines and procedures 
for states' regional management plan development and approval, 
accountability measures, and coordination of quota monitoring between 
the states and NOAA Fisheries Service.
    If regional management is approved, each state would be responsible 
for tracking its quota to ensure that its allocation is not exceeded. 
One of the biggest challenges of regional management for Florida will 
be projecting the length of the recreational season and monitoring 
recreational harvest. Initially, Florida would calculate its season 
length using the existing Marine Recreational Information Program 
(MRIP) survey data and models, similar to models currently used by NOAA 
Fisheries Service to predict red snapper season lengths. Florida, 
however, would like to improve and enhance data collection and decrease 
uncertainty in recreational harvest estimates. One method that has been 
suggested to improve data collection in Florida is a permit system for 
anglers landing and possessing reef fish, similar to Louisiana's 
Recreational Offshore Landing Permit. Such a system could allow for 
more timely catch data that could be used to monitor the red snapper 
quota in Florida during the fishing season. The State's large 
coastline, number of fishing ports, and large number of recreational 
anglers, though, present unique challenges to collecting more accurate 
and timely recreational harvest data in a cost-effective manner. 
Another challenge is that any method used to track harvest would need 
to be compatible with MRIP to compare landings data across states and 
track the Gulf-wide annual catch limit.
    The Commission is also concerned about how the Gulf-wide 
recreational quota will be apportioned among the states and how often 
these state quota allocations will be revisited. As the red snapper 
stock has improved, Florida anglers have caught a larger percentage of 
recreationally-caught red snapper in the Gulf. Between 2006 and 2012, 
Florida anglers harvested approximately 50% of the Gulf-wide 
recreational red snapper harvest. This is primarily due to two reasons: 
1) the expansion and rapid growth of the red snapper stock off the West 
Florida shelf; and 2) the increasing number of anglers and recreational 
fishing days based in Florida.
    In Florida, the red snapper fishery is concentrated in the 
Panhandle, but is expanding south along the west coast of Florida as 
the stock rebuilds. Red snapper are now commonly seen where they have 
not been seen in decades, in unprecedented numbers. For example, red 
snapper are now a common occurrence in federal waters off Tampa Bay and 
are becoming more common in federal waters off southwest Florida. Data 
indicate that the red snapper stock will continue to expand south along 
the West Florida shelf and become more plentiful off Florida's west 
coast. Red snapper is already the most commonly caught species on 
recreational trips in federal waters off Florida's Gulf coast, and will 
likely continue to be. Florida has more saltwater anglers than any 
other state and the number of saltwater anglers fishing in Florida 
increased by 20% between 2006 and 2011 (2011 U.S. Fish and Wildlife 
Survey, as compiled by Southwick). With more anglers and more available 
fish, Florida would expect to catch a larger portion of the 
recreational red snapper harvest in future years under status quo 
management.
    Thus, the State of Florida is very concerned about the timeline and 
procedures for revisiting state recreational red snapper allocations, 
should regional management take effect. A method to determine how quota 
could be redistributed among the Gulf states still needs to be 
determined, since landings in each state should be consistent from year 
to year, and not reflect the changes in the fishery. The Commission has 
noted that they would like this percentage revisited as frequently as 
possible, but at least every three years.
    Despite these challenges, the Commission feels that the potential 
social and economic benefits of regional management outweigh the 
potential downfalls, and that regional management can provide needed 
regulatory flexibility.
How Should the Magnuson-Stevens Act be Modified for Regional Management 
        and to Better Manage the Gulf of Mexico Red Snapper Fishery?
    The Gulf Council can implement a regional management system under 
the current Magnuson-Stevens Act provisions, but there are likely some 
adjustments that could make the process easier. While the system of 
annual catch limits and fishing levels required by the Magnuson-Stevens 
Act work well for commercial fisheries in which harvests are closely 
monitored, they can complicate management of recreational fisheries, 
such as red snapper, because harvest estimates under the MRIP program 
are less precise and quota monitoring does not occur in real time. As a 
result, recreational management measures implemented pursuant to the 
Magnuson-Stevens Act often lack flexibility and can have devastating 
socioeconomic impacts. Because annual catch limits and fishing levels 
for the recreational red snapper fishery will continue to be set by the 
Gulf Council and monitored by NOAA Fisheries Service under regional 
management, these issues will continue to be a concern. The regional 
management approach that is being considered by the Gulf Council is 
unique. It is possible that issues with the Magnuson-Stevens Act will 
arise as the states and Gulf Council move forward with delegation; 
thus, additional adjustments may be needed in the future. Clarity as to 
how National Standards apply to the states may be needed, especially in 
setting management measures that will differ by state. For example, 
National Standard 4 states that management measures shall not 
discriminate between residents of different states.
    One way the Magnuson-Stevens Act should be modified to create an 
improved system for the management of red snapper in the Gulf of Mexico 
is to delete 16 U.S.C. 1883 (MSA Sec. 407--Gulf of Mexico Red Snapper 
Research). This section established an opportunity for peer review of 
the red snapper fishery, regulations for establishing a red snapper IFQ 
program, requirements for conducting and voting in fishery referendums, 
and catch limits. This language is outdated, as general regulations for 
establishing limited access privilege programs such as IFQs are 
outlined in 16 U.S.C. 1853a.
    Essential to improving management of red snapper in the Gulf of 
Mexico is the recognition that commercial and recreational fisheries 
are fundamentally different activities, with dissimilar harvest data 
collection systems that require different management approaches. By all 
accounts, management of the commercial sector seems to be headed in the 
right direction with a system that provides better accountability and 
allows for timely in-season quota monitoring. The recreational fishery, 
on the other hand, seems to represent a prime example of where 
fisheries management has failed. Even though methodologies to estimate 
recreational harvest have improved since the last Magnuson-Stevens Act 
reauthorization, recreational anglers continue to be penalized as the 
red snapper stock biomass increases. Needless to say, this failure is 
having a devastating and unnecessary impact on recreational anglers and 
coastal economies. It is time for state and federal agencies, as well 
as the Gulf Council, to fully recognize the inherent differences 
between the fishery sectors and start focusing on developing innovative 
data collection and management approaches that will result in 
successful management of the red snapper recreational fishery.
Discussions from June 2013 Gulf Council meeting
    Last week at the June Gulf Council meeting, the Gulf Council 
received a report on the latest red snapper stock assessment and 
discussed the possibility of raising the 2013 recreational and 
commercial quotas for red snapper. As previously mentioned, the 
assessment confirms what fishermen have been observing--the stock is 
rebuilding, and at a faster rate than anticipated in the previous 
assessment. The Gulf Council has planned a special meeting on July 17 
in New Orleans to increase the 2013 quota and provide for a 
supplemental recreational season in late summer or fall, so that the 
recreational sector can take advantage of this quota increase. Many 
fishermen felt frustrated that this quota increase could not be applied 
immediately so that the current federal season, which ends this Friday, 
June 28, could be extended.
In Conclusion
    The red snapper population Gulf-wide is improving. The rebuilding 
plan is ahead of schedule. With innovative data collection and regional 
management, including timely allocation reviews, accountability, and 
coordination with NOAA Fisheries Service, the recreational management 
program for red snapper may be turning the corner toward a brighter 
future. However, as the Gulf Council works through regional management, 
we may find that the Magnuson-Stevens Act may need modifications. The 
State of Florida looks forward to changes in the Magnuson-Stevens Act 
that recognize the differences between recreational and commercial 
fisheries and how they should be managed.
    Chairman Hastings, Ranking Member Markey, and members of the 
Committee on Natural Resources, this concludes my testimony. Thank you 
again for this opportunity to provide Florida's perspective. I would be 
happy to answer any questions.
                                 ______
                                 
    The Chairman. Thank you very much, Ms. McCawley, for your 
testimony.
    Now I will recognize Mr. Randy Pausina, who is Assistant 
Secretary, Office of Fisheries of the Louisiana Department of 
Wildlife and Fisheries. And, Mr. Pausina, you are recognized 
for 5 minutes.

  STATEMENT OF RANDY PAUSINA, ASSISTANT SECRETARY, OFFICE OF 
   FISHERIES, LOUISIANA DEPARTMENT OF WILDLIFE AND FISHERIES

    Mr. Pausina. OK, thank you, Mr. Chairman, for the 
opportunity to speak on behalf of Louisiana's fishing 
community, to present our opinion on the management of red 
snapper in the Gulf of Mexico under the Magnuson-Stevens 
Fishery Conservation and Management Act.
    As stated in your letter, red snapper management in the 
Gulf of Mexico has been a contentious issue for several years 
now, specifically targeting Louisiana's recreational angling 
community. Louisiana is well known as one of the Nation's 
premier fishing locations, and also depends on its abundant 
seafood resource year-round to maintain its economic viability 
of its coastal communities.
    Red snapper is a highly prized and sought after by both 
resident and non-resident recreational anglers. Over the past 
20 years, the recreational fishery has seen red snapper seasons 
go from 365 days per year per season to a mere 28 days in 2013.
    We recognize the need and see it as our job to properly 
manage the red snapper resource and restore populations that 
are over-fished. But in doing so, we must also minimize the 
impact on anglers and associated fishing industries. Based on 
sound science and input from the recreational fishing 
communities, dissatisfaction with Federal management, the 
Louisiana Department of Wildlife and Fisheries petitioned the 
Louisiana Legislature in 2012 to pass House Concurrent 
Resolution 10, encouraging the National Marine Fisheries 
Service and the Gulf Council to approve a weekend-only 
fisheries management season for Louisiana.
    Realizing no action in this regard was being taken by the 
Gulf Council or the National Marine Fisheries Service, 
Louisiana Wildlife and Fisheries Commission passed a notice of 
intent in June of 2012 that established a weekend-only red 
snapper season in Louisiana territorial waters, beginning the 
Saturday before Palm Sunday through September 30th. The intent 
of this season was to provide anglers a wider timeframe to fish 
by extending the season and to restore economic viability to 
its coastal communities.
    Pressure from the recreational fishing community and 
legislative intent prompted the Secretary of Louisiana 
Department of Wildlife and Fisheries to declare fisheries 
management authority out to 9 nautical miles. As you know, 
congressional actions transferring management authority over 
red snapper and providing States with management authority out 
to 200 miles are currently being considered.
    In our opinion, the management of recreational fisheries, 
particularly red snapper, cannot continue to take a one-shoe-
fits-all for the Gulf States. The reason the Gulf Council 
chooses consistent inflexible management measures is that it is 
simply easy to implement. It is time that the Gulf Council 
moves past the easy approach and starts to consider flexible 
management measures to continue to rebuild the red snapper 
stock, while considering the needs of individual coastal States 
and the economic viability of coastal communities.
    With these considerations in mind, Louisiana went before 
the Gulf Council in April of 2012 to advocate a regional 
management system. We have referred to the approach as regional 
management, where management of the red snapper fishery would 
be delegated to each Gulf State or region.
    Responsibility of the red snapper resource would remain the 
charge and authority of the National Marine Fisheries Service 
and the Gulf Council. Delegating authority to these States 
would provide flexibility to decide when, where, and how red 
snapper will be harvested. Each State's fisheries management 
agency is more receptive and responsive to the wants and needs 
of its own constituents than a Federal agency who has broader 
goals. This is very evident in the existing controversy over 
red snapper management, where the States of Louisiana, Texas, 
and Florida have taken immediate action to satisfy the will of 
their constituents.
    One might raise a concern as to the capability of the 
States to take on responsibility of managing and controlling 
the recreational red snapper fishery. I can only speak for 
Louisiana by saying that we will and have already devoted 
substantial resources toward gathering the best, most relevant 
data to properly manage the red snapper resource. We have 
established a recreational quota monitoring survey designed to 
provide real-time, in-season red snapper landing estimates in 
Louisiana. The survey was put in place this year to provide 
accurate information on Louisiana red snapper landings. The new 
real-time monitoring conducted by the Department has already 
benefitted Louisiana fishermen by increasing Louisiana's 2013 
Federal red snapper season from 9 to the current season of 28 
days.
    Without Louisiana's quota monitoring survey, we are 
dependent on the National Marine Fisheries Service's Marine 
Recreational Information Program, MRIP. MRIP was not designed 
to quota monitor, so it does not provide timely landings needed 
to avoid harvest overruns, as evidenced by the 19 to 89 percent 
recreational red snapper overruns in the Gulf of Mexico in the 
past 6 years.
    In closing, I would like to reiterate that fisheries 
management must evolve and provide more flexibility in order to 
earn the confidence of the anglers and the industry. We believe 
the answer is regional management. Thank you.
    [The prepared statement of Mr. Pausina follows:]

 Statement of Randy Pausina, Assistant Secretary, Office of Fisheries, 
             Louisiana Department of Wildlife and Fisheries

    Thank you Mr. Chairman for the opportunity to speak on behalf of 
Louisiana's fishing community before the U.S. House of Representatives' 
Committee on Natural Resources to present our opinion on the management 
of red snapper in the Gulf of Mexico under the Magnuson-Stevens Fishery 
Conservation and Management Act. As stated in your letter, red snapper 
management in the Gulf of Mexico has been a contentious issue for 
several years now, specifically targeting Louisiana's recreational 
angling community. Louisiana is well known as one of the nation's 
premier fishing locations and also depends on its abundant seafood 
resource year-round to maintain the economic viability of coastal 
communities. Red snapper is highly prized and sought after by both 
resident and non-resident recreational anglers. Over the past 20 years, 
the recreational fishery has seen red snapper seasons go from 365 day 
per year season to a mere 28 days in 2013. We recognize the need and 
see it as our job to properly manage the red snapper resource and 
restore populations that are overfished, but in doing so we must also 
minimize the impact on anglers and associated fishing industries. Based 
on sound science and input from the recreational fishing community's 
dissatisfaction with federal management, the Louisiana Department of 
Wildlife and Fisheries (LDWF) petitioned the Louisiana Legislature in 
2012 to pass House Concurrent Resolution 10, encouraging National 
Marine Fisheries Service and the Gulf of Mexico Fishery Management 
Council (Gulf Council) to approve a weekend-only fishery management 
season for Louisiana. Realizing no action in this regard was being 
taken by the Gulf Council or National Marine Fisheries Service, the 
Louisiana Wildlife and Fisheries Commission passed a notice of intent 
in June 2012 to establish a weekend-only red snapper season in 
Louisiana territorial waters beginning the Saturday before Palm Sunday 
through September 30. The intent of this season was to provide anglers 
a wider time frame to fish by extending the season and to restore 
economic viability to coastal communities. Pressure from the 
recreational fishing community and Legislative intent prompted the 
Secretary of LDWF to declare fishery management authority out to 9 
nautical miles. As you all know, congressional actions transferring 
management authority over red snapper and providing states with 
management authority to 200 miles are being considered.
    In our opinion, the management of recreational fisheries, 
particularly red snapper, cannot continue to take a one-shoe-fits-all 
for the Gulf States. The reason the Gulf Council chooses consistent, 
inflexible management measures is that it's simply easy to implement. 
It's time that the Gulf Council moves past the easy approach and starts 
to consider flexible management measures that continue to rebuild the 
red snapper stock, while considering the needs of individual coastal 
states and the economic viability of coastal communities. With these 
considerations in mind, Louisiana went before the Gulf Council in April 
of 2012 to advocate a regional management system. We refer to the 
approach as regional management where management of the red snapper 
fishery would be delegated to each Gulf state. Responsibility of the 
red snapper resource would remain the charge and authority of National 
Marine Fisheries Service and the Gulf Council. Delegating authority to 
the states would provide flexibility to decide when, where and how red 
snapper will be harvested. Each state's fishery management agency is 
more receptive and responsive to the wants and needs of its own 
constituents than a federal agency who has broader goals. That is very 
evident in the existing controversy over red snapper management where 
the states of Louisiana, Texas and Florida have taken immediate action 
to satisfy the will of their constituents.
    One might raise a concern as to the capability of the states to 
take on the responsibility of managing and controlling the recreational 
red snapper fishery. I can only speak for Louisiana by saying that we 
will and have already devoted substantial resources towards gathering 
the best, most relevant data to properly manage the red snapper 
resource. We have established a recreational quota monitoring survey 
designed to provide real-time, in-season red snapper landings estimates 
in Louisiana. The survey was put in place this year to provide accurate 
information on Louisiana red snapper landings. The new, real-time 
monitoring conducted by the Department has already benefited Louisiana 
fishermen by increasing Louisiana's 2013 federal red snapper season 
from nine days, to the current season of 28 days.
    Without Louisiana's quota monitoring survey we are dependent on the 
National Marine Fisheries Service's Marine Recreational Information 
Program (MRIP). The MRIP was not designed for quota monitoring so it 
doesn't provide timely landings needed to avoid harvest overruns, as 
evidenced by the 19 percent-89 percent recreational red snapper 
overruns in the Gulf of Mexico in the past six years. The only year a 
measured harvest overrun didn't occur was 2010 when the fishery was 
closed for a substantial time period as a result of the BP oil spill.
    In closing I'd like to reiterate that fishery management must 
evolve and provide more flexibility in order to earn the confidence of 
anglers and the industry. We believe the answer is ``Regional 
Management''.
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Pausina, for your 
testimony.
    Next I will recognize Mr. Dale Diaz, who is the Director, 
Office of Marine Fisheries, for the Mississippi Department of 
Marine Resources. Mr. Diaz, you are recognized.

 STATEMENT OF DALE DIAZ, DIRECTOR, OFFICE OF MARINE FISHERIES, 
           MISSISSIPPI DEPARTMENT OF MARINE RESOURCES

    Mr. Diaz. Good morning, Chairman Hastings, Mr. Sablan, and 
Committee members, and thank you for the opportunity to be here 
today to testify on the management of red snapper in the Gulf 
of Mexico. Again, my name is Dale Diaz, and I am director of 
the Office of Marine Fisheries for the Mississippi Department 
of Marine Resources.
    I would like to start out by talking about artificial reefs 
just a little bit, because they are very important to expanding 
the capacity of the stock. Mississippi has had an artificial 
reef program since 1972, and we currently partner with the 
Mississippi Gulf Coast Fishing Banks, which is a nonprofit 
organization dedicated to expanding reefs off the coast of 
Mississippi.
    We currently have 14 offshore reef sites, and the total 
acreage is about 16,000 acres, and they range in size from 8 to 
10,000 acres. The material that we use on these sites is 
concrete culvert, steel-hull vessels, and materials of design. 
The water bottoms off the coast of Mississippi and adjacent 
Federal waters are basically a flat, featureless plain, so we 
need this habitat to attract structure-dependent reef fish, 
such as red snapper, to expand the capacity of the stock.
    One of the problems we have had in Mississippi is Hurricane 
Katrina destroyed about 90 percent of our artificial reefs, and 
the reefs actually were buried by Hurricane Katrina and 
subsided down into the substrate, and did not function as 
artificial reefs. So, from 2005 through 2011, our landings were 
some of the lowest landing years on record. Because of the 
importance of artificial reefs, we decided to use a portion of 
the congressionally approved Hurricane Katrina disaster funds 
to rebuild our artificial reefs. And I am happy to tell you 
that we have rebuilt them back to pre-Katrina levels at this 
point. So I would like to thank Members of Congress for 
providing these hurricane disaster funds; it has been critical 
to our program.
    Next I would like to talk about regional management a 
little bit. The Mississippi Department of Marine Resources is 
managed by a Commission, and the Commission has full authority 
over all aquatic life in the marine waters of the State of 
Mississippi. At its April 2013 meeting, the Commission passed a 
motion allowing the Department to enter into negotiations with 
other Gulf States, the National Marine Fisheries Service, and 
the Gulf Council to support regional management in the Gulf of 
Mexico.
    The two main reasons they supported it was the reasons you 
have heard my counterparts mention here: flexibility for bag 
limit, size limit, seasons, and different other options that we 
could implement in our management plan. The second reason was 
that it solves the problems of States having non-compatible 
State water regulations that shorten the Federal season.
    For example, in 2013, three Gulf States have longer 
recreational red snapper seasons in their State waters than in 
Federal waters, and this shortens the Federal season. Because 
the red snapper fishery in the Gulf of Mexico is considered to 
be one stock, and there is currently no mechanism to hold 
States accountable for additional fish caught in these longer, 
non-compatible State water seasons, the Federal season must be 
shortened to compensate. As a result, Mississippi recreational 
and charter for-hire fishermen have 6 fewer days to fish in 
Federal waters this season. We think regional management will 
help that.
    Under regional management, red snapper will still be 
subject to current Federal conservation goals, and red snapper 
in the Gulf of Mexico will still be managed as a single stock 
with a Gulf-wide quota set annually. That stock will be divided 
along the commercial and recreational allocation, and the 
recreational portion of that quota will be divided amongst the 
regions. The regions can then tailor their management plans to 
meet the specific needs of those regions.
    For example, several fishermen in Mississippi have told me 
that October is the very best time to catch red snapper off of 
our waters. With regional management, we could do something 
that would have an October season, if the majority of people 
would like that.
    But I don't want to leave you with the impression that 
regional management is going to cure all the problems in the 
recreational red snapper section of the fishery. We will still 
have to deal with shortened seasons. The seasons are shorter 
because the stock is expanding, and you can catch snapper in 
different areas of the Gulf that they weren't in previous 
years. And also, as the stock is rebuilding, fish are getting 
bigger. And the quota is set up on pounds. And as they get 
bigger, the quota is caught quicker.
    It is also very difficult to restrain a recreational catch. 
States are still going to have to work hard at these issues. 
Although I do believe States can do a better job, we are closer 
to the issue, we have some experience managing some State 
species, and we can apply some of that knowledge to managing 
the recreational red snapper section.
    In conclusion, I do have a couple of suggestions for MSA 
reauthorization. At the June Gulf Council meeting a motion was 
approved unanimously to add to the list of MSA reauthorization 
priorities the need for a sustainable certification that would 
authorize the National Marine Fisheries Service to provide the 
U.S. industries with a sustainable certification program and a 
certification mark. This would provide the industry with the 
ability to promote and sell its seafood products.
    And last, scientific data is imperative for good fisheries 
management. One thing that hampers management is inadequate 
funding for data acquisition.
    Thanks again for the opportunity to be here before you 
today, and for your past help with our fisheries resources.
    [The prepared statement of Mr. Diaz follows:]

     Statement of Dale Diaz, Director, Office of Marine Fisheries, 
               Mississippi Department of Marine Resources

Introduction
    Mr. Chairman and Committee Members thank you for the opportunity to 
be here today to testify on this extremely important issue to our 
fisheries, our fishermen, and our agency. I am Dale Diaz, Director of 
the Office of Marine Fisheries for the Mississippi Department of Marine 
Resources (MDMR). The Mississippi Commission on Marine Resources (MCMR) 
has been granted full authority through Mississippi Statute to regulate 
all matters pertaining to all saltwater aquatic life and marine 
resources. The MCMR has granted authority to the Executive Director of 
MDMR to manage the recreational red snapper fishing seasons and 
implement a regional management program in the State of Mississippi.
    At its April 2013 MCMR meeting the Commission unanimously approved 
a motion allowing the state marine fisheries director to proceed with 
negotiations with the appropriate Gulf States officials, National 
Marine Fisheries Service (NMFS) and the Gulf of Mexico Fishery 
Management Council (GMFMC) on issues relating to recreational red 
snapper regional management in the Gulf of Mexico.
    This hearing and other upcoming meetings relative to the 
reauthorization of the Magnuson-Stevens Fisheries Conservation and 
Management Act (MSA) gives us the opportunity to reflect upon how we 
are doing and how we can improve upon our U.S. fisheries under MSA. The 
basis of the act ``To provide for the conservation and management of 
fisheries'' has been and is being accomplished, and with some 
adjustments, could provide more flexibility to the Councils for 
management. In its annual report to Congress NOAA reports on the status 
of our fisheries regarding the biological status of the stocks. Six 
stocks were declared rebuilt in 2012 bringing the total number of 
rebuilt stocks to 32 since 2000 (NOAA). The MSA has been working in 
that the number of overfished stocks has declined 20% since 2000 and 
the number of stocks subject to overfishing has declined by over 20%.
    Red snapper are currently managed as a single stock in the Gulf 
with an overall gulf wide quota that is set annually. The annual quota 
is then split with the commercial sector getting 51% and the 
recreational sector getting 49%. The percentages are based on the 
historical catches by each sector. The commercial sector is kept within 
its quota with an Individual Fishing Quota (IFQ) program that has been 
in place since 2007. Unfortunately, the recreational sector has 
consistently gone over its quota and the GMFMC is looking at ways to 
address this issue, one way being regional management.
    The red snapper stock in the Gulf of Mexico has been declared as 
overfished and has been in a rebuilding plan since 1977 based on the 
status of U.S. Fisheries Report to Congress. Overfishing was not 
officially declared to end in the status of U.S. Fisheries Report until 
2012 after the new overfishing definition developed in the Generic 
Annual Catch Limits and Accountability Measures Amendment was 
implemented.
    Currently, recreational red snapper in the Gulf of Mexico exclusive 
economic zone (EEZ) are managed with a bag limit (2 fish/person/day), 
size limit (16 inches minimum), and season (generally opens June 1 and 
closes when the quota is projected to be caught). Unfortunately, even 
with these measures in place, the season has continued to get shorter 
(Figure 1).
    Regional management would subdivide the Gulf into separate areas 
with each area having its own allocation (Figure 2), within the total 
recreational sector's allocation. Currently recreational fishing for 
red snapper is managed for the entire U.S. Gulf of Mexico as a single 
stock. Regional management would enable states to enact management 
regulations such as season opening dates, size limits, bag limits, and 
weekend only seasons, as well as other regulatory issues most suitable 
to their unique circumstances. Red snapper would remain a federally 
managed species subject to current federal conservation goals. The 
major benefit to regional management is that the states would be given 
the flexibility to implement management measures which would provide 
for optimum socio-economics by region. The geography of the Gulf is 
large and the recreational fishery for red snapper is different in 
different areas of the Gulf. Providing the states with this option 
would help to ensure optimum benefits for each region's fishermen. The 
additional flexibility provided by this type of management would allow 
Mississippi and other Gulf states to develop red snapper regulations 
tailored to meet the needs of the users in their region. Not only would 
regional management provide the states flexibility mentioned above to 
meet the needs of that region, it would solve the problem of states 
setting non-compatible state water regulations which have negatively 
impacted Mississippi this year. For 2013 three Gulf States have longer 
non-compatible state water recreational red snapper seasons than the 
federal season. Because there is currently no mechanism to account for 
the additional fish caught in these longer state water seasons, 
Mississippi fishermen will have six fewer days to fish in federal 
waters.
    A major road block to regional management is the lack of adequate 
funding that would allow for implementation of the program by the 
states.
Impacts of Non-Compliance with Federal Red Snapper Regulations
    Currently, red snapper within the Gulf of Mexico are not considered 
to be undergoing overfishing by NMFS; however, the stock is considered 
to be overfished and various management measures that have been 
mentioned earlier (e.g. quotas for each segment of the fishery, size 
limits, bag limits, defined fishing seasons, etc.) are being used by 
the Council to rebuild the stock and maintain the trajectory to fully 
rebuilt status. As the U.S. Gulf of Mexico red snapper stock is 
considered to be one stock, the NMFS quantifies all sources of harvest 
regardless of where fish are caught within the stock's range and uses 
this information in the development of stock assessments. In order to 
meet the timeline for rebuilding the stock, management of red snapper 
NMFS has relied upon cooperation from the Gulf States to create 
compatible fishing seasons, size limits and bag limits to those used by 
NMFS in federal waters; compliance has not always been enacted by some 
States. In some areas of the Gulf (Texas and Florida since they have a 
nine mile territorial boundary) fishermen are able to harvest red 
snapper in state waters when the state season was open; however, most 
of the historical Gulf red snapper harvest (since 1986) has occurred in 
federal waters.\1\ From 2006-2011, excluding landings from the 2010 oil 
spill year, the amount of harvest which came from state waters Gulf-
wide was 23.2%. Increasing the amount of time fishermen can fish in 
state waters of non-compliant states will shift the dynamics in the red 
snapper fishery and significantly alter the areas where red snapper are 
harvested. From 2006-2011 (excluding 2010), harvest of red snapper from 
state waters in Alabama and Mississippi accounted for only 5.9% (Table 
1) of the total pounds of fish landed in the two states. This figure 
indicates how significant the adjacent federal waters are to fishermen 
within Alabama and Mississippi and reductions in the number of days to 
fish in federal waters caused by another state(s) being non-compliant 
would have an inequitable and unfair impact on those fishermen, a 
violation of National Standard 4, which states Conservation and 
management measures shall not discriminate between residents of 
different States. If it becomes necessary to allocate or assign fishing 
privileges among various United States fishermen, such allocation shall 
be (A) fair and equitable to all such fishermen; (B) reasonably 
calculated to promote conservation; and (C) carried out in such manner 
that no particular individual, corporation, or other entity acquires an 
excessive share of such privileges. Fishermen in Alabama and 
Mississippi would be unfairly treated because they rely upon access to 
the resource in federal waters at rates higher than fishermen in other 
state(s). Although, the combined Gulf coastline of Alabama and 
Mississippi accounts for 7.4% of the U.S. Gulf coast, fishermen within 
these two states account for 41.2% of total landings (2006-2011, except 
2010).
---------------------------------------------------------------------------
    \1\ Scoping Document for Amendment 39 to the Fishery Management 
Plan for the Reef Fish Resources of the Gulf of Mexico. Gulf of Mexico 
Fishery Management Council Special Reef Fish Committee meeting, June 
2013, Tab SP, No. 6(a).
---------------------------------------------------------------------------
Artificial Reef Habitat
    The success of developing artificial reefs to attract reef fish 
such as red snapper and enhance harvest capability of these fish has 
been widely acknowledged. This has resulted in major government 
programs designed to assist in the efforts to improve the technology 
and application of artificial reefs. The State of Mississippi through 
the MDMR has developed an extensive offshore artificial reef program in 
recent years; there are also similar artificial reef programs in other 
Gulf States. The offshore reefs that have been created are vital to our 
recreational fishermen seeking red snapper in the adjacent offshore 
waters of Mississippi, as well as the other Gulf States. These 
artificial reefs give our fishermen areas much closer to shore to 
harvest reef species such as red snapper; however, these reefs are 
expensive to develop and maintain. Hurricane Katrina destroyed 
approximately 90% of Mississippi's offshore reefs. Due to the 
tremendous importance of these habitats to our fisheries resources and 
our fishermen the decision was made to utilize a portion of the 
Congressionally approved Katrina disaster funds to not only rebuild 
those reefs, but to rebuild them in a fashion that would less prone to 
damage from future storms. Again we would like to thank the Members for 
this Congressional assistance. We have recently completed rebuilding 
our offshore reefs back to pre-Karina levels. Regional management would 
allow mangers in Mississippi the flexibility to manage these reefs in a 
manner which is most beneficial for our fishermen and the resource.
Suggestions for MSA Reauthorization and Other Matters
    1.  The regional fishery management councils need more flexibility 
to apply the appropriate tools to prevent overfishing than we currently 
have. Basically, one tool or management procedure cannot be effectively 
applied in all fisheries. The MSA requirement to implement Acceptable 
Catch Limits (ACL) for all species has resulted in confusion and 
unnecessary restrictions on many species. ACL's are appropriate in some 
circumstances, but not all, especially not for data poor and/or 
multispecies fisheries. ACL's are appropriate for those stocks which 
have acceptable stock assessments.
    2.  Sustainability: at the June Gulf Council meeting a motion was 
approved unanimously to add to the list of MSA reauthorization 
priorities the need for a sustainable certification that would 
authorize NMFS to provide the U.S. industry with a sustainable 
certification program and certification mark. This would provide the 
industry with the ability to promote and sell its seafood products, in 
both domestic and foreign markets, as sustainable based upon the 
requirements of the Act. It is our understanding that similar motions 
were unanimously approved by other Councils.
    3.  Funding for data: scientific data is imperative for good 
fisheries management. One thing that has hampers management is 
inadequate funding for data acquisition. Funding for fisheries stock 
assessments and for recreational harvest data collection, to name a 
few.
    4.  As mentioned earlier, Texas and Florida's west coast have a 
nine mile territorial sea; extending the territorial seas for Alabama, 
Louisiana and Mississippi would provide consistency to the States for 
fishery management.
[GRAPHIC] [TIFF OMITTED] 81806.005

.eps[GRAPHIC] [TIFF OMITTED] 81806.006

.eps[GRAPHIC] [TIFF OMITTED] 81806.007

                                 .eps__
                                 
    The Chairman. Thank you very much, Mr. Diaz. Both you and 
Mr. Pausina used a little bit of Mr. Anson's time, and that is 
why I was giving you the flexibility there.
    Mr. Diaz. Thank you, Mr. Chairman.
    The Chairman. Last I would like to recognize Mr. Robin 
Riechers, who is the Director of the Coastal Fisheries Division 
of the Texas Park and Wildlife Department. Mr. Riechers, you 
are recognized for five minutes.

   STATEMENT OF ROBIN RIECHERS, DIRECTOR, COASTAL FISHERIES 
         DIVISION, TEXAS PARKS AND WILDLIFE DEPARTMENT

    Mr. Riechers. Thank you, Chairman Hastings and members of 
the Committee. As indicated, my name is Robin Riechers, and I 
am the Director of the Coastal Fisheries Division of the Texas 
Parks and Wildlife Department.
    Since the late 1990s, red snapper recreational regulations 
in Texas State waters have been different than Federal 
regulations, and are set at a 4-fish daily bag limit and a 15-
inch minimum size limit, and the fishery is open year-round. In 
contrast, regulations in the Federally managed waters of the 
EEZ restrict recreational harvest to 2 fish per day in a season 
that has varied in duration over the last 10 years from 194 
days to the fewest amount of days for this season set at 28.
    The Texas Parks and Wildlife Department strongly believes 
Texas regulations for State waters are appropriate, based on 
our routine stock monitoring program, the most current stock 
assessments, and the fact that the authority to manage those 
waters falls within the jurisdiction of the Texas Parks and 
Wildlife Commission.
    As part of Texas' routine stock monitoring program, coast-
wide catch-per-unit effort from routine monitoring reflects the 
relative abundance of young-of-the-year fish, or our early 
recruits, has increased five-fold since 1986. And the 4 highest 
years on record have occurred within the past 10 years.
    A second part of the routine monitoring program is the 
analysis of recreational landings. For all trips landing red 
snapper from the Texas territorial sea, more than one-third of 
anglers are landing their bag limit of four fish. When you look 
at the EEZ, more than one-half of the anglers off Texas are 
landing their bag limits. Landings by weight have remained 
relatively steady in both the EEZ and the Texas territorial sea 
since 2005. More importantly, the average size of red snapper 
landed has doubled in the past 30 years. This is all indicative 
of a stock becoming healthier.
    As red snapper typically do not travel long distances, 
fishing in a State such as Texas, that has more than 360 miles 
of shoreline, is unlikely to impact the red snapper populations 
of another State. As shown in a recent stock assessment, the 
Western Gulf has a much greater biomass of spawners and 
recruits than the Eastern Gulf. Even with greater and 
increasing biomass, the percent of Gulf recreational landings 
from the Western Gulf has decreased since the early 1990s from 
around 44 percent to 17 percent.
    Texas specifically has seen our percent decrease from just 
under 25 percent to around 10 percent. This drop in Texas 
landings is due in no small part to the season set to begin in 
June, a time of year in Texas when weather patterns and 
conditions make it difficult for small vessels to operate 
offshore. This change in pressure places a disproportionate 
burden of stock recovery on the Western Gulf. The continued 
shift of landings from the Western Gulf to the Eastern Gulf, 
and the continued approach of one season fits the entire Gulf 
is a key element to why there is support for the regional 
management concept.
    Regrettably, this issue came to a head this spring when our 
partners in the National Marine Fisheries Service requested 
emergency authority to further restrict recreational harvest of 
snapper in Federal waters off of States whose regulations were 
not consistent with those in Federal waters. Following a 
district court ruling that overturned the emergency rule, the 
National Marine Fisheries Service set the 28-day recreational 
red snapper season in the Gulf of Mexico starting June 1. 
Previous to this, the recreational season was announced by the 
National Marine Fisheries Service to be 12 days in the EEZ off 
of Texas.
    However, in contrast to that, most recently, a completed 
stock assessment was presented last week to the Gulf of Mexico 
Fishery Management Council that suggests additional pounds of 
red snapper are available to harvest. And, of course, the 
Council is now deliberating that.
    Reef Fish Management Plan Amendment 39, which is currently 
under development by the Gulf of Mexico Fishery Management 
Council would allow regional management of the recreational red 
snapper fishery, and could provide greater flexibility to each 
State in setting recreational regulations to optimize the 
economic and social benefits to the citizens of each State. 
While Texas supports the concept of regional management, and 
while we are optimistic that the Council is on a path to 
regional management, the possibility exists that Amendment 39 
will not be adopted. Or, if adopted, it could contain 
undesirable conditions set by the Council or National Marine 
Fisheries that would not be suitable for implementing effective 
regional fishery management plans.
    Modifications to the Magnuson-Stevens Act or other acts 
that specifically address the intent to move toward regional 
management by the Gulf States in a manner that allows maximum 
flexibility for management would be beneficial. The Act also 
could be modified to improve monitoring and data collection of 
both biological and economic data, so that we may assure that 
we gain the full benefits of these fisheries.
    Last, greater flexibility in achieving rebuilding of fish 
stocks, while understanding and preserving the actual fishery 
that depends on those stocks, is paramount, moving forward.
    Thank you for the opportunity to be with you today and 
present my testimony.
    [The prepared statement of Mr. Riechers follows:]

  Statement of Robin Riechers, Director, Coastal Fisheries Division, 
                  Texas Parks and Wildlife Department

    Thank you Chairman Hastings and Members of the Committee. My name 
is Robin Riechers. I am the Director of the Coastal Fisheries Division 
of the Texas Parks and Wildlife Department (TPWD). TPWD through 
oversight by the Texas Parks and Wildlife Commission, is the state 
agency responsible for protecting and managing the fish and wildlife 
resources of Texas. This includes red snapper occurring in the Texas 
Territorial Sea (TTS) that extends 3 marine leagues (9 nautical miles) 
from the shoreline.
    Since the late 1990's, red snapper recreational regulations in 
Texas state waters (set by the Texas Parks and Wildlife Commission) 
have been different than federal regulations in the Exclusive Economic 
Zone (EEZ). Currently, regulations in Texas state waters are a 4-fish 
daily bag limit and a 15-inch minimum size limit, and the fishery is 
open year-round. In contrast, regulations in the federally managed 
waters of the EEZ restrict recreational harvest to 2 fish per day and a 
season that has varied in duration over the last ten years from 194 
days to the fewest amount of days for this season at 28 days.
    TPWD staff strongly believe Texas regulations for state waters are 
appropriate based on our routine stock monitoring program, the most 
current stock assessment, and the fact that the authority to manage 
Texas state waters falls within the jurisdiction of the Texas Parks and 
Wildlife Commission.
    As part of Texas' routine stock monitoring program, scientific data 
are collected on the relative abundance of species found in state 
waters and used to monitor changes in trends over time. Coastwide 
catch-per-unit-effort from TPWD Gulf trawl data reflects the relative 
abundance of young-of-the-year fish. These are early recruits into the 
fishery, mostly aged 0-1, and represent what will be available for 
future years. Since 1986, catch-per-unit-effort has increased 5-fold 
from approximately 0.3 fish caught per hour in 1986 to just over 5 per 
hour in 2012. The four highest years on record have occurred in the 
past ten years.
    A second part of the routine monitoring program is the analysis of 
recreational landings, specifically how many anglers achieve their bag 
limits. For all trips landing red snapper from the Texas Territorial 
Seas (TTS), more than one-third of anglers are landing their bag limit 
of four fish. More than half of anglers landing fish from the Exclusive 
Economic Zone (EEZ) reach their bag limit. Total red snapper landings 
(numbers) by private and charter boat anglers off Texas have declined 
in the EEZ since 2005 but have remained steady in Texas waters. 
Landings by weight have remained relatively steady in both the EEZ and 
TTS over the same timeframe. More importantly than the percent of 
anglers achieving their bag limit is the fact that the average size of 
red snapper landed has doubled in the past 30 years. In 2012, an 
average red snapper landed from the TTS measures approximately 20 
inches while a red snapper landed from the EEZ measured just under 23 
inches. This is all indicative of a stock becoming healthier.
    As red snapper exhibit a high degree of site fidelity, they 
typically do not travel long distances. In one study, the average 
distance moved was approximately 6.25 miles (Diamond et al. 2007). 
Fishing in a state such as Texas, that has more than 360 miles of 
shoreline, is unlikely to impact the red snapper population of another 
state. As shown in the 2009 Gulf of Mexico Red Snapper Update 
Assessment (2013) the western Gulf red snapper sub-unit (waters off 
Texas and Louisiana) has a much greater biomass of spawners and 
recruits than the eastern Gulf sub-unit (waters off Mississippi, 
Alabama and Florida).
    Even with the greater and increasing biomass, the percent of Gulf 
recreational landings for the western sub-unit has decreased since the 
early 1990's from 44% to 17%. Texas specifically has seen our percent 
decrease from just under 25% to around 10%. Additionally, the drop in 
Texas landings is due, in no small part, to the season being set to 
begin in June, a time of year in Texas when weather patterns and 
conditions make it difficult for small vessels to operate offshore. 
This change in pressure from the west to the east will only slow the 
overall recovery in the Gulf and places a disproportionate burden of 
stock recovery on the western Gulf sub-unit. The continued shift of 
landings from the western gulf to the eastern gulf, additional 
restrictions placed on recreational anglers in federal waters in spite 
of healthy snapper populations, and the continued approach of one 
season fits the entire gulf is a key element to why there is support 
for a regional management concept.
    Regrettably, this issue came to a head last spring when our 
partners at National Marine Fisheries Service (NMFS) requested and 
received emergency authority to further restrict recreational harvest 
of snapper in the federal waters off of states like Texas, whose 
regulations were not consistent with those in federal waters. On May 
31st, a U.S. District Court Judge in Brownsville, Texas overturned the 
emergency order issued by NMFS.
    Following that ruling, NMFS set the 28-day 2013 recreational red 
snapper season in the Gulf of Mexico EEZ for June 1 through June 29 at 
12:01 am. Previous to this, the recreational season was announced by 
NMFS to be 12-days in the EEZ off Texas. However, a recently completed 
stock assessment increased the 2013 Allowable Biological Catch for 
2013, 2014, and 2015 to 13.5 million pounds, 11.9 million pounds, and 
10.6 million pounds, respectively. The Gulf of Mexico Fishery 
Management Council (GMFMC) is currently deliberating on the amount of 
additional pounds of red snapper to harvest and determining dates to 
extend the recreational season this year. A special meeting of the 
GMFMC is planned in July to release additional quota for this year and 
to set the recreational landings targets for the next two years.
    Reef Fish Management Plan Amendment 39, which is currently under 
development by the GMFMC, would allow regional management of the 
recreational red snapper fishery if approved by the Secretary of 
Commerce. In its current draft form, Amendment 39 could provide greater 
flexibility to each state in setting recreational regulations for the 
red snapper fishery to optimize the economic and social benefits to the 
citizens within each region (state). The State of Texas and the TPWD 
are supportive of the concept of delegation of management for certain 
elements of the recreational red snapper fishery to Gulf states and 
will continue to work with the Gulf of Mexico Fishery Management 
Council and the National Marine Fisheries Service in developing a 
regional management plan.
    While Texas supports the concept of regional management, our 
complete endorsement and acceptance will depend on the stipulations set 
forth by the Gulf of Mexico Fishery Management Council and National 
Marine Fisheries Service. In addition to awaiting final approval and 
implementation from GMFMC and NMFS, it must be noted that as a 
condition to receiving the delegation of authority we would expect not 
to be held to any higher standard and quota (landings) adjustment 
procedure than the one currently being used by the GMFMC and NMFS.
    We are optimistic the GMFMC is on a path to implement regional 
management of the recreational red snapper fishery in the near future. 
Nonetheless, the possibility exists that Amendment 39 will not be 
adopted, or if adopted, contain undesirable conditions not suitable for 
implementing effective regional fishery management plans. Modifications 
to the Magnuson-Stevens Act that specifically address the intent to 
move towards regional management by the Gulf states in a manner to 
maximize flexibility for managing the harvest in the recreational red 
snapper fishery would be beneficial. Also, greater flexibility in 
achieving rebuilding of fish stocks while understanding and preserving 
the actual fishery that depends on those stocks is paramount moving 
forward. The Act might also be modified to require improved monitoring 
and data collection of biologic and economic data for the red snapper 
fishery so the benefits of regional management can be fully achieved by 
reducing scientific uncertainty and refining management strategies.
    Thank you for the opportunity to be with you today and to present 
my testimony. I am happy to answer any questions any of the Committee 
Members may have.
Literature Cited:
Diamond, S. et al. 2007., Movers and stayers: individual variability in 
        site fidelity and movements of Red Snapper off Texas in 
        American Fisheries Society, Symposium 60: Red Snapper ecology 
        and fisheries in the U.S. Gulf of Mexico 163-187 (2007).
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Riechers, and I want 
to thank all the panelists for their testimony. I will 
recognize myself now for 5 minutes for questioning.
    As you know, our responsibility with Magnuson-Stevens is to 
reauthorize that. So I want to ask a series of questions. And 
this is for all of the witnesses, so be prepared. And I would 
like you just to answer yes or no.
    First of all--and we will start with you, Mr. Schwaab--do 
you support a change in the Magnuson-Stevens Act to allow 
councils more flexibility in rebuilding over-fished fisheries? 
Yes or no, if you could.
    Mr. Schwaab. As I have said here before, the councils 
already have significant flexibility, as evidenced by some of 
what has transpired to date. Under certain circumstances----
    The Chairman. So----
    Mr. Schwaab. Would we potentially support more flexibility? 
I think the answer would be yes.
    The Chairman. All right. Thank you very much. Mr. Anson?
    Mr. Anson. I think, with some caveats, I think the Council 
would be very much in favor of supporting that, yes.
    The Chairman. Mr. Blankenship?
    Mr. Blankenship. Yes.
    The Chairman. Ms. McCawley?
    Ms. McCawley. Yes, we would support more flexibility.
    The Chairman. Mr. Pausina?
    Mr. Pausina. Yes.
    The Chairman. Mr. Diaz?
    Mr. Diaz. Yes.
    The Chairman. Mr. Riechers?
    Mr. Riechers. Yes, we would support more flexibility.
    The Chairman. OK. You all alluded to that, but I wanted to 
make sure we got it on record here.
    This is another yes or no. And we will start this time with 
Mr. Riechers. Would you support changes to the Magnuson-Stevens 
Act that would provide the councils with more discretion in 
implementing the recommendations of the Scientific and 
Statistical Committees?
    Mr. Riechers. In your question I assume that basically 
leads down that same road of flexibility. So the answer is yes.
    The Chairman. Yes, That is part of the process, and I want 
to be now specific on the process where the flexibility comes 
in.
    Mr. Diaz?
    Mr. Diaz. Yes.
    The Chairman. Mr. Pausina?
    Mr. Pausina. Yes.
    The Chairman. Ms. McCawley?
    Ms. McCawley. Yes.
    The Chairman. Mr. Blankenship?
    Mr. Blankenship. Yes.
    The Chairman. Yes? Mr. Anson?
    Mr. Anson. Yes.
    The Chairman. Mr. Schwaab?
    [Laughter.]
    Mr. Schwaab. With some caveats. I would probably lean 
toward the other end of that spectrum, but certainly not to 
preclude all potential increased flexibility.
    The Chairman. OK, thank you. And this is a last one I have. 
And now we will reverse again. Mr. Schwaab, you get to go first 
on this one. And this again, a yes-or-no question.
    Do you believe that the Magnuson-Stevens Act should be 
modified to allow the councils to have more flexibility in 
setting the annual catch limits, and which species should be 
subject to an ACL?
    Mr. Schwaab. I am not sure I understand the first part of 
that question, sir.
    The Chairman. Well, you have catch limits. OK? Should the 
regional councils have the flexibility to, I guess, better 
explore that or decide which species should be subject to ACLs, 
is my question. Should they have the flexibility?
    Mr. Schwaab. Yes, sir. They already do in the treatment of 
some ecosystem component stocks and the way they set catch 
limits on assessed stocks. So certainly the continuation of 
that is appropriate.
    The Chairman. OK. Mr. Anson?
    Mr. Anson. Yes.
    The Chairman. OK. Mr. Blankenship?
    Mr. Blankenship. Yes, sir.
    The Chairman. Ms. McCawley?
    Ms. McCawley. Yes.
    The Chairman. Mr. Pausina?
    Mr. Pausina. Yes.
    The Chairman. Mr. Diaz?
    Mr. Diaz. Yes.
    The Chairman. Mr. Riechers?
    Mr. Riechers. Yes.
    The Chairman. The reason I wanted to ask that--and part of 
the response, at least that I am getting, from here, and the 
frustration that we have with the regional councils, is in the 
process--and I know this is complicated; I am trying to 
simplify it--when you have as much flexibility on a local 
level, I sense that you feel you can resolve the problems. The 
problem is the way the law is written, and when it goes up to 
where NOAA or--NMFS or NOAA get involved, then that complicates 
the problem.
    Now, Mr. Schwaab, I am not picking on you. But the mere 
fact that asking these questions on flexibility, everybody on 
the ground said immediately, ``Yes.'' But from your standpoint, 
you said, ``No.'' And I am not criticizing you, but I am just 
saying this may be the structural problem. And it is to the 
extent that when we look at the Magnuson-Stevens 
reauthorization, that is the area that I think that we should 
focus on.
    In testimony previously on Magnuson-Stevens, one witness 
said that the magic--I won't say the ``magic,'' but the good 
part of Magnuson-Stevens is that it provided for regional 
councils to deal with their specific areas. This is simply--my 
line of questioning was simply an extension of that fact.
    Thank you all for your answers. I will now recognize Mr. 
Sablan for 5 minutes.
    Mr. Sablan. Thank you very much, Mr. Chairman. I was just 
also listening to the conversation earlier, and I am going to 
say that Mr. Blankenship [sic] to my right, all of you are in 
the Gulf of Mexico Council. Am I correct in this? All of you 
have membership in some of the things we brought up here 
actually could be resolved within that Council. Am I correct in 
assuming that, whether it is fishing in June or--so I am not 
sure why we are here this morning.
    But let me go to my questions. Mr. Schwaab, thank you very 
much, sir, for your service. We appreciate that. And I still 
feel bad that I met you at the elevator on the New Jersey side 
one morning and I didn't recognize your name. I apologize for 
that; I still feel bad about that, particularly because the day 
before you gave a grant to the Northern Mariana Islands. That 
made me feel real bad.
    [Laughter.]
    Mr. Sablan. But thank you. But, Mr. Schwaab, you stated 
that recreational anglers last year landed three times as many 
red snapper as they did in 2006, and that those fish weighed 
twice as much. So, as a result, the recreational sector has 
consistently exceeded its quota, even as seasons have become 
shorter. Given this trend, how could simply moving to regional 
management result in a longer season without exceeding the 
ACLs, the annual catch limits?
    Mr. Schwaab. Thank you, Mr. Sablan. I think just simply 
moving would not. Moving with some additional requirements and 
performances on the part of the States to do a better job of 
managing in a more precise way and in perhaps a more timely way 
the collection of recreational catch data would allow that to 
happen.
    We heard Mr. Pausina talk about some of the steps that 
Louisiana had taken to expend funds to enhance surveys. I think 
inherent in any kind of a regional management plan would be a 
requirement, an imposition on the part of the States, that they 
step up and do that for themselves to ensure performance within 
the context of the plan and, frankly, fairness to each other.
    Mr. Sablan. All right. And so, the lack of quality 
recreational landings data and the lag time for utilizing what 
data there is has contributed to the recreational sector's 
inability to stay within the ACL. So how is NOAA working with 
the States to improve the recreational data collection, and 
expedite the inclusion of that data into management decisions 
like season closures and what assistance could the States and 
recreational fishermen provide you?
    Mr. Schwaab. Yes, thank you. So I guess I would stop a 
little short of saying lack of quality, generally. What I would 
say is that the coarseness of the data on a Gulf-wide basis, 
and the challenges associated with timeliness of the current 
survey are, in fact, what have created some of the challenges.
    If you were to go to a State-by-State allocation, and a 
State-by-State management system, that challenge would be 
magnified. And the only way to satisfy that would be to 
increase the number of intercepts substantially to give you the 
kind of precision that you would require at a State-by-State 
level. And you would potentially have to put in place 
additional survey methodologies to increase the timeliness of 
that data, so that in-season adjustments or corrections could 
be made.
    Mr. Sablan. Right.
    Mr. Schwaab. Which, of course, is a challenge that we have 
had in recent years.
    Mr. Sablan. Right. And I am just happy to--I mean I am 
assuming red snapper are more well-behaved fish. Because where 
I come from, we have other kinds of fish that go into the 
international area, or other jurisdictions.
    But one more question, Mr. Schwaab, what challenges would 
NOAA, the Coast Guard, and the States face in enforcing five 
different sets of fishing regulations under a regional 
management scheme? And how would the sequester and other 
budgetary pressures limit compliance and enforcement?
    Mr. Schwaab. Thank you. Assuming that each of the States 
participated, I think that you would see compliance efforts 
focused at the dock. It would be challenging to manage 
different seasons, bag limits, potentially size limits, out in 
the EEZ amongst fishermen who originated from different States.
    We have to remember that, in the end, different from many 
other stocks that we have talked about already, red snapper are 
caught primarily in Federal waters--not solely in Federal 
waters, but primarily in Federal waters. So, obviously, to make 
that work, all States would have to participate, and most of 
the compliance would then occur at the dockside.
    The Chairman. The time of the gentleman has expired. I will 
recognize the gentleman from Virginia, Mr. Wittman.
    Dr. Wittman. Thank you, Mr. Chairman. Panelists, thank you 
so much for joining us today. Very insightful. I want to ask a 
question of each of you along the lines of what the Chairman 
has asked, and that is, looking at the concept that you have 
right now with the Council, and how the Council manages the red 
snapper resource there, and looking at where we were on the 
East Coast with striped bass a number of years ago, same 
position, stocks rebuilding, controversy about how do you 
manage them, how do you make sure all the different elements, 
sport fishing, commercial fishermen alike are kept in mind, as 
far as that regional management approach, let me ask this.
    Should the total management regime for red snapper be 
shifted to the States, and should it happen under a regional 
management commission approach, much like on the East Coast, 
with the Atlantic States Marines Fisheries Commission? I will 
go down the panel and ask your thoughts on that.
    Mr. Schwaab. Thank you, Mr. Wittman. I think we are 
certainly supportive of the concept. We see ways in which, 
particularly for the recreational angling community, the kind 
of flexibility that was talked about here could be beneficial. 
There are two ways that could happen. Primarily, one would be a 
delegation by the Council to the States, particularly for the 
management of the recreational fishery. That would avoid some 
of the problems that I think have arisen with respect to 
potential impacts on what is now a successfully operating and 
much more sort of stable commercial fishery. If there were 
movement to simply shifting responsibilities to the Gulf State 
Commission, I think some of the standards that apply within 
Magnuson-Stevens, some of the standards that you see applied on 
the Atlantic Coast, would clearly have to be a part of that 
plan.
    Dr. Wittman. OK, very good. Mr. Anson?
    Mr. Anson. Yes, sir. I think that type of management plan 
or style could be implemented in the Gulf of Mexico. The 
Commission works well with the States, obviously, trying to 
resolve issues, inter-state fisheries issues. And although it 
would be a little bit different in regards to management in 
Federal waters, I think that infrastructure is there, and the 
communication is there to have good engagement.
    Dr. Wittman. Very good. Mr. Blankenship?
    Mr. Blankenship. The Gulf States Marine Fisheries 
Commission has a different makeup than the Gulf Council.
    Dr. Wittman. Right.
    Mr. Blankenship. And I think that it can be done either 
way, through the Gulf Council or through the Commission, it 
would just be some different players in the mix with the 
Commission. But I think the road we are moving forward with the 
regional management delegation through the Council is very 
viable.
    Dr. Wittman. OK, very good. Ms. McCawley?
    Ms. McCawley. I agree with Director Blankenship. I think 
that moving it to the Gulf States Marine Fisheries Commission 
is a viable option. But I also believe that moving forward with 
regional management through the Gulf Council process is a 
viable option.
    Dr. Wittman. Very good.
    Mr. Pausina. Well, I will say the fact that the five State 
directors can sit here in pretty much unison decisions, a lot 
of the key decisions that got us all on board happened at Gulf 
States Fisheries Commission meetings. We have a great 
relationship there. It is a better work environment. It allows 
more flexibility, for sure.
    Moving to regional management through a State delegation is 
step one, and would be a great step. Moving to a commission or 
some sort of other entity would be an even more flexible step, 
and would allow the States to fully realize the flexibility 
that we are asking for.
    Dr. Wittman. Very good. Mr. Diaz?
    Mr. Diaz. Yes, sir. Yes, Mississippi is prepared to handle 
regional management, regardless of whether it comes through the 
Gulf Council or the Commission. I do think either avenue would 
work. And we would be prepared to implement it, however it 
comes down.
    Dr. Wittman. Very good. Mr. Riechers?
    Mr. Riechers. Yes. Mr. Pausina, we see it kind of as a 
continuum going from more Federal control, even under the 
regional management council system. And if it went to the 
Commission, more State control. But we certainly are supportive 
of that concept.
    Dr. Wittman. Very good. Thank you, Mr. Chairman. I am going 
to go to Mr. Schwaab real quickly.
    Can you tell me what efforts are underway to improve the 
science and data collection for red snapper? As you know, there 
is such a time gap in the data that is being used to manage, 
and the actual conditions there in the environment on the 
water. Can you tell me, what are you doing to have a more 
timely and a more expansive data collection system and analysis 
and application in the management scheme?
    Mr. Schwaab. Thank you, Mr. Wittman. So there are two large 
components to that. One is the sort of information that 
supports the assessment process that includes both fishery-
dependent and fishery-independent data. The other part of that 
is the part that deals more with who is catching what and when. 
If that was the focus of your question, the answer is, in part, 
for us to shift to MRIP and the improved accuracy that has 
emerged, as we have put in place the new methodologies for both 
calculation, as well as the way we would deploy dockside 
intercepts and the like, to address some sort of pre-existing 
biases in the system.
    Clearly, that alone will not provide the timeliness we are 
looking for, nor will it provide the kind of precision we are 
looking for. Ultimately, to increase precision down to a State-
by-State level, you are talking about spending more money for 
more intercepts, and significantly upping the ante, as it 
relates to the conduct of surveys.
    But we are also looking at some of these technologies and 
applications, and I mentioned in my testimony things like 
iSnapper and iAngler, which could, in some cases--although I 
would hesitate to suggest it is going to have an impact 
immediately--have some benefit down the road.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from California, Mr. Huffman.
    [No response.]
    The Chairman. The Chair recognizes the gentleman from 
Louisiana, Mr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman. Mr. Pausina, thank 
you for what you do for our State, Louisiana. And I thought I 
would start off addressing some questions to you.
    The bee in our collective bonnets, when it comes to the 
issue of having adequate fishing, access to fishing for 
recreational fishermen, is stock assessments that--NOAA, for 
instance, spends hundreds of millions of dollars for global 
warming satellites, but is way behind in the stock assessments.
    And I am really intrigued by what our State is doing, 
because you have noted that we have implemented a real-time, 
in-season data collection program for the recreational sector. 
And so, how does that differ from the Federal MRIP data 
collection program? And why is the Federal program unable to 
match your results for real-time data?
    Mr. Pausina. Well, MRIP was designed, as I said earlier, 
with a broader goal. And it is annual Gulf-wide landings. And 
sometimes you can get pretty resolution State-by-State, 
depending on the species. But it is being used incorrectly. It 
is being used in the case of red snapper to also quota monitor, 
which it is not designed to do.
    So--and I believe--I can't speak for NOAA, but they are not 
able to just radically make that change overnight and have it 
happen, as we can in the States. And what we did--and I will 
just read this real quickly, because it is--kind of falls into 
what you are asking. During the entire 2012 recreational 
snapper season in Louisiana, MRIP surveyed 20 private boat 
trips, where 31 fish were measured in the whole entire season.
    In contrast, since Louisiana started quota monitoring in 
March of this year, Louisiana fisheries biologists have been on 
the dock conducting recreational surveys every day that red 
snapper season is open. So far this year, through June 16th--I 
don't even have updated numbers; this is only through June 
16th--our biologists have surveyed 1,100 off-shore fishing 
trips comprised of over 4,000 anglers. During that time, we 
have measured over 17,000 fish and weighed over 1,100 fish.
    Catch rates during the 2013 EEZ season from Louisiana's 
quota monitoring survey shows that anglers were landing roughly 
10,000 pounds per day, while NMFS estimates Louisiana anglers 
are harvesting 17,000 pounds per day. As a result, they 
continue to over-estimate Louisiana's landings by more than 30 
percent. That is days. That equals days that we lose. Also, 
when you start looking at our individual fish are weighing a 
pound, roughly, less than the overall Gulf average, so that 
equals days that we lose, too.
    So, through June 9th, Louisiana's quota monitoring survey 
showed that recreational anglers landed an estimated 18,200 red 
snapper. The Federal MRIP survey only reports harvests from 
January and February at this point in time of 2013. So it is 
not very timely. There is a major lag.
    So, when our Commission voted to go to weekends only 
starting in Easter, we had to rapidly put a program in place. 
And we did it, and it can be done, and I know that NOAA has the 
scientists to do it. It is do they have the flexibility to do 
it. And that is what we are all here talking about. Clearly, 
the States do have the flexibility. Maybe not always the money. 
I had to move resources, I had to reprioritize a lot of our 
budget, but I felt it was an important goal.
    Dr. Fleming. So two takeaways from that I would see is the 
more points on the graph, the better the data, the more 
accurate the data. Certainly your real-time assessment, your 
real-time measurements, are far more accurate, by way of many 
more points on the graph, but also more timely. You are able to 
get closer in time to where the action is.
    Mr. Pausina. Yes, they are within a week-and-a-half, when 
we have the data in and it is available. All the data and all 
the protocols have been given over to the science center, the 
Federal science center, and they have pretty much validated--in 
fact, they gave us more days, based on the recalculations. We 
still feel like they are over-estimated on----
    Dr. Fleming. Right. And by the same notion, it is more 
difficult to manage that data from a more centralized location. 
So, obviously, if you break it out in States or regions, it is 
easier to manage and to measure that data. Would you agree?
    Mr. Pausina. Absolutely.
    Dr. Fleming. OK. With that, I yield back.
    The Chairman. I thank the gentleman. The gentleman from 
California is ready, or----
    Mr. Huffman. No.
    The Chairman. OK, all right. The gentleman from Florida, 
Mr. Southerland.
    Mr. Southerland. Thank you, Mr. Chairman. first of all, I 
want to say that I appreciate all of you traveling to meet with 
us today. And I want to say to Ms. McCawley, thank you for 
being here, representing Florida.
    We just heard statements by Mr. Pausina from Louisiana, as 
far as their ability to get data, OK, literally, from the dock 
to a congressional hearing room in 10 days. I am big on 
Florida. Can we perform like that?
    Ms. McCawley. I would like to think that we can. We have 
a----
    Mr. Southerland. Good answer.
    Ms. McCawley [continuing]. A few more ports than they do in 
Mr. Pausina's State. But, yes, I think that we can eventually 
get to the same place, where we can have more scientists at the 
dock, monitoring that catch, and getting closer to real time.
    Mr. Southerland. Right. So when the National Marine 
Fisheries has 5 years to perform a stock assessment--5 years--
and can't manage to get us a stock assessment prior to a 
season, but yet deliver that to us, would that be a good, old 
effort? Obviously, I am going to assume that is not acceptable 
to the people that fish in Louisiana. And I can speak as a 
fisherman from Florida, that is not acceptable. Do you agree 
with my summation, there?
    Ms. McCawley. Yes, I agree that we need more timely 
assessments for red snapper----
    Mr. Southerland. Right.
    Ms. McCawley [continuing]. So that we can track what 
fishermen are seeing on the water more closely.
    Mr. Southerland. Right. This 5-year need just kind of snuck 
up on us, it seems like.
    I know, Mr. Schwaab, as you mentioned--by the way, thank 
you. I don't know what they are paying you today, but you 
deserve hazard pay. You mentioned in your testimony that the 
red snapper rebuilding schedule has been modified. How did the 
year 2030 become the selected date for rebuilding?
    Mr. Schwaab. It was based generally on the life history 
and, essentially, the long-lived nature of red snapper.
    Mr. Southerland. Right, but we know that the red snapper 
has not been over-fished since 2009, correct?
    Mr. Schwaab. Over-fishing was just determined to not be----
    Mr. Southerland. That is a good term. I think America 
appreciates----
    Mr. Schwaab. Over-fished is a kind of a relative--an 
abundance categorization. From an abundance-wise, we are not at 
that target.
    Mr. Southerland. Right. How surprised were you that the 
stock assessment that finally came in after 5 years showed a 
double of the biomass?
    Mr. Schwaab. So I don't think that we were surprised at all 
with the kinds of increases. You saw an update assessment in 
2009. One of the reasons, sir, that this 2013 time table was 
set was to take fuller advantage of some of the enhanced survey 
work that was put in place in 2010 and 2011. So the schedule to 
get to this date in 2013 was something that was discussed with 
and agreed to by the Council 2 years ago, with the 
understanding that we wanted to take maximum advantage of some 
of the new data points that had been put into play.
    Mr. Southerland. I want to ask you some questions regarding 
fleet reduction. And I know since IFQs were put in place, the 
fleet has gone from 800 vessels to 400. You stated 
participation in the commercial red snapper fishery measured by 
the number of accounts holding red snapper IFQ shares has 
declined by about 25 percent since the program has been 
implemented.
    Does the National Marine Fisheries Service and NOAA, have a 
record of who owns catch shares?
    Mr. Schwaab. Yes.
    Mr. Southerland. And----
    Mr. Schwaab. Or who has been assigned and permitted shares.
    Mr. Southerland. Right.
    Mr. Schwaab. They are not ownership.
    Mr. Southerland. Of the IFQ catch shares distributed, are 
all of them being fished?
    Mr. Schwaab. [No response.]
    Mr. Southerland. I would take, by your pause, that is a no.
    Mr. Schwaab. Oh, no, from a quota perspective, my 
recollection is that generally we are coming close to the quota 
on an annual basis. So, in the context of all of them being 
fished, the measure would be how close is the commercial 
fishery performing against the quota. Or, is your question 
related to whether quota is being transferred from one holder 
to another, and therefore, are all of the individuals who hold 
quota shares actually fishing?
    The reason I am hesitating is because I wasn't really sure 
of the nature of your question. But I think the short answer 
is, generally, the commercial fisheries come in close to 
landing its quota.
    Mr. Southerland. I know you stated recreational fishermen 
are landing red snapper 3 times the rate as they did in 2006, 
estimated 18,000 fish per day, compared to 6,000 fish per day. 
How many days--when you make reference to 2006, how many days 
were in that season?
    Mr. Schwaab. I probably have that here in my book. I could 
look it up in a moment----
    Mr. Southerland. One hundred twenty six.
    Mr. Schwaab. OK.
    Mr. Southerland. Do you know how many days we have in the 
current season?
    Mr. Schwaab. Twenty-eight.
    Mr. Southerland. OK. So, sure, we are going to catch more 
fish, because we are going to be fishing 24 hours a day in that 
28-day period. I would say that these rules are moving us--are 
creating derby fishing, OK? So you are creating hazards, as 
opposed to preventing them. I yield back.
    The Chairman. The time of the gentleman has expired. The 
gentleman from South Carolina is recognized.
    Mr. Duncan. Thank you, Mr. Chairman. And let me just start 
off by saying that my experience has been with the South 
Atlantic area. And the experience that I have had is that the 
recreational angler has oft times been left out of the mix, or 
has had a diminished voice at the table with regard to the 
councils and the information and how it is actually applied.
    And I look at the chart that shows the overall quota for 
commercial and recreational quota, days fishing from 1990 to 
2013. And there is something that jumps out at me right off the 
bat, and that is the fact that recreational fishing has gone 
from 365 days a year, 7 fish in 1990, to 46 days--well, excuse 
me, let's go to 2013--28 days and 2 fish. And you look at the 
other data from 1994, and I see that the commercial quotas have 
gone up, the actual recreational quota has gone up, even though 
the number of days have gone down.
    So, Mr. Chairman, I want to make sure that this chart is 
part of the record, because I think America needs to look at 
it.
    The Chairman. And without objection, it will be part of the 
record.
    [The chart submitted for the record by Mr. Duncan of South 
Carolina follows:]
[GRAPHIC] [TIFF OMITTED] 81806.008

.eps*In 2007, a revised rebuilding plan was put in place.
                                 ______
                                 
    Mr. Duncan. Thank you. And the gentleman from Florida, this 
is a passionate issue for him. And I know he may have some 
additional questions, so I am going to yield the balance of my 
time to him, so we can continue this line of questioning to do 
what is right for the commercial and the recreational fishermen 
in his home State, and the Gulf Coast. And with that, I will 
yield my time to the gentleman from Florida, Mr. Southerland.
    Mr. Southerland. I would like to thank the gentleman from 
South Carolina for the additional time.
    Mr. Schwaab, let's continue our questioning, or our 
conversation. Can you understand the aggravation of the 
recreational fishermen in Florida as it relates to the 
performance of the agency that you have faithfully represented 
throughout your career?
    Mr. Schwaab. Well, to be honest, I have only represented 
this agency for the last 3\1/2\ years. Most of my career----
    Mr. Southerland. Well, you all have mustered up a lot of 
aggravation in 3\1/2\ years, I will tell you.
    Mr. Schwaab. Most of my career, sir, was spent at the State 
level. So I can understand the challenges of fishery management 
from both State and Federal perspectives, and as a recreational 
fisherman, myself.
    Mr. Southerland. Well, when your lead scientist last month 
at a hearing--Mr. Merrick made mention that, as a process of 
determining what fish surveys are going to be performed, they 
look at the economic viability of that fish, or that fishery. 
And for there to have a South Atlantic closure to the red 
snapper for 1,234 days, as of the day he testified--now over 
1,250--and there not being a survey since 2008, and there is no 
survey scheduled for 2013 or 2014, and there is hardly a fish 
that has greater economic value than the red snapper, certainly 
you can see why your agency is not really cared for because of 
the inconsistencies such as that, and in past surveys, refusing 
to go to the State of Alabama, which harvests 40 percent of all 
the red snapper out of the Gulf of Mexico, because of the reef 
system, and your agency has refused over and over and over 
again not to count fish that are on artificial reefs. Certainly 
you can understand the aggravation because of the performance 
of the way this agency has created pain on the Gulf Coast 
States.
    Mr. Schwaab. I can understand, sir, the frustration 
associated with a rebuilding schedule required by Federal law 
that restricts fishermen's access to the water. But I can also 
understand, as a recreational fisherman myself, the value of 
significantly enhanced fishing opportunity on the days that I 
do go, recognizing that there is an apparent paradox when you 
have a rebuilding stock, you have increased fishing 
opportunity, and yet you are constrained against that, so that 
we can continue to see those opportunities available not only 
for future years but for future generations. And, frankly, from 
my perspective, I want to make sure that my kids have the 
opportunity to fish and enjoy red snapper, the same way that my 
parents or grandparents might have.
    Mr. Southerland. Has your agency had the flexibility in 
Magnuson-Stevens to count fish on artificial reefs in the past?
    Mr. Schwaab. Have we had the flexibility? Yes. Have we only 
recently designed surveys to enhance our ability to collect 
data against some of those artificial reefs? Yes. I think the 
survey methodologies, the fishery-independent survey 
methodologies have certainly evolved in recent years, as we 
have invested there to deal with some of these problems.
    Mr. Southerland. All right. I see my time is up. I yield 
back.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the guest of the Committee, Mr. Scott from 
Georgia.
    Mr. Austin Scott of GA. Thank you, Mr. Chairman. And I 
appreciate the opportunity to be here. I, like Mr. Southerland, 
share an extreme passion, if you will, for a sport that I used 
to get to participate in a lot, fishing. And now that it has 
been cut to 28 days, it is one of those things that I won't get 
to do this year, not for snapper, anyway.
    But Ms. McCawley, I fish pretty much from Florida. I have 
fished everything from the old Steinhatchee Bridge when I was a 
kid, and all we could afford was to fish from the bridge, the 
Bay Point billfish tournaments. So I have spent a lot of time 
in your waters.
    And, Mr. Chairman, I would just like to kind of tell you my 
experience, if you will, as a recreational fisherman who hasn't 
been here that long.
    When you originally changed the limits, Mr. Schwaab, we, as 
recreational anglers, were told that as soon as the limit was 
restored, we would get our seasons back. The agency promised us 
that we could have a reduction in the number of days, or we 
could have a reduction in the number of fish. That is what we, 
as recreational anglers, were told. I personally thought that a 
reduction in the number of days was better. I expressed that to 
Mr. Crabtree. That had to do with the fact that there is less 
bycatch and other things. Quite honestly, when you fish out of 
Panama City, if you pull a snapper up and you throw him back, 
you are feeding a porpoise, not supporting the regeneration of 
snapper again. Now, if you are fishing shallow water, it is 
different.
    But we were told, the citizens of the United States, that 
once it came back, we would get our days back. The next year 
the agency then took us from 194 to 65 days. And you have 
progressively gone down this path of restricting our ability to 
fish at all, down to the point where we are under 30 days for 
2013.
    Now, how is it that, all of a sudden, the quota--the stock 
has restored itself to the point that you are going to give us 
the highest quota limit that there has ever been in the 
country? And why can't we just go to 180-day, 4-fish limit? Why 
can't we do that right now? So, that is my question for you, 
Mr. Schwaab. Why can't we go to 180 days, 4-fish limit right 
now?
    Mr. Schwaab. Thank you, Mr. Scott. I included in my written 
testimony a graph that basically shows a history of spawning 
potential, and where we are in this rebuilding process. And 
what it essentially shows is, after a long period of time of 
relatively low spawning potential within the stock, we are well 
on the way of sort of an upward slope, but we are not up to 
that place yet.
    So, the short answer is, if we went back to 4 fish and 194 
days, not only would we cut short that rebuilding process, but 
we would probably go right back to where we were 10 or 15 years 
ago, and have lost the gains that fishermen across the region 
are seeing, as a result of this rebuilding.
    I mean ultimately, the challenge here is that we have much 
better fishing than we did 5 or 10 years ago, and that 
increased fishing is not only improving success rates, but it 
is attracting anglers in a way that could short-circuit and 
undermine the rebuilding process that is underway.
    And, oh, by the way, as we talked briefly here, I hope that 
you will be able to take advantage of some of those fall days. 
So your 2013 fishing opportunity is not lost. These ladies and 
gentlemen are working on that for you right now.
    Mr. Austin Scott of GA. I can--well, we might be up here 
protecting people's right to hunt and fish, so--from Federal 
agencies. But I don't understand--well, I will just tell you. 
The bottom line is things were misrepresented to the 
recreational angler and to the commercial angler, as well. And 
I don't understand why it has taken so long to get back to it. 
I think what the gentleman from Louisiana said, the bottom line 
is you don't have the data to support what you did, you were 
supposed to have economic impact studies.
    I will finish with this. One boat dealer in Georgia went 
from selling $15 million a year worth of offshore boats before 
you changed your rules to about $3 million. He went from 15 
employees to where nobody other than the family and one 
mechanic works there. What you did hurt the economy in these 
States--Georgia included, even though we are not on the Gulf 
Coast.
    With that, Mr. Chairman, thank you for allowing me to 
participate.
    The Chairman. I thank the gentleman. And I want to thank 
very much the panel for your testimony. Many times after the 
testimony questions come up. And so, if you are asked a 
question of the panel as a follow-up, I would ask you to 
respond back to the Committee as promptly as you possibly can.
    With that, I will dismiss the first panel and ask the 
second panel to come forward: Mr. Herbert Malone, Jr., Mr. 
Harlon Pearce, Ms. Pamela Anderson, Mr. Wayne Werner, and Ms. 
Susan Boggs.
    I want to thank the panel for being seated. I think many of 
you who are sitting understand the 5-minute rule. Once again, 
your full statement will appear in the record, and I would ask 
you, in your oral remarks, to keep them within the 5 minutes. 
And as you know, when the green light comes on, you are doing 
very, very well. And when the yellow light comes on it means 
you have 1 minute. And when the red light comes on, I would ask 
you to conclude your remarks.
    So, we have Mr. Herbert Malone, Jr., President and CEO of 
the Alabama Gulf Coast Convention and Visitors Bureau; Mr. 
Harlon Pearce, the Gulf Seafood Marketing Coalition; Ms. Pamela 
Anderson, Operations Manager of Captain Anderson's Marina; Mr. 
Wayne Werner, Co-Founder of the Gulf Coast Professional 
Fishermen; and Ms. Susan Boggs, Co-Owner of Reel Surprise 
Charter Fishing.
    Mr. Malone, we will recognize you for 5 minutes for your 
statement.

  STATEMENT OF HERBERT J. MALONE, JR., PRESIDENT/CEO, ALABAMA 
           GULF COAST CONVENTION AND VISITORS BUREAU

    Mr. Malone. Thank you, Chairman Hastings and Mr. Sablan, 
and members of the Committee, for the opportunity to visit with 
you today. My name is Herbert Malone, Jr. I am President and 
CEO of Alabama Gulf Coast Convention and Visitors Bureau, a 
position I have held for over 20 years. Our entity is an 
official destination marking organization representing the 
cities of Gulf Shores and Orange Beach, Alabama. Our 
destination welcomes over 5 million guests per year who come to 
enjoy our beaches, the Gulf, and outstanding fishing. Alabama 
currently has one of the largest offshore charter fleets on the 
entire Gulf. These charter boat owners and crew, along with the 
bait and tackle shops, marinas, boat repair facilities, et 
cetera, depend heavily on a steady stream of fishing customers.
    Our local fishing industry, in conjunction with the Alabama 
Department of Conservation and Natural Resources, over the 
years have established a 1,200 square mile permitted artificial 
reef zone just off the Alabama coast, which now contains over 
17,000 artificial reefs made by these private and public 
investments. These reefs have cultivated a habitat for the 
largest red snapper fishery in the Gulf, and research has shown 
that more recreationally caught red snapper landed in Orange 
Beach, Alabama, than anywhere else in the world.
    The Draconian decisions of the Gulf Council and National 
Marine Fisheries have resulted in an ever-shortening season 
that had a huge negative economic impact on our family owned 
small businesses. This, in spite of repeated testimony and 
common-sense observations by many, including myself, as a 
recreational angler, that red snapper off the Alabama coast are 
more plentiful now than has ever been seen in a fisherman's--
local fisherman's--lifetime. In fact, they would go so far as 
to say that red snapper, rather than being considered over-
fished off the Alabama coast, are actually over-populated.
    Due to widely recognized as flawed research models, the 
Gulf Council has continued to shorten the seasons down to the 
current 28 days in 2013. Around 2007, the spring snapper season 
was eliminated, moving the opening day to June 1, which really 
was the beginning of the decline in our $600 million local 
recreational fishing industry. According to NOAA's own report 
entitled, ``Fisheries Economics of the United States''--the 
latest version that has State data included is 2009--2006 was 
our most productive year in coastal recreational fishing on 
Alabama's coast.
    Over the next 3 years, we saw a 30 percent decline in the 
number of anglers, a 35 percent decline in for-hire charter 
trips, and a loss of over 1,600 jobs. This loss of fishing 
activity is not only felt in the fishing sector of our local 
economy, but also felt in our restaurants, hotels, and also in 
our local government's tax receipts.
    Let me reiterate. These 1,600 jobs lost from the community 
population of less than 6,000 residents. And these are not 
corporate jobs by some big corporation. These are jobs that are 
actually independent business owners that have not only lost a 
job, they have lost a business, they have lost their way of 
life.
    I spoke recently to one of our most experienced, highly 
regarded captains, and asked him about his current situation. 
He shared with me that his charter will fish all 25 of the 
current 28-day season, having lost 3 days to weather. But 
currently, only has 4 days on his books for charters for the 
month of July. This is an example of what the market demand is 
for red snapper, versus other species of fish.
    The failing business model brought about by the actions of 
the Gulf Council is--if this practice continues, it will mean 
more negative impacts and more failing businesses in our local 
fishing industry. By most accounts from the members of our 
fishing community I have spoken with, the best hope of relief 
is relief from the Federal agency model, and move out to the 
resource management turned over to the States via the regional 
management plan. Economic indicators and the business 
statistics coupled with the obvious health of the snapper 
fishery is evidence that the current model has failed. We need 
your action to change that model so that our businesses can go 
back to a red snapper season that supports viable businesses 
and demonstrates to our millions of visitors each year what 
good fisheries management can accomplish. Thank you.
    [The prepared statement of Mr. Malone follows:]

          Statement of Herbert J. Malone, Jr., President/CEO, 
            Alabama Gulf Coast Convention & Visitors Bureau

    My name is Herbert Malone, Jr., and I am the President and CEO of 
the Alabama Gulf Coast Convention & Visitors Bureau, a position I have 
held for more than 20 years. Our entity is the official destination 
marketing organization representing the cities of Orange Beach and Gulf 
Shores, Alabama.
    Our destination welcomes over 5 million guests per year who come to 
enjoy the beaches, the golf and the fishing. Alabama currently has one 
of the largest offshore charter fleets in the entire Gulf. These 
charter boat owners and crew, along with the bait and tackle shops, 
marinas and boat repair facilities depend heavily on a steady stream of 
fishing customers.
    Our fishing industry, in conjunction with the Alabama Department of 
Conservation and Natural Resources, has established a 1,200-square-mile 
permitted artificial reef zone just off the Alabama Coast, which now 
contains over 17,000 artificial reefs. These reefs have cultivated 
habitat for the largest red snapper fishery in the Gulf. Research has 
shown that more recreationally caught red snapper are landed in Orange 
Beach, Alabama than anywhere else in the world.
    The draconian decisions of the Gulf Council have resulted in an 
ever shortening season and have had huge negative economic impact on 
our family owned, small businesses. This is in spite of repeated 
testimony and common sense observations that the red snapper off the 
Alabama coast are more plentiful now than they have ever been.
    Due to what are widely recognized as flawed research models, the 
Gulf of Mexico Fishery Management Council has continued to shorten the 
seasons down to the current 28 days in 2013. In 2007, the Council 
eliminated the spring snapper season, moving opening day to June 1, 
thus the beginning of our fishing industry's economic decline. 
According to NOAA's report titled ``Fisheries Economics of the United 
States, 2009,'' 2006 was our most productive year in coastal recreation 
fishing. Over the next three years, from 2006-2009, we saw a 30% 
decline in the number of anglers, a 35% decline in ``for hire'' 
(charter) trips, and a loss of 1,600 jobs. This loss of fishing 
activity was not only felt in the fishing sector of our local economy, 
but it was also felt in our restaurants and our hotels as well as in 
our local government's tax receipts.
    In my position as the head of tourism, I have the opportunity to 
speak frequently with many of our business people, including our 
charter boat captains. One of our most experienced, highly regarded 
captains recently shared with me that he will have fished 25 of this 
year's 28 day season, losing only three days to the weather. Currently, 
he has only four charters on the books for the entire month of July, 
which is the most lucrative month of the year for every other sector of 
our tourism economy. This is a failing business model, brought about by 
the actions of the Gulf Council. If this management practice continues, 
it will mean even more negative impacts and failing businesses in our 
fishing industry.
    By most accounts of those in the fishing business, our best hope 
for relief is to move the federal agency out of this resource 
management and turn it over to the states via a regional management 
plan. The economic indicators and the business statistics, coupled with 
the obvious health of the snapper fishery, are evidence that the 
current NMFS/GMFMC is also a failed model. We need your action to 
change that model so our businesses can go back to a red snapper season 
that supports viable businesses and demonstrates to our millions of 
visitors each year what good fisheries management can accomplish.
                                 ______
                                 
    The Chairman. Thank you very much.
    Next I will recognize Mr. Harlon Pearce, who is with the 
Gulf Seafood Marketing Coalition. Mr. Pearce, you are 
recognized.

                  STATEMENT OF HARLON PEARCE, 
                GULF SEAFOOD MARKETING COALITION

    Mr. Pearce. Thank you, Mr. Chairman and members of the 
Committee. My name is Harlon Pearce, and I am pleased to 
testify today on red snapper management in the Gulf of Mexico. 
I am the owner of Harlon's LA Fish, a seafood wholesaler based 
in Kenner, Louisiana, and I am a member of the Gulf of Mexico 
Fishery Management Council, and past Chairman of the Louisiana 
Seafood Promotion and Marketing Board. Today I am speaking on 
behalf of the Gulf Seafood Marketing Coalition, and I will 
focus on issues facing the harvesting sector and the supply 
chain that depends on us.
    Red snapper and other seafood sales are one of the biggest 
drivers of the important tourism industry in the Gulf States. 
Surveys indicate that tourists closely identify the delicious 
and mild flavor of red snapper with the American Gulf Coast. I 
am committed to working on a solution that addresses the 
recreational red snapper controversy, while also preserving 
supply for commercial harvesters and consumers.
    While there have been challenges with over-fishing of the 
stock in the past, the species is no longer undergoing over-
fishing. It is now being managed under a rebuilding plan which 
will allow the species to rebuild back to target population 
levels. An IFQ program now provides the harvesting sector with 
flexibility to fish during the times that suit their needs, and 
the needs of the market, resulting in less pressure on the 
fishery. At this time, no similar solution has been developed 
for the recreational sector.
    While I recognize the seriousness of the challenges facing 
the recreational sector, actions taken to remedy their concerns 
should not upset the IFQ process that seems to be working 
favorably for those dependent on the seafood supply provided by 
the harvesting side.
    Fortunately, the Gulf Council is moving quickly with a 
regional management program for red snapper that will preserve 
the equity, sustainability, and transparency guaranteed under 
the Magnuson-Stevens Act, while also granting the States a much 
broader role in determining catch limits and allocations. 
Importantly, no Act of Congress is necessary to see this 
concept become a reality.
    At last week's Gulf Council meeting, we voted to send Reef 
Fish Amendment 39 to the public hearing phase for review and 
comment. Amendment 39 would establish a regional management 
program that delegates authority to the States to set 
management alternatives for recreational red snapper. This 
gives States more flexibility in choosing season and bag 
limits, but maintains important Federal oversight and 
conservation goals. The Gulf Council would continue to oversee 
the stock, which is imperative to sustainability of the fishery 
and our businesses.
    Amendment 39 includes a data collection initiative that is 
imperative concerning the Southeast Fishery Science Center's 
inability to get real-time data for the recreational sector in 
a timely manner. All five Gulf States have sent letters to the 
National Marine Fisheries Service agreeing to make this 
regional program happen. Importantly, no changes to the 
Magnuson-Stevens Act would be necessary to see regional 
management become a reality, and the red snapper bill's pending 
consideration before Congress would also be unnecessary.
    In my written testimony I detail several concerns with 
Federal legislation to turn red snapper management to the 
States, and I am happy to expand on those concerns during 
questioning.
    Additional Council activities may further provide fishermen 
with needed certainty. The Council agrees on a constant catch 
scenario, and we have asked the SSC to give us a constant catch 
ABC on the average of the catch limits for years 2013, 2014, 
and 2015. That should be somewhere around 11.9 million pounds.
    The Council will hold a meeting in New Orleans on July 17th 
that will set the fall of 2013 season, and try to begin to set 
the 2014 and 2015 seasons. This constant catch scenario will 
provide the seafood community with consistent numbers over 
time, and an ability to better plan for future seasons. There 
is also much discussion among Council members that the red 
snapper stocks may already be rebuilt, based on the equilibrium 
yield of 11 million pounds per maximum sustainable yield. This 
is good news for our fishery and our stakeholders.
    While no Federal legislation is needed to solve the red 
snapper challenges, I would like to suggest a few general 
changes to the Magnuson-Stevens Act would better our Nation's 
fishery program, on the whole.
    Funding for fishery research and data could come from a 3 
percent set-aside allocation, as is done on the East and West 
Coast, that would develop a picture of our fishery every year. 
We would get constant data sets coming in, so that we would be 
able to see the trends up and down on our fishery. Another area 
of funding could be from redirecting permitting fees for data 
collection programs back to NMFS for the implementation of 
fishery management project and research.
    The Science and Statistical Committee should be considered 
and their recommendation should be just that, recommendations. 
Determinations made by SSC should be taken into consideration, 
but the role of the SSC should only be advisory.
    Finally, it has become obvious that our industry should be 
expanded from two individual fisheries into three that 
encompass the harvesting, recreational, and charter-for-hire 
communities. On the commercial side, our focus must go beyond 
the economics of the harvesting sector alone, and consider 
seafood consumers throughout the supply chain for increased 
consumption of domestic seafood, and more equally balance our 
seafood trade deficit. The needs of the consumers, and our 
efforts to market U.S. seafood to the public must remain a top 
priority.
    I hope I have provided you with some clarity on the ways in 
which the red snapper challenge can be resolved under current 
law, and that no additional Federal legislation is necessary. 
Again, maintenance of the Federal framework, which ensures 
sustainability for both the resource and our industry is 
imperative. Our consumers and the American public depend on it.
    Thank you, and I am ready to answer questions.
    [The prepared statement of Mr. Pearce follows:]

       Statement of Harlon Pearce, Owner, Harlon's LA Fish LLC, 
  Kenner, Louisiana, Representing the Gulf Seafood Marketing Coalition

    Chairman Hastings, Ranking Member Markey and Members of the 
Committee, my name is Harlon Pearce and I am pleased to have this 
opportunity to testify before you today on the very timely issue of red 
snapper management in the Gulf of Mexico. I am the owner of Harlon's LA 
Fish, a seafood wholesaler based in Kenner, Louisiana, I am a member of 
the Gulf of Mexico Fisheries Management Council, and I'm past-Chairman 
of the Louisiana Seafood Promotion and Marketing Board. For purposes of 
today's hearing, I will be speaking as an Executive Committee member of 
the Gulf Seafood Marketing Coalition (Coalition), a broad-based group 
representing all facets of the Gulf of Mexico seafood distribution 
chain with a mission of improving the economic well-being and quality 
of life for all stakeholders with an emphasis on sustainability, 
conservation and transparency. Since my business and my affiliation 
with the Gulf Seafood Marketing Coalition are closely aligned with the 
interests of the harvesting sector, my testimony today will focus 
primarily on the opinions of myself and my colleagues in the harvesting 
sector and the supply chain that depends on us.
    Red snapper is, of course, an iconic American favorite sought after 
by consumers across the country. Seafood sales are one of the biggest 
drivers of the important tourism industries in Louisiana, Florida and 
the other Gulf states and consumer surveys indicate that tourists 
closely identify the delicious and mild flavor of red snapper with the 
American Gulf coast. Unfortunately, with modifications to the fishing 
seasons implemented in recent years, Gulf coast restaurants and 
retailers have encountered difficulty sourcing enough red snapper to 
meet demand. Conversely, with availability lowered, there have been 
significant price increases, with some New Orleans restaurants 
reporting an increase of 100% over past years. I say this to illustrate 
that the current red snapper issue is not only a recreational concern 
but one facing consumers also. As such, I am committed to working with 
Congress, my colleagues on the Gulf Council and others on a solution 
that addresses the recreational red snapper controversy while also 
preserving supply for commercial harvesters and consumers.
    While there have been challenges with overfishing of the stock in 
the past, the species is no longer undergoing overfishing and is now 
being managed under a rebuilding plan which will allow the species to 
rebuild back to target population levels. Starting in 2007, the Gulf 
Council and NOAA Fisheries implemented an Individual Fishing Quota 
(IFQ) program for commercial red snapper to reduce the number of 
vessels and improve the operation of the fishery. The IFQ program now 
provides the harvesting sector with flexibility to fish during times 
that suit their needs and the needs of the market resulting in less 
pressure on the fishery and less pressure on the resource. At this 
time, no similar solution has been developed for the recreational 
sector and federal management of the recreational red snapper industry 
in the Gulf remains highly controversial with fishery managers 
drastically reducing fishing days leading to serious economic 
implications for the Gulf coast economy. While I recognize the 
seriousness of the challenges facing the recreational sector, actions 
taken to remedy their concerns should not upset the IFQ process that 
seems to be working favorably for those dependent on the supply 
provided by the harvesting side.
Concerns with Federal Red Snapper Legislation Designed to Overturn 
        Federal Authority:
    With the goal of maintaining a workable program for the red snapper 
harvesting industry in the Gulf, I believe that taking red snapper 
management away from the federal government and handing it over to the 
states is a tricky course of action and must be undertaken with the 
utmost caution. Several bills have been introduced in both the House 
and the Senate that grant the states and regional fishery management 
organizations (primarily the Gulf States Marine Fishery Commission) 
complete authority to manage red snapper in the Gulf of Mexico. The 
scope of these bills covers the entire spectrum from granting the 
states absolute authority with very little federal oversight to 
granting the Commissions expanded authority with a moderate level of 
oversight from the Department of Commerce and NOAA. In general, any 
action that overturns the federal oversight process established under 
the Magnuson Stevens Act (MSA) would be ill-advised for many reasons 
and I would like to take this opportunity to expand on a few of those 
here.
    <bullet>  Fairness in Allocation: Under MSA, fishery management 
plans (FMPs) must allocate fishing privileges in a fair and equitable 
manner that ensures no particular individual or entity acquires 
excessive share of such privileges. It is this principle that supports 
granting 49% of the Gulf red snapper allocation to the recreational 
sector and 51% to the harvesting sector. If MSA is eliminated for red 
snapper and the states are given full authority to determine 
allocations, there is no assurance that the harvesting sector, and thus 
the consuming public, will be granted a fair share of the resource. As 
a member of the Gulf Seafood Marketing Coalition, one of my objectives 
is to help preserve a healthy seafood supply chain for consumers and 
the market at large. The MSA process has built-in protections that are 
invaluable to achieving this goal.
    <bullet>  Unclear State Authority: The fishery management system 
established under MSA created the Regional Fishery Management Council 
process which has become a very functional tool for ensuring regional 
coordination and cooperation in management decisions. Boundaries at sea 
are very difficult to determine and enforce and, as such, uniformity of 
regulations throughout a region has become imperative. Most of the 
bills introduced to turn red snapper management over to the states 
would result in different management regimes for each of the states. 
These regimes would be subject to the fast-changing politics of each 
state with little or no consistency. Further, states' fisheries 
managers may be independent entities with no oversight from state 
executive or legislative branches (as is the case in Florida). Should a 
decision come down from the state fishery management entity that is 
unjust or unwise, there may be no path for remediation. If we are 
trying to reduce confusion for our fishermen, completely eliminating 
the consistency inherent in the MSA process this is no way to go about 
it.
    <bullet>  Sustainability Threatened: Under the Magnuson Stevens 
Act, stringent conservation and management measures are in place to 
ensure long-term survivability of fish species. I am concerned that if 
management authority is taken out from under the federal umbrella with 
its many checks and balances, the states will be unable to ensure 
protections for the resource. Without the current system of management 
decisions designed to achieve optimum yield based on maximum 
sustainable yield, I fear massive overfishing might become a reality. 
Further, states may not have the infrastructure, either financial or 
personnel, to conduct the research and data collection needed to 
properly manage important fishery resources. Additional federal funding 
would be required to enable the states to carry out new research 
requirements and the bills pending consideration today do not make 
clear how those funds would become available.
Regional Management Amendment 39:
    With all of that said, I do understand the drive in Congress and 
among interest groups to take some action that will lead to more 
certainty for the recreational red snapper community. Fortunately, the 
Gulf of Mexico Fishery Management Council (Gulf Council) is moving 
forward quickly with a regional management program for red snapper that 
will preserve the equity, sustainability and transparency guaranteed 
under the Magnuson Stevens Act while also granting the states a much 
broader role in determining catch limits and allocations. Importantly, 
no act of Congress is necessary to see this concept become a reality 
and I am confident the process will resolve favorably for all parties 
concerned in the very near future.
    At last week's Gulf Council meeting in Pensacola, we voted to send 
Reef Fish Amendment 39--Regional Management of Recreational Red 
Snapper-- to the public hearing phase for review and comment and I am 
pleased to report that there is great momentum behind getting this 
done. In short, Amendment 39 would establish a regional management 
program that delegates authority to the states to set management 
alternatives for recreational red snapper. This action would give 
states more flexibility in choosing season and bag limits but maintains 
important federal oversight and federal conservation goals. Further, 
the Gulf Council would continue to oversee management of the stock 
which I believe is imperative to ensuring long term sustainability of 
both the fishery and the businesses that depend on it.
    More specifically, the plan would establish five regions 
representing all the Gulf states and allocate percentages of the 
recreational quota to each state's region. The amendment would exclude 
the requirement for vessels with federal charter/headboat permits to 
comply with more restrictive red snapper regulations when fishing in 
state waters. Further Amendment 39 would establish post-season 
accountability measures that would reduce the upcoming annual quota for 
any region that goes over their allocation unless the total landings 
from the entire Gulf do not exceed the Gulf-wide recreational quota in 
that year. Additionally, in an effort to improve recreational data 
collection, the Council will be developing a scoping document that 
looks at enhancements, revisions and new options for quantifying 
private, recreational landings. This data collection initiative is 
imperative considering the Southeastern Fishery Science Center's 
inability to get real time data collection figures for the recreational 
sector in a timely manner. Finally, all five Gulf states have sent 
letters to NMFS agreeing to the terms necessary to make this regional 
program happen.
    It is important to note that no changes to the Magnuson Stevens Act 
would be necessary to see this regional management program become a 
reality and the red snapper bills pending consideration before Congress 
now would also be unnecessary with the speed at which the Council is 
moving forward. Further, the Council should be able to do its job 
without any additional funding which would certainly be a challenge 
should the states undertake a brand new program outside the scope of 
the Council process. I am pleased to report that a sound resolution to 
the recreational red snapper challenge is well on its way. This 
regional management approach partnered with the well-established IFQ 
program for the harvesting sector should be sufficient to allay all 
concerns from the fishermen, consumers, federal government and the 
states while also preserving the long term survivability of this 
important fishery.
Council Actions on Stock Assessments and Consideration of a Constant 
        Catch Scenario:
    Additional activities taking place at the Gulf Council with regard 
to stock assessments may further provide fishermen with needed 
certainty which is a top priority. At our meeting last week, the SSC 
stated that the Allowable Biological Catch (ABC) for red snapper for 
2013, 2014, and 2015 would be 13.5 million pounds, 11.9 million pounds, 
and 10.6 million pounds respectively. The projected drop in ABC was 
attributed to two poor year class recruitment. From these figures, the 
Council is required to set an Annual Catch Limit (ACL) for each year. 
At present, the Council would rather have a constant catch scenario of 
11.9 million pounds for all three years as opposed to a steadily 
declining catch limit over time. This constant catch scenario would 
provide the seafood community with consistent numbers over time and the 
ability to better plan for future seasons. The Council will hold a one-
day meeting in New Orleans on July 17th to arrange a framework action 
to set the 2013 extra season and, hopefully, finalize plans for a 
constant catch scenario for the next three years. Additionally, there 
was much discussion among Council members that the red snapper stocks 
may already be rebuilt based on the equilibrium yield of 11 million 
pounds for maximum sustainable yield (MSY). This is additional good 
news for our fishery and our stakeholders.
Suggested Changes to Magnuson Stevens Fishery Conservation and 
        Management Act:
    While no federal legislation is needed to solve the red snapper 
challenges, I would like to take this opportunity to address several 
aspects to the Magnuson Stevens Act that I do believe can be amended to 
better our nation's fishery program on the whole. Three areas that I 
would like to see addressed are funding for fisheries research and data 
collection, the role of the Science and Statistical Committees (SSCs), 
and the concept of expanding our current two sector fishery to a three 
sector fishery.
    <bullet>  New Funding Sources: Of course, funding for fisheries 
research and data collection is a long-standing challenge that has 
plagued the entire nation, not just the Gulf Coast region. One solution 
to this problem may be to mandate in the MSA that up to 3% of all 
allocations be set aside to develop and maintain constant data streams 
that help paint a picture of our nation's fisheries every year. These 
funds, generated annually by the sale of a percentage of the 
allocations for quota fisheries, could be used to support industry-
based surveys, enhanced biological sampling, increased electronic data 
reporting and more. I understand this is already being done for several 
fisheries along the Atlantic coast and I would encourage the Committee 
to examine ways to bring this concept to bear in the rest of the 
country.
        Another area of funding that could be tapped to improve our 
        overall fisheries research and management capability could be 
        from permitting fees. Currently, revenue generated by fisheries 
        permitting goes into the general fund. Simply redirecting 
        permitting fees back to NMFS for the implementation of fishery 
        management projects and research would help fill in some severe 
        gaps that exist in the current system.
    <bullet>  Role of Science and Statistical Committees: The role of 
the SSCs is another area that I think can be improved through 
amendments to MSA. Currently, Regional Fishery Management Councils are 
required to take determinations made by SSCs and incorporate them into 
management decisions, despite the fact that SSC recommendations 
generally only take fish populations into consideration while excluding 
considerations of other economic, human and market factors. Ideally, 
SSCs should be consensus groups and their recommendations should be 
just that: recommendations. Determinations made by SSCs should be taken 
into consideration by the Councils when making management decisions, 
but the role of the SSCs should only be advisory. Additionally, in 
today's fast-moving world, we should be able to react by calling SSC 
and other Council meetings in a more timely manner. The notice period 
for meetings should be more flexible to help address very time-
sensitive matters quickly and efficiently.
    <bullet>  Additional Fishery Sector Consideration: Finally, it has 
become obvious that our industry should be expanded from two sectors to 
three in a system that encompasses the harvesting, recreational and 
charter/for-hire communities. Each of these sectors has their 
individual needs both for the fisheries they harvest and for their 
fishermen. On the commercial side, our focus must go beyond the 
economics of the harvesting sector alone and consider seafood consumers 
throughout the supply chain. If we are to increase consumption of 
domestic seafood and more equally balance our seafood trade deficit, 
the needs of the consumers and our efforts to market U.S. seafood to 
the broader public must remain a top priority.
    With this testimony, I hope I have provided the Committee with some 
more clarity on the ways in which the red snapper challenge can be 
resolved under current law and that no additional federal legislation 
is necessary. Again, maintenance of the federal framework for 
sustainability, regional management, enforcement and equitable division 
of allocations among the sectors are imperative to any plan designed to 
eliminate confusion in the red snapper fishery. Our consumers and the 
American public depend on it. Further, I hope I've given you some food 
for thought with regard to suggested modifications to the Magnuson 
Stevens Act that might benefit our nation's fishery management system 
overall.
    I look forward to working with the Committee on these important 
issues and I welcome any questions you may have.
                                 ______
                                 
    Dr. Fleming [presiding]. Thank you, Mr. Pearce.
    Ms. Anderson, Operations Manager, Captain Anderson's 
Marina, you are recognized for 5 minutes.

 STATEMENT OF PAMELA W. ANDERSON, OPERATIONS MANAGER, CAPTAIN 
                       ANDERSON'S MARINA

    Ms. Anderson. Thank you, Chairman and Committee members. I 
am appearing today on behalf of the Panama City Boatmen's 
Association and Captain Anderson's Marina of Panama City Beach, 
Florida. Thank you for the opportunity to speak with you 
regarding the red snapper fishery issues in the Gulf.
    Today I could spend time telling you of hardships, 
businesses lost, families put on welfare, or the choosing of 
winners and losers in the fishing industry. I could tell you 
how our Federal fishery managers have made fish lords of some 
who still want even more fish, while demanding that others not 
be let into the fishery, even though the annual catch limit has 
increased. These are just a few story lines from last week's 
Gulf Council meeting. Instead, I will get right to the most 
serious issues with the Magnuson-Stevens Act that caused the 
previous-mentioned results.
    Arbitrary deadlines. As long as the red snapper fishery was 
steadily rebuilding, why was it necessary to rebuild more 
quickly and eliminate so many jobs? A slower approach would 
keep more people employed. Please eliminate deadlines that are 
not science-based and so arbitrary as they are written now.
    Catch shares. We have been inundated by NOAA Fisheries 
Management and environmental groups pushing catch shares, 
sector separation, inter-sector trading, days at sea programs, 
and fish tags. All are aimed at reducing participation in the 
fishery, which is NOAA's answer to rebuilding the fishery. 
Those that buy into these programs are desperate to save their 
businesses.
    Accurate data. The recent red snapper benchmark assessment 
was just published in the last month. It has been 8 years since 
the prior benchmark assessment on this economically important 
fish was completed. And Alaska stock assessments are conducted 
annually for economically valuable fish.
    Commercial IFQs. According to the shareholders left in the 
sector, IFQs are working well. These are the winners, not those 
pushed out of the fishery. Now several large shareholders want 
more allocation so they can lease them to the recreational 
sector. They do not want new allocation given to other 
commercial operators who discard thousands of pounds of red 
snapper off of Florida's West Coast. Those operators have 
grouper shares only. And now that red snapper have spread to 
their fishery, they must discard them because they do not own 
red snapper IFQs or catch shares. According to NOAA observers, 
these grouper shareholders are discarding as much as 700,000 
pounds of large red snapper a year.
    Consistent seasons. Customers need to know how to plan 
their days off and vacations well in advance of the season. In 
2013, the season dates changed 4 times in 2 months, and is 
still not listed correctly on the Gulf Council's own Web site. 
Due to the Section 407 of the 1996 Magnuson-Stevens Act, the 
recreational red snapper season must close when the quota is 
projected to be met. This must be eliminated. The SSC should 
provide advice to the Council. Their hardline ABC constraining 
the Council makes sound management decisions more difficult.
    Regional management. State fishery managers realize the 
economic importance of our recreational fishery, and are 
anxious to step up and assist us. The punitive provision in the 
red snapper fishery management plan, Amendment 30(b), that 
prohibits Federal reef fish permit holders from fishing in 
their State waters when Federal waters are closed, must be 
rescinded. What was the intent of Congress in implementing The 
Magnuson-Stevens Act? Was the intent to manage our fisheries by 
putting fishermen out of work? If not, it certainly has been an 
unintended consequence.
    Did Congress want fishery managers to provide frequent, 
accurate stock assessments on economically valuable species? 
This has not been the case in the Gulf. Did Congress intend for 
fishery managers to oversee the growth of the fisheries so it 
could meet the needs of fishing businesses and the fishing 
public? A 28-day red snapper season doesn't meet the needs of 
anyone.
    When Congress mandated the fatally flawed recreational 
survey be corrected and updated by 2009, was it because Members 
of Congress recognized that accurate data is necessary for good 
management? As of 2013, that mandate has not been completed.
    Infrequent stock assessments and flawed catch data lead to 
uncertainty. Uncertainty leads to burdensome buffers reducing 
the ACLs and the seasons. We need improved data, flexibility in 
the regulations in fishery management that understands the 
importance of the economic impact of the fishery on the Gulf 
Coast.
    We believe our State fishery managers will work in a way 
that grows the fishery and access to it, instead of working to 
eliminate our businesses. Despite the good intentions of 
Congress to grow and maintain a healthy fishery, there have 
been significant unintended consequences with the 2007 
Magnuson-Stevens Act. It needs to be updated with common-sense 
solutions that will keep the fishery rebuilding, while getting 
people back to work. This is America; all of us should have the 
opportunity to be winners.
    Thank you.
    [The prepared statement of Ms. Anderson follows:]

Statement of Pamela W. Anderson, Vice President, Panama City Boatman's 
      Association, and Operations Manager, Capt. Anderson's Marina

    Chairman Hastings, Committee members, my name is Pam Anderson and I 
am appearing today on behalf of the Panama City Boatman's Association 
(PCBA) and Capt. Anderson's Marina in Panama City Beach, FL. Thank you 
for the opportunity to speak with you regarding the Red Snapper fishery 
issues in the Gulf of Mexico. I could spend my allotted time here today 
telling you of hardships, businesses lost, families put on welfare or 
the choosing of winners and losers in the fishing industry. I could 
tell you how our federal fishery managers have made fish lords of some 
who still want even more fish, while demanding for others not to be let 
into the fishery, even though the annual catch limit has increased. 
These are just a few story lines from last week's Gulf Council meeting.
    Instead I'll get right to the most serious issues with the Magnuson 
Act that caused the previously mentioned results.
        1.  Arbitrary Deadlines--As long the red snapper fishery was 
        steadily rebuilding, why was it necessary to rebuild more 
        quickly and eliminate so many jobs? We could have had a slower 
        approach and kept more people employed. Please eliminate 
        deadlines that are not science-based and arbitrary as they are 
        now.
        2.  Catch Shares--We have been inundated by NOAA Fisheries 
        management and environmental groups pushing catch shares, 
        sector separation, inter-sector trading, days-at-sea programs 
        and fish tags. All are aimed at reducing participation in the 
        fishery, which is NOAA's answer to rebuilding the fishery.
        3.  Accurate Data--The recent red snapper benchmark assessment 
        was just published in the last month. It has been 8 years since 
        the prior benchmark assessment on this economically important 
        fish was completed. In Alaska, stock assessments are conducted 
        annually for economically valuable fish.
        4.  Commercial IFQ--According to the shareholders left in the 
        sector, IFQs are working well. These are the winners, not those 
        pushed out of the fishery. Now several large shareholders want 
        more allocation so they can lease them to the recreational 
        sector. They do not want new allocation given to other 
        commercial operators who discard thousands of pounds of red 
        snapper off Florida's west coast. These operators have gag 
        grouper shares only and now that red snapper have spread to 
        their fishery they must discard them because they do not own 
        red snapper IFQs or catch shares. According to NOAA observers, 
        these grouper shareholders are discarding as much as 700,000 
        pounds of large red snapper.
        5.  Consistent Seasons--Customers need to know how to plan 
        their days off and vacations well in advance of the season. In 
        2013 the season dates changed four times in two months and is 
        still not listed correctly on the Gulf Council's own website. 
        It's best for the tourism economy of our community to have the 
        red snapper season open when the tourists are visiting. Due to 
        Section 407 of the 1996 Magnuson, the recreational red snapper 
        season must close when the quota is projected to be met. The 
        SSC should provide advice to the Council and the Council should 
        be able to determine higher or lower ABCs based on any new 
        information provided and therefore, not be bound by the SSC 
        recommendation as it is today.
        6.  Regional Management--State fishery managers realize the 
        economic importance of our recreational fishery and are anxious 
        to step up and assist us.
    What was the intent of Congress in implementing the Magnuson-
Stevens Act? Was the intent to manage our fisheries by putting 
fishermen out of work? If not, it certainly has been an unintended 
consequence. Did Congress want fishery managers to provide frequent, 
accurate stock assessments on economically-valuable species? This has 
not been the case in the Gulf. Did Congress intend for fishery managers 
to oversee the growth of the fishery so it could meet the needs of 
fishing businesses and the fishing public? A 28 day red snapper season 
doesn't meet the needs of anyone. When Congress mandated the ``fatally 
flawed'' MRFSS recreational survey be corrected and updated by 2009, 
was it because members of Congress recognized that accurate data is 
necessary for good management? As of 2013, that mandate has not been 
completed. In fact NOAA Fisheries' own Dr. Richard Merrick testified 
here last month and said ``phone surveys don't work anymore.'' In spite 
of his testimony and outcry from fishermen, phone surveys are still 
being utilized by NOAA.
    Infrequent stock assessments, and flawed recreational catch data 
leads to what's called uncertainty. Uncertainty in the data leads to 
burdensome buffers that reduce the allowable catch. Reducing the 
allowable catch reduces fishing seasons. We need more accurate data and 
more flexibility in the regulations. We need fishery managers to 
understand the importance of the economic impact of the fishery on our 
communities and states. We need fishery managers working in a way that 
grows the fishery and access to it instead of working to eliminate our 
businesses.
    Despite the good intentions of Congress to grow and maintain a 
healthy fishery, there have been significant unintended consequences 
with the 2007 Magnuson Act. Though fishery managers have been slow and 
even derelict in updating stock assessments and catch surveys, make no 
mistake, all of the new Annual Catch Limits and Accountability Measures 
of the 2007 Magnuson were put in place as quickly as they could 
implement them. ACLs and AMs have crushed the industry, causing 
confrontations between the commercial industry, the for-hire industry 
and the private anglers. Everyone is trying to survive in their 
businesses and private anglers are trying to justify the expense of 
owning their own boats.
    Our Gulf States are keenly aware of the economic importance that 
fishing brings to coastal communities. Three of the five Gulf States 
have recently given up on the expectation that federal fishery 
management will work for their citizens. Texas, Louisiana and Florida 
have opted for a red snapper season in state waters that is 
inconsistent with the federal season. In an effort to keep states in 
line, the Gulf Council proposed and passed amendment 30B which 
prohibits federally permitted for-hire boats from fishing for red 
snapper in state waters when federal waters are closed to red snapper. 
Since 2009 for-hire fishermen have been used as pawns in this battle 
between the states and federal fishery managers. This unfair punishment 
and violation of National Standards 4 and 9 should be removed from 
Amendment 30B, regulation 50 cfr 622.20(b)(3).
    Will NOAA Fisheries management plan for Catch Shares, Sector 
Separation, Inter-sector trading, Days-at-Sea and Fish tags work to 
rebuild the red snapper fishery? Sure it will, if your intent is to put 
enough people out of work and off the water. But why not look at ways 
to rebuild the fishery with artificial reefs and new science that 
enhances the growth of the fishery to meet the needs of the Nation and 
the coastal communities? Wouldn't we be better off creating more 
habitat, more jobs, selling more fish to the American public? The 
demand is there. 80% of the Nation's seafood is imported.
    The recent Red Snapper Benchmark Assessment is the first assessment 
to implement the new methods of data collection from the MRIP program 
that is replacing MRFSS and it includes updated modeling. This new 
assessment shows what the fishermen have been saying all along. The Red 
Snapper fishery is rebuilding much quicker than expected, but as we see 
in other studies it is to the detriment of other species on the reefs, 
eating the juveniles of other species such as gag grouper and 
triggerfish. We really didn't have to have such harsh restrictions on 
this fishery in order to meet the deadlines set in the Magnuson after 
all.
    Every year we have seen the fishery improve, the quotas, measured 
in pounds have increased. But, because the fish are increasing 
dramatically in weight and size as happens in a rebuilding fishery, we 
meet our quotas much quicker. This type of management is what causes 
the seasons to be so short. For instance, in 2006 the quota was almost 
the same in pounds as in 2012 with a 6 month season compared to a 45 
day season. In 2006, the average weight of the fish was 3.2 pounds, so 
the available harvest was approximately 1.4 million pounds. In 2012, 
with the average weight over 7.5 pounds the available harvest was only 
about 580,000 fish. Now that extra million fish are still out there, at 
varying sizes, but due to the quota being figured in pounds we do not 
have access to them. Short seasons are hurting tourism across the 
coast.
    While the communities in NW FL have not invested in an economic 
study to tell them specifics about the fishing industry, there is 
overwhelming consensus that everyone prospers during Red Snapper 
season. I have enclosed a chart that shows the impact of the shorter 
seasons on headboats at our marina and on our fuel sales. I know of 
similar reports from other marinas across the coast. Ticket sales and 
fuel sales increase dramatically with the availability of Red Snapper. 
The longer trips and private charter trips are especially impacted 
because they are more expensive and the case is made, why pay more if 
you can catch your 2 Red Snapper in \1/2\ the time at \1/2\ the price? 
That is why you see the longer trips decreasing and the shorter trips 
increasing, bringing less revenue to the marina from ticket sales and 
fuel.
    This years' yo-yo of changes in the length of the fishing season 
hurt sales. Folks made reservations thinking they had 28 days in 
Florida. Then it changed to 21, changing hotel reservations and days 
off work, too. Then it was 26, and they changed again. Now it is 28 
days, but some are still looking on the Gulf council website which says 
21 days. Reservations are down this week compared to the last three 
weeks of full boats. As far as the local economy, our Tourist 
Development Council is reporting increases overall in bed taxes. But 
when you get specific about where the dollars are being spent and the 
hotels that are being used, there is a decrease in those which are 
close to the fishing and boating activities. Restaurants, from Waffle 
Shops to fine dining establishments in our area of the beaches have had 
several years of reduced business. To put it in the words of the owner 
of the Capt. Anderson Restaurant, if the parking lot is full of 
fishermen in the morning, we are going to have a good night at the 
restaurant. If people are not fishing? Not so much.
    Now that the recent Emergency Rule has given the Regional 
Administrator power to close the season if he believes we have 
overfished the quota, not going by facts, but by estimates, it could be 
even worse. If folks were to come to the coast, having made fishing and 
hotel reservations when they thought we could harvest Red Snapper, and 
it closed before we could notify them, we would take the blame.
    After six years of costing our communities jobs and businesses, 
fishery managers are just now admitting Red Snapper must be more 
abundant and more prolific than first thought, in spite of our 
overfishing. (Keep in mind that overfishing in their terms is 
harvesting more than the Annual Catch Limit that has been set at least 
25% below the true overfishing level set by the Science & Statistical 
Committee. We have never reached that true overfishing level.)
    The MRIP data still does not show how many private anglers there 
are who fish for reef fish. Some reports show researchers are using a 
number 5 times the true amount. Our States, Florida in particular, are 
working on a plan to collect this data inexpensively, but accurately. 
This should improve the harvest data even more in the near future and 
these plans should not place an expensive hardship on the anglers. That 
is the goal of the industry in working with State fishery managers.
    We know from experience that it is best for our customers and our 
businesses to have consistency in our seasons. It is best for the 
tourism economy of our community to have the Red Snapper season open 
when the tourists are visiting. That being said, knowing from the SSC 
we have a fishery growing more quickly than expected, we need the 
fishery managers to not hold back on allocating as much quota as 
possible. One fear the Council has is needing to reduce the following 
season if there is an overrun of harvest. Due to section 407 of the 
1996 Magnuson, the recreational Red Snapper season must close when the 
quota is projected to be met. The SSC should provide advice to the 
Council and the Council should be able to determine higher or lower 
ABCs based on any new information provided and therefore, not be bound 
by the SSC recommendation as it is today. The science gives guidance 
for National Standard 1, but the other impacts of the rest of the 
National Standards should have just as much weight in the decision-
making process.
    The Council can set a consistent season over several years now if 
the SSC sets the ABCs accordingly, but if the harvest overruns the ABC 
set in any one year, they must compensate for the overrun the next 
year, causing another inconsistent season. Between 2000 and 2006, the 
Council was able to use average catches over time, some years going 
over the ACL, others not meeting it. This gave them the ability to 
grant consistent seasons-much better for business. And, the fishery was 
steadily rebuilding.
    In addition, Federal fishery managers have heard testimony after 
testimony in the Council meetings of the supreme habitat provided by 
petroleum platforms with divers and anglers speaking against their 
demise through the Idle Iron project. These platforms are home to 
millions of pounds of Red Snapper as well as thousands of other 
species, some of which are endangered. Letters have been written to 
appropriate agencies from the Gulf Council, designating them as 
Essential Fish Habitat. But now, they are discussing having them closed 
to fishing and diving. Anglers and divers are the same folks who have 
brought this to their attention and that of the public. These are EFH, 
but not critical habitat which would close them to fishing. Historical 
research has shown offshore of Texas would be a desert as far as fish 
are concerned were it not for the petroleum platforms. The fishery 
needs these platforms, now artificial reefs, to help in the rebuilding 
process and we need them to continue providing fishing and diving 
opportunities across the Gulf.
    Again, I say, thank you for the opportunity to share this 
information with the Committee.
                                 ______
                                 
    Dr. Fleming. Thank you, Ms. Anderson.
    Mr. Wayne Werner, Co-Founder, Gulf Coast Professional 
Fishermen.

            STATEMENT OF WAYNE WERNER, CO-FOUNDER, 
               GULF COAST PROFESSIONAL FISHERMEN

    Mr. Werner. Mr. Chairman, members of the Committee, thank 
you for the opportunity to testify. My name is Wayne Werner, 
owner-operator of Fish and Vessel Sea Quest. I have been a red 
snapper fisherman since 1982.
    The commercial red snapper fishery is a huge success story 
today. When I first started fishing, our management was broken. 
We were in a derby system that told us what days we were 
allowed to fish. Then there was over-fishing, market gluts, and 
a complete disregard for safety. In 2001, my boat, Wayne's 
Pain, sank. I spent 10 hours in a life raft. I am lucky to be 
alive.
    Fishermen worked for years to fix the system. And I am 
proud that we have built an accountable, sustainable, and 
profitable fishery. Under individual fishing quotas, over-
fishing has ended. And the stock has improved. Commercial 
fishermen have not exceeded their quota, not even once. We have 
reduced bycatch by 70 percent. Fishing jobs are better. 
Businesses we work with are thriving. We generate income and 
create jobs throughout the supply chain, all the while 
providing a quality product to millions of American seafood 
lovers.
    So, why the negative headlines? While the commercial 
fishery is a success story under Magnuson-Stevens, the 
recreational fishery is chronically mismanaged. The seasons are 
short. It routinely exceeds its quotas, it has too many 
discards. It is dangerous. Multi-deaths have already occurred 
this year. Fixing the problem is going to take big changes.
    Unfortunately, the Gulf Council is avoiding the tough 
decisions. Instead, some are looking for scapegoats and easy 
answers. One rally cry is reallocation of the commercial 
fishery to the recreational sector. That would be catastrophic 
for fishermen like me, for thousands of commercial-related 
businesses, and millions of American seafood lovers.
    It wouldn't fix recreational management, even with 100 
percent of the red snapper quota. The recreational season would 
be extended by just a few short weeks.
    Mr. Chairman, let me be perfectly clear that people who 
want to reallocate the red snapper fishery are the ones that 
are pushing regional management. We fear it is nothing less 
than a back-door coups d'etat. State management has ended 
commercial fishing for species like trout and redfish. Millions 
of American consumers have lost the chance to enjoy those 
species of wild-caught Gulf seafood. That must not be allowed 
to happen to the red snapper fishery.
    Regional management offers nothing new. Some private 
anglers and charter boat captains are coming to the Gulf 
Council with fresh ideas, such as sector separation, fish tags, 
days at sea. But regional management is nothing but the same 
old ideas. All it could do is divide the existing problems 
between five different governments, hardly a tried and true 
recipe for success.
    In closing, I, for one, want a successful recreational 
fishery in the Gulf of Mexico. But misguided regional 
management plans don't help. They could undermine the 
sustainable and accountable commercial fishery. Regional 
management will not work for us. We don't want any part of it. 
Just let the Gulf fishermen do their job providing delicious, 
sustainable seafood to every corner of this great Nation. Thank 
you.
    [The prepared statement of Mr. Werner follows:]

                Statement of Wayne Werner, Co-Founder, 
                   Gulf Coast Professional Fishermen

Introduction
    Chairman Hastings, Ranking Member Markey, and Members of the 
Committee, thank you for the opportunity to testify today on management 
of red snapper in the Gulf of Mexico under the Magnuson-Stevens Fishery 
Conservation and Management Act. My name is Wayne Werner and I am 
owner-operator of the fishing vessel Sea Quest. I have been a red 
snapper and reef fish commercial fisherman since 1982, and I've 
participated actively in the Gulf of Mexico Fishery Management Council 
process since 1988.
Commercial management success
    There are a lot of negative headlines coming from the Gulf, but I 
want to explain there is good news that people are not hearing. Most 
commercial red snapper fishermen think we have a successful system. 
It's not perfect, but it is by far the best we've ever had. We designed 
a lot of it, and we approved it through a referendum that passed with 
over 80 percent of the votes.
    When I first started fishing, our management system was badly 
broken. The truth is, there were too many of us chasing a rapidly 
dwindling resource. We were forced to participate in what was called a 
derby system. We would be told which days we could fish, and how many 
fish we could catch. Being forced to fish on specific days when the 
derby was open had a devastating personal impact on me. I missed 30 of 
my kids' birthdays; I buried my mother on the opening day of a derby; 
and one year I was out fishing when my father lay on his deathbed. I 
had no choice but to fish on derby days to feed my family.
    Short seasons during which all the fish were brought to the dock in 
a glut kept prices low and had buyers turning to imports to satisfy 
demand. Red snapper was overfished; and for many, fishing was no more 
than a low-paying part-time job. It was a very dangerous job at that. 
If seas were high during the derby season boats would work anyway. One 
year, my vessel sank. My crew and I spent 10 hours in a life raft 
before we were rescued. I am lucky to be alive.
    Many of us fishermen worked for years to fix that broken system. 
And Mr. Chairman, I'm proud of what we've built: an accountable, 
sustainable and profitable fishery. Since the inception of our 
individual fishing quota system, overfishing has ended and the stock 
has improved. In the seven years since the system was put in place, the 
commercial sector hasn't gone over its quota once. We discard a lot 
less fish--in fact, we've reduced wasteful bycatch by seventy percent. 
Fishing jobs are better. Businesses we work with are thriving. We 
supply red snapper year-round to help serve the growing U.S. markets 
for sustainable fish.
    Mr. Chairman, I'm part of a fishery that is a jobs engine. 
Commercial fishermen in the Gulf of Mexico landed 1.4 billion pounds of 
finfish and shellfish in 2009, earning $629 million in landings 
revenue. But that is only the start of the benefit my industry brings 
to our region and our nation. For example, in my home state of Florida, 
the seafood industry generated 65,000 jobs and $2.4 billion in income. 
I'm proud of that fact. I'm also proud to be the access point for up to 
300 million Americans who don't fish in our oceans but want to enjoy 
delicious, healthy seafood. Americans from Spokane, WA to Springfield, 
MA can cook fresh, sustainable, wild-caught Gulf red snapper--or enjoy 
it at their local restaurant--because of commercial fishermen like me.
    The commercial red snapper management system we designed in the 
Gulf is working, and we want to build on that success--not tear it 
down.
The false promise of regional management
    So why all those negative headlines? The unfortunate truth is that 
while the commercial fishery has been a Magnuson-Stevens success story, 
the recreational fishery is a study in ongoing mismanagement. It is 
stuck in a derby fishery like the one we used to have. The recreational 
fishery routinely exceeds its quota, discards a lot of dead fish, and 
has really short seasons. It's also unsafe: six people have died in the 
recreational derby this year alone--four in Texas and two in Florida. 
Fixing the problem is going to take big changes, just like we in the 
commercial fishery had to face.
    The recreational sector has the opportunity to rethink their 
fishery from a position of strength: with a rebounding stock that 
science-based management under the Magnuson-Stevens Act has made 
possible. Some private anglers and charter boat captains have risen to 
that challenge and are coming to the table with innovative management 
proposals--ideas such as sector separation, fish tags, and days at sea. 
These and similar ideas should be given urgent consideration by the 
Gulf of Mexico Fishery Management Council.
    Unfortunately, too many are avoiding the tough decisions, and are 
looking for scapegoats and easy answers. One predictable rallying cry 
is to take some fish from the commercial sector through reallocation. 
That could obviously be a catastrophe for fishermen like me, for 
thousands of commercial-related businesses, and for millions of seafood 
consumers. It could also hurt the stock, by giving more fish to 
management that doesn't have accountability measures. Moreover, it 
wouldn't even start to tackle the recreational management challenge: 
even if 100% of the red snapper quota was given to the recreational 
sector, it would extend their season by just a few short weeks.
    Others want to ignore the best available science and raise quotas 
more quickly than the stock can take. This must be firmly rejected. 
Allowing overfishing would risk returning us to the dark days when many 
anglers simply couldn't catch red snapper because of its depleted 
status.
    This brings me to the growing calls for ``regional management''.
    Mr. Chairman, let me be very clear: the push for ``regional 
management'' is nothing less than a back-door attempted coup d'etat. It 
represents an orchestrated effort to undermine science-based management 
under the Magnuson-Stevens Act and to decimate the commercial sector. 
Regional management does not fit the commercial fishery. It is opposed 
by all commercial fishermen I know. And it must be rejected by this 
committee.
    Some participants in the recreational fishery and irresponsible 
managers are refusing to face the truth. They don't want to role up 
their sleeves and reform a system that has failed. They don't what to 
front up to a systematic failure to comply with the law, observe annual 
catch limits, and be accountable for overages. They don't want to 
grapple with what it means to have a growing number of private anglers 
exploiting a precious and finite public resource.
    The regional management plan the Gulf Council is working on now 
doesn't propose to fix the problem; it just divides it up state by 
state. There is no innovation in the ``regional management'' plan that 
holds out hope for more effective management--nothing but the same old 
ideas. It is not clear whether the states will agree that each should 
pay overages back if they catch too much. Except for Louisiana, it 
still isn't clear how the states will provide more fishing days or 
other benefits. They aren't adding new ways to count the fish better or 
faster. So, tell me: how is this ``regional management'' going to fix 
anything?
    Many of us believe that it's actually likely to be a lot worse than 
the status quo. Dividing authority between five different governments 
is hardly a tried-and-true recipe for efficiency and success on 
anything. We are already seeing infighting over allotments between the 
states. How much worse will that get if this plan is implemented? How 
will the states agree on enforcement responsibilities? On overages?
    But far more troublesome for commercial fishermen is the fact that 
state agencies in the Gulf have a track record on commercial fin fish 
fisheries that can't be ignored. In the past, I've watched as my 
friends in the red fish and trout fish fisheries have been put out of 
business and American consumers have lost the chance to enjoy those 
species of wild-caught Gulf seafood. And that's what we fear is really 
at the heart of this plan. Certain special interests in Gulf state 
capitals will stop at nothing to ensure that my friends and me are put 
out of our jobs, and American consumers lose access to the sustainable 
Gulf red snapper that they love.
Reform
    As Congress considers the next reauthorization of the Magnuson-
Stevens Act, I look forward to working with this committee to provide 
commercial fishing perspectives on amendments.
    One of the ironies of this ``regional management'' proposal is that 
devolution of authority to the regions is at the core of the Magnuson-
Stevens Act's council system. Employees of the Gulf States hold five of 
the seventeen seats on our council, and governors nominate almost all 
the remaining council members. Although I support the council system as 
created in the Act, there are problems with the way our council is 
currently operating. Congress should examine those problems as they 
consider council reform through reauthorization.
    I respectfully urge Members to reject reauthorization proposals 
that would undermine the successes we have secured. In addition to 
turning back ``regional management'' plans that could decimate the 
commercial fishery, this committee must reject efforts to weaken or 
dilute Annual Catch Limits and Accountability Measures that ensure 
sustainable fishing.
    Fishermen should also continue to have the ability to vote directly 
on big management changes in their fishery. Section 407 of the Act 
should, however, be updated, and we look forward to providing specific 
language to committee members as the reauthorization process moves 
forward.
    Mr. Chairman, thank you again for the chance to offer my views 
today and I look forward to answering your questions.
                                 ______
                                 
    Dr. Fleming. Thank you, Mr. Werner.
    Last, Ms. Susan Boggs, Co-Owner, Reel Surprise Charter 
Fishing.

              STATEMENT OF SUSAN BOGGS, CO-OWNER, 
                 REEL SURPRISE CHARTER FISHING

    Ms. Boggs. Thank you, Mr. Chairman and members of the 
Committee. My name is Susan Boggs, and I appreciate the 
opportunity to testify before you today on the important issue 
of the fisheries management in the Gulf of Mexico. As you may 
know, the for-hire industry, including charter-for-hire and 
head boats, provides access to millions of recreational anglers 
in the Gulf of Mexico every year. My husband and I own three 
charter boats that operate out of SanRoc Cay Marina in Orange 
Beach, Alabama. We own the charter office at SanRoc Cay Marina 
that books for 15 in-shore and off-shore charter boats, in 
addition to the 3 charter boats we own. We also own the dock 
store at SanRoc Cay Marina that sells fuel, bait, and ice to 
private recreational boats and for-hire boats.
    There are several species of fish that are critical to the 
recreational fishing industry in the Gulf of Mexico, but 
perhaps none more than red snapper. Unfortunately, our industry 
has suffered under increasingly restrictive management 
measures. Fishing seasons have gotten shorter, and bag limits 
have gotten smaller. To be clear, on a charter for hire and 
head boat, neither the captain or crew can keep any of the 
catch. The fish caught on these trips are the exclusive 
property of the recreational angler. We only provide access to 
their fishery. The lack of accountability measure means that 
the recreational sector as a whole, unintentionally but 
continually, goes over its quota. Most recreational fishermen 
and for-hire captains want to follow the rules.
    These factors make it very difficult for the for-hire 
operators like us to stay in business. Fortunately, there are 
solutions that can simultaneously provide increased access to 
fishery resources, while also providing for the long-term 
conservation of those resources.
    First, we need to ensure timely and balanced stock 
assessments. Second, NOAA and NMFS needs to use their most 
under-utilized asset, fishermen and stakeholders that utilize 
the resource on a regular basis. While not every angler is an 
expert on the Gulf fishery, you have many that have been 
fishing it for decades and have a lifetime of knowledge. They 
have seen how fishing has changed in many ways.
    Third, we need to identify where poor data is limiting 
access to the fishery, and increase limits where data supports 
it. It makes no sense to anyone to strictly limit access to a 
fishery, when we know we have poor data.
    Recently, some in Congress, along with decision-makers from 
around the Gulf, have proposed moving some fisheries into a 
regional management program, where States, overseen by groups 
such as the Gulf States Marine Fisheries Commission, would 
manage their own fisheries. I see many problems with the 
proposals that have been made to this point.
    My first concern is the ability and resources and manpower 
for these groups to take on this task. Then there are boundary 
issues that will be a real problem. When the Gulf is split up, 
will it be based on miles of shoreline, historical landings, 
developed underwater structure, geographical location of 
biomass, or a combination of these?
    Finally, there is the issue with seasons. If they don't 
line up, then you could increase effort at State boundaries as 
a consequence with the residents of another State buying 
fishing licenses in an adjoining State when their State is out 
of season.
    The overall problems that we face today are not exclusively 
with the Magnuson-Stevens Act. It is with limiting our ability 
and options to manage our fishery in an effective way, which we 
could do while staying compliant with the Magnuson-Stevens Act.
    With all of the challenges we have faced in the fishery, my 
husband and a few other head boat owner-operators took matters 
into their own hands to direct their own destiny. Working 
through the Council process, the several head boats developed a 
pilot program as a test to see if a different style of 
management would work for their unique business and others like 
theirs.
    A plan was created that asked for 20 head boats to 
participate in an EFP, exempted fishing permit, where using 
landings data from our shortest season, which was at that time, 
2011, at 44 days. The fish we caught then could be used as the 
amount that we would be allowed to catch under this pilot 
program, the difference being instead of being restricted to a 
set number of days, we could fish then whenever we wanted. This 
allows us to fish when the weather is good and comfortable for 
our customers, which is safer for everyone. The Gulf Council 
voted to support this test program, and we are currently 
waiting for approval from NMFS.
    Last, I would mention something that should be common sense 
to everyone, the effect on the species itself. I am not a 
scientist, but I would bet that the shock of pulling everything 
out of the biomass at once, versus spreading it out over a much 
greater period of time, would be easier on the species.
    I would like to thank you again for the privilege of 
testifying before your Committee, and I look forward to 
answering your questions.
    [The prepared statement of Ms. Boggs follows:]

  Statement of Susan Boggs, Co-Owner, Reel Surprise Charter Fishing, 
    Orange Beach, Alabama; Board of Directors, Charter Fishermen's 
                              Association

    My name is Susan Boggs, and I appreciate the opportunity to testify 
before you today on the important issue of fisheries management in the 
Gulf of Mexico.
    As you may know, the for-hire industry, including charter-for-hire 
and head boats, provides access to millions of recreational anglers in 
the Gulf of Mexico every year. My husband and I own three charter boats 
that operate out of SanRoc Cay Marina in Orange Beach, AL. We own the 
charter office at SanRoc Cay Marina that book for 15 inshore and 
offshore charter boats in addition to the three charter boats we own. 
We also own the dock store at SanRoc Cay Marina that sells fuel, bait, 
and ice to private recreational boats and for-hire boats.
    Two of the vessels we own are engaged in head boat fishing 
(carrying a minimum of 15 passengers and no more than 35) and the third 
is a charter-for-hire (carrying a minimum of 10 passengers and no more 
than 22). We offer walk-on trips or shared expense trips that charge a 
per person fee. Since it is a large volume of people, we provide access 
to the fishery for a very modest fee to those who cannot afford their 
own boats. Our customers come from all over the country and are a large 
part of the economic machine that drives our coastal communities.
    There are several species of fish that are critical to the 
recreational fishing industry in the Gulf of Mexico, but perhaps none 
more than red snapper. Unfortunately, our industry has suffered under 
increasingly restrictive management measures. Fishing seasons have 
gotten shorter and bag limits have gotten smaller. To be clear, on a 
chart-for-hire and head boat, neither the captain nor crew can keep any 
of the catch. The fish caught on these trips are the exclusive property 
of the recreational angler; we only provide access to their fishery. 
The lack of accountability measures means that the recreational sector 
as a whole unintentionally, but continually goes over its quota. Most 
recreational fishermen and for-hire captains want to follow the rules.
    These factors make it very difficult for the for-hire operators 
like us to stay in business. The service we provide to our customers is 
access to ocean fisheries, but in recent years government regulations 
have prevented us from providing this access. Either the seasons are 
closed, in which case going fishing is not even an option, or the bag 
limits are so restrictive that customers cannot justify the expense of 
going fishing. These increasingly stringent measures are blocking 
public access to fishery resources and in the process hurting our 
businesses and local economies.
    Fortunately, there are solutions that can simultaneously provide 
increased access to fishery resources while also providing for the 
long-term conservation of those resources.
    To understand the controversy over fisheries you must first 
understand how we arrived here today. With the increased popularity of 
fish like the red snapper in the Gulf of Mexico by the recreational and 
commercial sectors we had come to the point in the late 1980's through 
the 1990's that it was difficult to even catch a red snapper. The 
species had been over fished. Through the Magnuson-Stevens Act (MSA) 
and its reauthorization and with NMFS, NOAA and the Gulf of Mexico 
Fisheries Management Council; bag limits and seasons have been reduced 
to a point were over fishing has ended and many would contend the red 
snapper population has rebounded. During this time in 2003 the 
federally permitted for-hire fleet decided to put itself under a 
moratorium where no new permits would be issued in the Gulf of Mexico. 
With dwindling fish populations, this is one way that this group saw it 
could contribute to help end overfishing.
    Now, what you have to understand is the red snapper fishery was 
split into two sectors, the commercial sector which was allocated 51% 
of the TAC (Total Allowable Catch) and 49% to the recreational sector. 
The recreational sector is comprised of purely recreational anglers who 
own their own boat and access the fishery themselves and the for-hire 
fleet which provides access to millions of recreational anglers from 
across the U.S. each year. These two groups in the recreational sector 
operate in an open/closed fishery, meaning that if you want to access 
the fishery as a purely recreational angler you can buy a state license 
and go fishing. On the other side is the for-hire fleet who has limited 
their numbers to help in conservation efforts. For this sacrifice the 
for-hire fleet has been losing about 10% of the overall permits year 
after year since 2003, and once these federal permits expire they 
cannot be reissued. In addition seasons have become more and more 
restrictive from 6 months, to 3 months, to 44 days, to this year's 28 
days. The commercial sector at one time held back 10% of their catch 
each year to ensure that they are not over fishing, we limited our 
permits, and the missing link has been an increase in effort on the 
fishery from our purely recreational counterparts.
    NMFS and NOAA use data collected about the biomass and the effort 
on the species to set bag limits and season lengths. The argument that 
most stakeholders in the fishery have is the validity and overall 
quality of the data that is currently being used. There are some easy 
steps that can be taken to start addressing this real problem with 
little additional cost and would yield quick results.
    First, we need to ensure timely and valid stock assessments. We can 
all agree that to manage a stock efficiently you have to have up to 
date data that is accurate. Second, NOAA and NMFS needs to use their 
most underutilized asset, fishermen and stakeholders that utilize the 
resource on a regular basis. While not every angler is an expert on the 
Gulf fishery you have many that have been fishing it for decades and 
have a lifetime of knowledge, they have seen how fishing has changed in 
many ways. It is unacceptable that they are not being used as a part of 
this equation. Third, we need to identify where poor data is limiting 
access to the fishery and increase limits where data supports it. It 
makes no sense to anyone to strictly limit access to a fishery when we 
know we have poor data.
    Recently, some in Congress along with decision makers from around 
the Gulf have proposed moving some fisheries into a regional management 
program where states, overseen by groups such as the Gulf States Marine 
Fisheries Commission would manage their own fisheries. I see many 
problems with the proposals that have been made to this point. My first 
concern is the ability in resources and man power for these groups to 
take on this task. There are boundary issues that will be a real 
problem. When the Gulf is split up will it be based on miles of 
shoreline, historical landings, developed underwater structure, 
geographical location of biomass, or a combination of these? This could 
be a big issue for a state like Alabama where we land a large 
percentage of the recreational red snapper, have invested heavily in 
artificial reefs but have one of the shortest coastlines. Then there is 
the issue with seasons. If they do not line up then there is potential 
for an increased effort at state boundaries as a consequence with 
residents of another state buying fishing licenses in an adjoining 
state when their state is out of season. This could easily double the 
effort in the water of the coast of Alabama which could have a negative 
effect on our fishery.
    The overall problems that we face today are not exclusively with 
the MSA, it is with limiting our ability and options to manage our 
fishery in an effective way which we could do while staying compliant 
with MSA.
    With all of the challenges we have faced in the fishery, my husband 
and a few other head boat owner/operators took matters into their own 
hands to direct their own destiny. Several head boats developed a pilot 
program as a test to see if a different style of management would work 
for their unique business and others like theirs. A plan was created 
that asks for twenty (20) head boats to participate in an EFP (Exempted 
Fishing Permit). We are using landings data from our shortest season 
which was in 2011 at 44 days. The fish we caught then could be used as 
the amount that we would be allowed to catch under this pilot program. 
The difference being instead of being restricted to a set number of 
days, we could fish them whenever we wanted. This allows us to fish 
when the weather is good and comfortable for our customer's which is 
safer for everyone. The Gulf Council voted to support this test 
program, and we are currently waiting for approval from NFMS.
    Another way this requested EFP will help our business is simply 
that it spreads the fishing season out. We currently fish as hard as we 
can for the set number of days we have and then it is over. This is 
hard on our cash flow and on our employees that depend on us for their 
paycheck.
    Let's face it, our current system of management is a derby fishery 
and by design is inherently dangerous. Last year we were contacted by 
our insurance agent who asked who he needed to speak with to garner the 
for-hire industry some relief, because his claims for slip and fall 
accidents had escalated noticeably. Boats have capsized in trying to 
fish in rough conditions just to get a two snapper bag limit. This is 
completely unacceptable, especially given the fact that we believe that 
with the flexibility to manage the time in which the fishery is 
accessed this could be avoided almost completely.
    Lastly, I would mention something that should be common sense to 
everyone, the effect on the species itself. I am not a scientist, but I 
would bet that the shock of pulling everything out of the bio mass at 
once versus spreading it out over a much greater period of time would 
be easier on the species.
    I would like to thank you again for the privilege of testifying 
before your committee and I look forward to answering your questions.
                                 ______
                                 
    Dr. Fleming. Thank you, Ms. Boggs. I think we are ready now 
for questions from our panel. And I will now yield to myself 5 
minutes.
    We are bottom-line people up here, so let's get to the 
bottom line. I am going to go down the panel, as Chairman 
Hastings did, and ask you a yes-or-no question.
    First question is, yes or no, do you support a change in 
the Magnuson-Stevens Act to allow councils more flexibility in 
rebuilding over-fished fisheries? We will start with Mr. 
Malone.
    Mr. Malone. Yes, sir.
    Mr. Pearce. Most definitely.
    Ms. Anderson. Yes.
    Mr. Werner. No, sir.
    Ms. Boggs. Yes.
    Dr. Fleming. OK. Thank you. All right. Yes or no, do you 
support changes to the Magnuson-Stevens Act that would provide 
councils with more discretion in implementing the 
recommendations of the Scientific and Statistical Committees, 
The SSCs?
    Mr. Malone. Yes, sir.
    Mr. Pearce. It has to happen.
    Ms. Anderson. Yes.
    Mr. Werner. Yes.
    Ms. Boggs. Yes.
    Dr. Fleming. OK. Yes or no, do you believe the Magnuson-
Stevens Act should be modified to allow the councils to have 
more flexibility in setting annual catch limits?
    Mr. Malone. Yes, sir.
    Mr. Pearce. Yes.
    Ms. Anderson. Yes.
    Mr. Werner. Very little.
    Ms. Boggs. Yes.
    Dr. Fleming. I am sorry. Very little?
    Mr. Werner. Very little, yes. Very little bit. Just a 
little bit, yes.
    Dr. Fleming. Yes, but----
    Mr. Werner. Not a lot of flexibility.
    Dr. Fleming. A little flexibility, OK.
    Mr. Werner. Little.
    Dr. Fleming. I understand you. OK, thank you. Yes or no, do 
you believe the Magnuson-Stevens Act should be modified to 
limit the annual catch limit provisions to those stocks that 
are target species?
    Mr. Malone. Yes, sir.
    Mr. Pearce. I will answer with a yes, but 67 percent of our 
fisheries are data poor, so we don't need ACLs on those. So, 
yes.
    Ms. Anderson. Would you repeat the question, please?
    Dr. Fleming. Do you believe the Magnuson-Stevens Act should 
be modified to limit the annual catch limit provisions to those 
stocks that are target species?
    Ms. Anderson. Yes.
    Mr. Werner. No.
    Ms. Boggs. I am not going to answer.
    Dr. Fleming. OK. Well, I think there is general consensus 
on some issues, it sounds like. I think we are all desperately 
needing more and better data, and certainly more timely data. I 
think we all agree with that. And I think there is a broad 
consensus that we would benefit with more flexibility. So I 
think that is certainly good information, and I thank you for 
your answers on that.
    OK. Now, this question is for Mr. Pearce. Mr. Pearce, you 
note that Congress does not need to act on regional management 
because the Council is moving rapidly. Can the Council and NOAA 
act quickly enough to implement the plan of 2013?
    Mr. Pearce. Right now, our regional management plan is out 
to public hearings. We hope that, with any luck at all, by 
January to April we will have the regional management plan in 
place so that it will be ready for the season for next year. So 
I do believe that is going to happen. The resolve of the 
Council is to get that done. The resolve of National Marine 
Fisheries Service is to hopefully get that done.
    So, I think that, whereas the legislation was timely to get 
us in gear, it did. But we are in gear, and I firmly believe 
that we will be ready for the next season.
    Dr. Fleming. OK. The latest stock assessment shows 
significant improvement in the red snapper biomass, yet the 
recreational season may be even shorter than last year. How is 
this possible? Yes, Mr. Pearce?
    Mr. Pearce. Really, when it comes to that, the SSC gives us 
a certain number we have to manage to. That is a hard, fast 
number. We, as a council, don't have any options but to manage 
to that number. We have to be able, as a council, to manage 
fish and fishermen, and we don't have that option with the hard 
numbers that we are given.
    If we would have had our way as a council--I know if we had 
had my way--we would have had status quo of our fishery this 
year, knowing we had a stock assessment on the horizon with all 
the anecdotal information showing us that it is going to be a 
great stock assessment. Yet we were locked in to a number by 
the SSC that forced us to do the things that we had to do in 
the number of days.
    We have to have the ability, as a council, to look through 
that and to manage for fish and fishermen. In the past, we have 
managed--before we had a solid ACL number--ABC number, excuse 
me, from the SSC, we had a king mackerel fishery there we 
managed. We consistently allowed the fishermen to catch more 
king mackerel than the SSC said, and we still maintained 
rebuilding the stock.
    Dr. Fleming. All right. Because I am running out of time, 
let me see if I understand you correctly. You say that there 
were issues that developed that made that difficult. Was it 
lack of data? Was it slowness of data? What was the problem?
    Mr. Pearce. The inability of the Council to utilize our 
energies at the Council to manage the fishery. We managed the 
fish, we are not managing the science correctly. And if we are 
given a hard, solid number by the SSC, a hard ABC, we have no 
choice but to manage to that number. We need the flexibility to 
manage for fish and fishermen, and we don't have that now.
    Dr. Fleming. So, not having the ability to manage the data 
to help measure yourself or deliver or interact, you are given 
data that is perhaps not accurate or not trustworthy, and you 
are just having to flex with data that is just not good data.
    Mr. Pearce. I am not going to say it is not trustworthy or 
not accurate, but it is hard to manage when you are looking at 
managing fish, that is one thing. And we do a great job at 
that. When you are looking at managing science, that is another 
thing. And our SSC is charged with managing science, not fish, 
not fishermen. And they give us a number that they have to give 
us, because it is mandated by Magnuson-Stevens, and it is a 
very conservative number every year. And we continue to go 
backwards because of that number.
    We have to have, as a council, the ability to have the SSC 
as an advisory group only, to give us options that we can 
manage to, and allow us to look at the anecdotal information, 
allow us to look at what is going to be best for our fishermen 
and our country, and manage that way.
    Dr. Fleming. OK. Thank you. I now recognize the Ranking 
Member for 5 minutes.
    Mr. Sablan. Thank you very much, Mr. Chairman. I am going 
to stick to the script. I was going to say something, but I am 
going to behave and stick--Ms. Boggs, good morning. One of 
those rare people who refuse to answer a question. Very smart.
    [Laughter.]
    Ms. Boggs. If you don't know the answer, don't answer.
    Mr. Sablan. No answer, that is good. Again, but in your 
testimony you mentioned that you are taking part or 
participating in a pilot exempted fishing permit program. Would 
you please tell us or elaborate on how this kind of program can 
benefit businesses like yours and the angling public?
    Ms. Boggs. Yes, sir. The head boat pilot program that we 
have applied for, it is an exempted fishing permit. It has not 
yet been approved by NOAA--or NMFS, excuse me--but it would 
allow us the versatility to fish on days that are not rough, 
give us the flexibility to fish any time throughout the year, 
not just confine us to, as in this year, a 28-day season. It 
just gives us a lot more flexibility. And not just us, but to 
the recreational----
    Mr. Sablan. And I am assuming that a lot of people want to 
fish for red snapper because there are--I am sure they charter 
your boats for other kind of fishing, too----
    Ms. Boggs. Well, they do. And because we are a tourist area 
where we live, we also have a lot----
    Mr. Sablan. OK.
    Ms. Boggs [continuing]. Of what we refer to as snow birds, 
winter guests that come down and stay during the colder months.
    Mr. Sablan. Yes, right.
    Ms. Boggs. And they don't have the opportunity to catch the 
species. And this would allow us that opportunity for them.
    Mr. Sablan. Thank you. Thank you. Mr. Werner?
    Mr. Werner. Yes.
    Mr. Sablan. A number of witnesses have testified that 
Section 407 of the Magnuson-Stevens Act relative to red snapper 
should be modified. I think you are one of those who said----
    Mr. Werner. Yes, I did.
    Mr. Sablan. So, what are your thoughts?
    Mr. Werner. Well, with the Council makeup today, we have no 
representation on our Council. The Harlon Pearces are best 
representative commercially. We haven't had a red snapper or a 
reef fish fisherman, active reef fish fisherman, be part of 
this council process ever. And 407 encompasses the ability for 
us to have a referendum to vote on our big changes in our IFP 
programs.
    And to give you one example, the Council proposed changing 
our user fee from 3 percent to 24 percent. In other words, 
Congress had basically allowed them the ability to raise a tax 
on us, a 24 percent tax. And you know, as I have said, we don't 
have any representation. And we just felt like we are--no 
representation, and you have given the ability of taxation. 
That is just 1 example; I could give you 50 of them.
    Mr. Sablan. Yes. Well, I will have another question for 
you, Mr. Werner. Some recreational interests have argued for 
reallocation of red snapper quota from the commercial sector to 
the recreational sector. Can you please explain the benefits 
that will accrue to fishermen, consumers, and the economy by 
leaving the allocation formula as-is?
    Mr. Werner. Well, less than 3 percent of the country goes 
recreational salt water fishing. There are over 300 million 
people that want access to these fish. And with the dwindling 
amounts of fish coming into the country--we have seen large 
reductions in fish coming from Mexico, South America--our 
demand is getting so high we can't even hardly keep up with it. 
We just really need these fish, just to meet the demand of 
protein in this country over the next 20 years.
    Mr. Sablan. Yes. And, yes, because where I come from, the 
fish we would like to catch go migratory or something. But the 
anecdotal evidence suggests that the red snapper stock is 
rebuilding at a faster rate than projected. However, the vast 
majority of the fish are young and have not reached their peak 
spawning years.
    Mr. Werner, why is it important to establish a more 
balanced stock structure, and how would that progress be 
inhibited by the impacts of the Deepwater Horizon oil spill?
    Mr. Werner. Well, actually, what we are seeing right now--I 
am kind of perplexed as to why we got such a large raise in the 
quota, because if you look at the biomass, it is going straight 
up. And a lot of that isn't because the population of the fish 
is growing that fast, it is because of the fish growing in 
through the fishery, like you said.
    But we see the recruitment down to 1983 levels. And this is 
kind of an odd thing, that you have this biomass that is going 
up, and the recruitment going straight down. And I will tell 
you one thing, sitting at this table. If it goes down like it 
does 2 more years, we will probably be sitting at about a 4 or 
5 million-pound quota after that.
    Dr. Fleming. The gentleman's time is up. The Chair now 
recognizes Mr. Wittman for 5 minutes.
    Dr. Wittman. Thank you, Mr. Chairman. I would like to thank 
the panelists for joining us today, taking your time out. And 
referring back to the Chairman's question, I appreciate your 
insights on how to best manage red snapper. It sounds like 
there is at least a majority of opinion that putting more power 
back in the hands of the States, making sure, too, that they 
are part of not only the management but also the data 
collection, is a more powerful way to do that. I am in 
agreement with you. The one individual that didn't agree with 
that, I would wonder what his alternative is. More big 
government is probably not the best way to go about that. I am 
not sure that Washington knows all. In fact, I know that it 
doesn't know all.
    With that, Mr. Chairman, I am going to yield the balance of 
my time to the gentleman from Florida, Mr. Southerland.
    Mr. Southerland. Thank you, Mr. Wittman. I appreciate your 
kindness. I want to ask some questions.
    Ms. Boggs, you made reference to a pilot program that 
obviously you and your husband and your company will be a part 
of, correct?
    Ms. Boggs. Right.
    Mr. Southerland. And that has been voted on by the Gulf 
Council. Mr. Pearce, how did you vote on that particular 
program?
    Mr. Pearce. Yes, I did.
    Mr. Southerland. OK. How many boats, again? Twenty boats?
    Ms. Boggs. The EFP can accept up to 20 boats. We currently 
have 11 that have elected to be a part of the EFP.
    Mr. Southerland. Eleven boats.
    Ms. Boggs. Yes, sir.
    Mr. Southerland. OK. And the pilot program will be for 2 
years?
    Ms. Boggs. That is correct.
    Mr. Southerland. OK. I am curious. They will fish year-
round, these 20 boats. And for the 24-month period that they 
will be fishing, the other 60 head boats in the Gulf of Mexico 
will be tied to the dock and not fishing. Correct?
    Ms. Boggs. That is correct.
    Mr. Southerland. OK. I want to make sure. Tell me again the 
purpose of this pilot program.
    Ms. Boggs. We are just seeking a different way to manage 
the fish. And----
    Mr. Southerland. But wait a minute, now. It seems to me 
that if you are managing the fish, if that is the goal, and you 
have 20 boats going out year-round, catching fish, and when 
they leave the dock, OK, if they are at a dock that has five 
head boats, and one boat is involved in the pilot program, the 
other four are there, tied up, OK--bills are still coming in to 
those boats, companies, by the way--that that is managing the 
fish. It seems to me that it is probably a more Draconian way 
to manage the fleet. Would it not?
    Ms. Boggs. Well, it is interesting that you mention that. 
Like I said, there are only 11 boats that have elected to come 
into this program.
    Mr. Southerland. Right..
    Ms. Boggs. They have all been asked if they would like to 
participate. So to say they are going to be tied at the dock, 
that is pretty much their decision that they have made.
    Mr. Southerland. OK. But you have a pilot program, clearly, 
that is capped at 20. Right?
    Ms. Boggs. Yes, sir.
    Mr. Southerland. Not above that. Twenty.
    Ms. Boggs. And----
    Mr. Southerland. OK? So you have to admit that during 
this----
    Ms. Boggs. Yes, sir.
    Mr. Southerland. You have to admit that during the 2-year 
period, the 24 months of having to meet payroll, the 24 months 
of having to make a boat payment, the 24 months of having to 
put a roof over your head and food on the table for your 
children, that those 60 that are not fortunate enough to be a 
part of the pilot program are probably at a disadvantage, 
correct?
    Ms. Boggs. Well, I would like to clarify one point.
    Mr. Southerland. OK.
    Ms. Boggs. We do not get to fish 12 months out of the year. 
Due to the Magnuson-Stevens Act Section 407(d), we have to stop 
fishing when all recreational fishing ends. So, if we have a 
season that ends on June the 28th, we would only be allowed to 
fish January 1st to June the 28th. We don't have a 12-month 
season. And that is by the Magnuson-Stevens Act.
    Mr. Southerland. Right. And the pilot program would have to 
honor that, Mr. Pearce?
    Ms. Boggs. That is correct.
    Mr. Pearce. That is correct.
    Mr. Southerland. OK. So the pilot program is not a year-
round program, it is a 6 month?
    Mr. Pearce. That is the way it is set up now.
    Mr. Southerland. Six-and-a-half? OK. So the advantage that 
those 20 boats would have over the 60 is a 6-month advantage. 
Well, actually, if you back off the season, a 5-month 
advantage, as opposed to a 12-month advantage, but an 
advantage, nonetheless, correct?
    Ms. Boggs. It is an advantage, and I do not know who set 
the limits on the number of boats that come in. So I don't know 
how to clearly answer why the other 60 are not included in the 
plan.
    Mr. Southerland. I am just curious. The 11 boats that are 
currently in the program, are they owned by individuals who own 
catch shares?
    Ms. Boggs. No.
    Mr. Southerland. Mr. Pearce?
    Mr. Pearce. I am not sure, but----
    Ms. Boggs. And that is what I was just about to say. I 
don't know. I would have to look at the list----
    Mr. Southerland. Well, you said no. So----
    Ms. Boggs. Well, I apologize. But I would have to look at 
the list again, which--I don't have the list with me. So I 
don't know the answer without seeing that list again.
    Mr. Southerland. Mr. Chairman, I see my time is expired 
that was yielded to me, and I think we are coming back to me.
    Dr. Fleming. The gentleman is correct. Mr. Wittman's time 
is expired. I now recognize the gentleman from Florida for 
another 5 minutes.
    Mr. Southerland. Thank you, Mr. Chairman. Ms. Anderson, 
your family is in the head boat business.
    Ms. Anderson. Yes, we are.
    Mr. Southerland. In Panama City Beach, I believe.
    Ms. Anderson. That is correct.
    Mr. Southerland. Were you reached out to or contacted to be 
a part of this pilot program?
    Ms. Anderson. Yes, we were.
    Mr. Southerland. OK. In your opinion, the scenario that I 
just described, those 60 boats that will not be a part of the 
program, the advantage that they will have over a 2-year 
calendar period--but obviously, the season would be a 6-month 
season, so they would have about a 5-month advantage. If you 
are not lucky enough or fortunate enough to be one of the 20 
boats, how would that make you feel, to see another boat--let's 
say the boat right beside you--going offshore with tourists to 
catch fish? Is that a--would that bother you?
    Ms. Anderson. It would be a management problem for me. We 
manage the Captain Anderson Marina, and we sell tickets to the 
head boats through the office. So if one is able to have a 
season when the other is not, then it causes confusion, 
customers don't understand, and they don't understand why one 
boat can catch something that the other boats cannot. It is 
really a difficult management problem.
    But it also pits one against the other, and we try our, you 
know----
    Mr. Southerland. That is usually what bad things do.
    Ms. Anderson. Yes. And so we try our hardest at our marina 
to keep a fair playing field. And this would not do that.
    Mr. Southerland. Ms. Anderson, where would the allotment, 
the catch, come from? Is that coming from the recreational 
sector? Obviously, because head boats tend to serve, obviously, 
recreational fishermen who perhaps don't own their own boat.
    Ms. Anderson. I am not positive what they are going to do. 
I think there have been several options discussed, and I 
believe Mr. Pearce would probably be able to answer that 
better. But options that I am understanding are that they might 
be taken off the top before the allocation was designated, or 
it would be from the recreational sector.
    Mr. Southerland. Right. Is that correct, Mr. Pearce?
    Mr. Pearce. That is correct.
    Mr. Southerland. OK. You can see my problem, that it seems 
like this is a program that picks and chooses winners. Clearly, 
the 60 that aren't a part of the program, I think, would agree 
that they are not fortunate enough to go out and work. And so, 
I think there is a problem, Mr. Pearce, at the Council level. 
For this Council to accept a program that so damages and 
continues to divide a sector is--I just want it to be stated 
that I think that is ill-advised, and not designed in a way to 
help an entire industry, other than--but it does what Ms. 
Anderson has claimed. It will further divide, it will further 
cause pain. And I will tell you I think that you have not 
served the industry well by such a move.
    You mentioned--Mr. Pearce, you mentioned in your testimony 
that, in your opinion, you would have kept this current season 
as is. Is that----
    Mr. Pearce. That is exactly right.
    Mr. Southerland. OK.
    Mr. Pearce. We had a special reef fish committee meeting in 
Tampa 6, 8 months ago.
    Mr. Southerland. Right.
    Mr. Pearce. And I bitterly objected to us dropping the 
days, because we knew we had another assessment coming up in a 
few months.
    Mr. Southerland. Right.
    Mr. Pearce. We knew that there was going to be a good 
assessment, we felt that it was going to be a good assessment. 
And it was time for us to manage for fish and fishermen, not 
just for fish.
    Mr. Southerland. I know the Gulf Council recently voted on 
an emergency rule giving National Marine Fisheries greater 
authority to shorten the season, as a result of that rule. I am 
just curious how you voted on that particular motion.
    Mr. Pearce. The rule that said that anybody went non-
compliant, any State that went non-compliant, would have to be 
shut down quicker? Is that the rule you are talking about?
    Mr. Southerland. That certainly would not keep the season 
as it currently was.
    Mr. Pearce. Not keep it as it was?
    Mr. Southerland. Well, you said in your testimony----
    Mr. Pearce. Right.
    Mr. Southerland [continuing]. That if it were up to you, 
that you would have kept the season as is.
    Mr. Pearce. Correct.
    Mr. Southerland. I am just curious how you voted on that 
emergency rule giving National Marine Fisheries, and most 
specifically Mr. Roy Crabtree, the authority to shut down the 
Gulf, or reduce the Gulf in days fished.
    Mr. Pearce. I voted against that.
    Mr. Southerland. You voted against that?
    Mr. Pearce. Yes.
    Mr. Southerland. OK. Just curious. That particular--it 
certainly passed. Correct me if I am wrong, but when that first 
came up, it was voted on twice, was it not?
    Mr. Pearce. Correct.
    Mr. Southerland. So the first time it was voted down.
    Mr. Pearce. Correct.
    Mr. Southerland. And then Mr. Crabtree called a closed 
session, and then came----
    Mr. Pearce. No. It was brought up by one of the people on 
the prevailing side called for another vote. He wanted to bring 
it back up. And it----
    Mr. Southerland. After what I understand was a discussion 
from Mr. Crabtree to the Council.
    Mr. Pearce. To that individual, I am sure.
    Mr. Southerland. Mm-hmm. And then it was called right back 
up for another vote, and it was passed, to give him--after that 
conversation--to give him greater authority to reduce days 
fishing in the Gulf.
    Mr. Pearce. Yes.
    Mr. Southerland. OK. Do you see the problem with the 
integrity of that process, at least the appearance of evil?
    Mr. Pearce. I can understand that. And in defense of Dr. 
Crabtree, I thought he was doing the right thing. And what he 
was trying to really do was penalize States that did not go 
compliant, and that would maybe hurt the States that did. So he 
had the right intentions, but I think it did happen wrong.
    Mr. Southerland. Yes. Very good. I yield back.
    Dr. Fleming. The gentleman's time has expired. Thank you, 
panel number two, for your testimony, and being willing to 
answer the questions. I would also like to thank Members and 
staff for their participation and preparation.
    Members of the Committee may have additional questions for 
the witnesses, and we ask you to respond to those in writing. 
The hearing record will be open for 10 days to receive these 
responses.
    If there is no further business, without objection, the 
Committee stands adjourned.
    [Whereupon, at 12:20 p.m., the Committee was adjourned.]

    [Additional material submitted for the record follows:]

     Statement submitted for the record by Pamela Baker, Director, 
    Gulf of Mexico and Southeast Oceans, Environmental Defense Fund

    Thank you for the opportunity to comment on the management of red 
snapper in the Gulf of Mexico under the Magnuson-Stevens Fishery 
Conservation and Management Act (MSA). Please accept this written 
testimony into the record for the hearing.
    The MSA has played a vital role in helping to protect stocks from 
overfishing, rebuild those that are overfished, and provide for 
continued enjoyment of important recreational opportunities. Gulf of 
Mexico red snapper has benefited from the MSA's conservation 
provisions, but we agree with fishermen and others who have expressed 
the need for more effective management of the recreational sector of 
the fishery, which faces the shortest season on record this year, even 
as managers anticipate that catches will exceed established limits yet 
again.
    The difficulty providing adequate fishing opportunities for 
recreational fishermen is in stark contrast with the success of 
commercial red snapper management. Not long ago, commercial fishermen 
dealt with regulations similar to those now governing recreational 
fishing, such as short seasons, daily trip (poundage) limits, and high 
minimum size limits. These rules led to dangerous derby fishing, huge 
amounts of fish thrown back dead or dying, economic decline and quota 
overages.
    In response, the Gulf of Mexico Fishery Management Council (Gulf 
Council) overhauled management, by dividing the commercial share among 
participants, holding each party responsible for complying with his 
limit, and implementing strong reporting and monitoring systems. This 
approach, called individual fishing quotas (IFQs), allows fishermen to 
benefit from higher quotas when the fish population grows, creating 
material incentives to support science-based management. These changes 
helped stop overfishing, and red snapper are now available year-round 
and helping to meet the growing U.S. demand for wild fresh seafood. In 
addition, strong and stable prices for this high-quality fish are 
protecting jobs and boosting businesses in coastal fishing communities.
    Nearly identical issues to those confronted by the commercial 
fishery a decade ago now plague recreational fishermen. As the stock 
rebounds and snapper are plentiful and larger, anglers reach their 
quotas faster. With recreational fishing of red snapper still based on 
failing tools such as season length, daily catch and size limits, get-
it-while-you-can racing is growing more intense and regulations are 
forcing anglers to throw back millions of small fish, usually dead or 
dying. Moreover, data collection and monitoring systems are outdated, 
slow and imprecise, which further undermine faith in management. While 
tools like daily catch and size limits are used successfully in many 
coastal fisheries, they are not effective for fish like red snapper and 
other reef fish that do not survive catch and release well, and are 
caught together with other species sharing the same offshore habitat 
throughout the Gulf, even if anglers are not targeting them.
    Because the management system is not tailored to the particular 
conditions of the fishery and data systems are poor, it cannot keep the 
recreational sector within its share of the quota or provide the 
longer, year-round fishing opportunities anglers want. Recreational 
fishermen are rightfully angry and confused as they are told that they 
have exceeded their quota even though they individually comply with 
tighter restrictions on a growing fish stock.
    In the face of this frustrating situation, States and Members of 
Congress have suggested that red snapper be managed via ``regional 
management'' that divides the red snapper fishery among states and 
allows each to manage the fish in both the state and federal waters off 
its coast. Some proposals apply only to recreational catch, while 
others include the commercial sector. This approach holds promise for 
private recreational anglers, but changing the managers will not fix 
the problem unless the states have the authority and the incentive to 
use new management techniques that are appropriate to the conditions of 
the fishery.
    For example, states can try methods such as harvest tags, similar 
to those used to allot hunting privileges for limited game populations 
like deer and elk. Tags could be allocated throughout the year to 
accommodate tourist seasons, tournaments, and other priorities. Angler 
management organizations, which receive a given amount of fish to 
distribute at the local level and allow anglers to manage themselves in 
cooperation with regulators, also have promise. Anglers have developed 
self-reporting systems that can harness modern technology to greatly 
improve data collection and monitoring. Whatever their approach, 
states' authority should be conditioned upon demonstrated improvements 
in setting, monitoring, and complying with recreational harvest limits 
over the existing Gulf-wide plan. While state management agencies have 
greater experience with managing recreational species on land and in 
freshwater, questions remain concerning how to enforce different rules 
in the deep, offshore marine waters off of different states and how to 
account for the catch. States can play an important role in improving 
management of the recreational sector, but they need to demonstrate how 
they would do so in order to justify transferring authority to them.
    The for-hire sector occupies a unique position in the fishery, 
providing access to offshore fishing grounds for anglers who do not own 
boats. Like commercial fishermen, for-hire captains run small 
businesses and have a commercial orientation. As such, for-hire 
captains could benefit from a specially-tailored IFQ plan similar to 
the one designed by the commercial sector so that they can plan trips 
and serve customers to make the most of the limited fish. Accordingly, 
they are likely better managed by federal regulators, who have greater 
experience with such systems.
    As the red snapper fishery recovers, we must make sure not to 
undermine the benefits a growing red snapper population has provided to 
all fishermen, consumers and coastal communities. Real challenges face 
recreational managers--whichever level of government they work for--and 
that is why improved management tools are urgently needed. Commercial 
management has already demonstrated how a healthy Gulf red snapper 
fishery can accommodate the ever-shifting demands of society for 
recreation and fresh, locally-caught seafood. Congress should encourage 
fishermen to work together to improve management to make the most of 
the growing red snapper bounty. Thank you for the opportunity to submit 
this testimony.
                                 ______
                                 
    [A statement submitted for the record by The Honorable Jo 
Bonner, a Representative in Congress from the State of Alabama, 
follows:]

    Statement submitted for the record by The Honorable Jo Bonner, 
         a Representative in Congress from the State of Alabama

    Chairman Hastings, Ranking Member Markey, Distinguished Members of 
the Committee,
    I'd like to thank you for once again allowing me to participate as 
a guest member of the Natural Resources Committee to discuss an issue 
of notable concern for the Gulf Coast, the mismanagement by federal 
regulators of the Red Snapper fishery.
    I wish to thank the committee for holding this hearing and for also 
inviting Chris Blankenship, Director of the Marine Resources Division 
of the Alabama Department of Conservation and Natural Resources, Herb 
Malone, President/CEO of the Alabama Gulf Coast Convention & Visitors 
Bureau as well as Susan Boggs, Co-Owner Reel Surprise Charter Fishing 
to testify about the negative impact of the National Marine Fisheries 
Service (NMFS) and Gulf of Mexico Fishery Management Council fish 
management practices on our state and the Gulf Coast as a whole.
    I was last here on October 27, 2011, participating in a hearing 
looking into the operation of the Gulf Coast Claims Facility, following 
the Deepwater Horizon Oil Spill of 2010. The oil spill, coupled with a 
flawed claims process, left thousands of residents along the Gulf Coast 
out of work and improperly compensated for damages.
    This conversation we are having today is similar in nature and of 
equal concern along the Gulf Coast. The mismanagement of the reef-fish 
fishery in the Gulf, specifically Red Snapper, has been frustrating to 
say the least. Data gathered by scientists in each of our states and 
anecdotal evidence from resource user groups have quantified the 
abundance of Red Snapper. Even so, NMFS continues to enact draconian 
restrictions based on their own flawed data, which flies in the face of 
good science and common sense.
    Earlier this year, I introduced H.R. 1219, the Gulf Fisheries 
Fairness Act, in an effort to provide the Gulf States with the 
appropriate authority they need to manage a fishery they are very 
capable of regulating, and to give our fishermen and tourism industry 
the life-line they so desperately need. It's important we recognize a 
one-size-fits-all reef fish management policy in the Gulf is antiquated 
and doesn't accurately reflect decade's worth of reef management 
policies implemented by our states.
    We hold this hearing today on the eve of Red Snapper season's last 
day. Beginning on the first of June, federal regulators gave the people 
of Alabama a mere 28 consecutive days to go fishing. Now, here we are 
on the 27th day of June wondering where the time went. We did not get 
to fish every day, every weekend or every week for that matter. Some of 
us were lucky to get in one fishing trip, lasting less than an hour 
before limiting out and heading back to the dock.
    This is certainly not a sustainable model for anyone who runs a 
business on the Gulf Coast. What often goes unnoticed is the size and 
reach of the fishing community beyond the shoreline. Local economies 
directly impacted by unnecessarily stringent restrictions on fishing go 
far beyond our charter boats, commercial vessels and private anglers. 
Local bait and tackle shops, gas stations and marinas, boat dealers, 
restaurants, grocery stores and the hospitality industry all bear the 
impact of overly restrictive fisheries management policies. Tourists 
book trips months in advance of the summer season to fish on charter 
boats, stay in local residences and hotels and eat at local restaurants 
that all feature Red Snapper on the menu.
    In order for us to see any real change in fishery management 
practices we need strong and accurate science. Our states stand willing 
and ready to gather the data that NMFS knowingly disregards. The 
current baseline data used to determine ``overfishing'' is wholly 
inaccurate, based solely on dockside counts and not accounting for the 
approximately 20,000 artificial reefs the State of Alabama has 
proactively established.
    I strongly believe that including studies of fishery independent 
data by using long lines and reef cameras at both public and private 
locations as well as many other methods will greatly improve our data 
set and provide a more accurate picture of the Gulf of Mexico fishery.
    Mr. Chairman, we have seen time and again where the heavy hand of 
the federal government isn't getting this right. We've tried what 
National Marine Fisheries has directed and the problem gets worse, not 
better. It's time to try something new and let the states--who have a 
vested interest in the health of the Red Snapper fishery--have a chance 
at managing the fishery.
                                 ______
                                 

               Statement submitted for the record by the 
           Gulf Fishermen's Association, Clearwater, Florida

    My name is John Schmidt and I have been fishing in the Gulf of 
Mexico for more than 25 years. On behalf of the Gulf Fishermen's 
Association, I would like to thank you for the opportunity to submit 
written testimony related to Red Snapper Management.
    We are strongly opposed to shifting Red Snapper management away 
from the Gulf Council and National Marine Fisheries Service. Our 
members and every commercial fisherman at last week's Gulf Council 
meeting in Pensacola, FL who gave public testimony felt the same way. 
Here are just a few of the reasons why:
    These fish belong to ALL Americans, not just the Gulf States. Less 
than 1% of Americans can go catch their own Red Snapper. Recreational 
Gulf State fishermen catch half of Red Snapper caught in the Gulf. All 
of America gets the other half.
    State management is dominated by recreational fishing interests, 
and consumers are largely unrepresented. A shift away from Federal 
management is a shift away from fresh domestic seafood for millions of 
Americans who have invested in our fisheries. These Americans need and 
deserve congresses protection.
    Gulf Red Snapper are one of America's most prominent fisheries 
successes. Fifteen years ago nobody was fighting over Red Snapper 
because there weren't many to fight over. Today it's clear that the 
rebuilding process is working and abundance is increasing.
    The commercial sector that catches fish for Americans has 
established a management system that never exceeds its quota, has world 
class data collection, enforcement, and provides fresh domestic seafood 
year round. The economic value of the resource has increased 
exponentially and contributes more to society per pound of fish than 
any other management system.
    Some recreational leaders, on the other hand, are working to take 
away more fish from America. Despite the fact that they already get 
100% of freshwater fish, near 100% of inshore saltwater fish, 100% of 
game fish, and a disproportionate amount of reef fish, they want more. 
These are the only people resisting better management ideas.
    Congress should work with the recreational sector to create a 
better management system for them. The commercial sector has been 
working for years and has made many sacrifices to get to where we are 
today. We have learned many lessons and would look forward to sharing 
them with Congress if there are ways they can be applied to the 
recreational sector as well.
    Red Snapper is part of the Federal Reef fish complex. They inhabit 
the same places as other reef fish and ultimately need to be managed a 
group to yield the best benefit to the country. They don't stop and 
start at 20 fathoms and you can't just separate out one species. Having 
two entities manage these species is economically inefficient and rife 
with conflict. There is no evidence that States are equipped to manage 
offshore fisheries.
    States already have a substantial role in managing federal reef 
fish. The Gulf council is made up almost entirely of people appointed 
by governors of Gulf States. Members of every state fishery agency sit 
on the council. Much of the data they consider comes from the states. 
The only thing missing is representation from the rest of America that 
pays for it. If there were representation from the 98% of Americans 
that depend on fresh domestic seafood, this initiative to take it away 
from them would never have happened.
    I want to thank Congress for the role it has played and America for 
the commitment it has made to healthy fisheries. Now we need you to 
protect America's portion as our fisheries rebuild.

Sincerely,

Gulf Fisherman's Association Board of Directors:

Glen Brooks: President, Cortez, FL 941-920-7302
Dean Pruitt: Vice President, Clearwater, FL 727-512-2609
Jim Clements, Board Member, Carrabelle, FL 850-544-5703
Brad Kenyon: Board Member, Tarpon Springs, FL 727-639-0643
Jason Delacruz: Board Member, Seminole, FL 727-639-6565
John Schmidt: Board Member, Palm Harbor, FL 727-403-6281
Will Ward: Board Member, St. Petersburg, FL 727-638-8316

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
